No. 19-____

IN THE

Supreme Court of the United States
————
RAHEEM JOHNSON,
Petitioner,
v.
JEFFREY KISER, WARDEN,
Respondent.
————
On Petition for a Writ of Certiorari to the
Supreme Court of Virginia
————
PETITION FOR A WRIT OF CERTIORARI
————

ELLIOTT SCHULDER
Counsel of Record
SHADMAN ZAMAN
MORGAN LEWIS
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
eschulder@cov.com
Counsel for Petitioner
January 13, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Whether an indigent defendant who seeks the
appointment of a mental conditions expert to assist in
the sentencing phase of his trial is denied due process
if the trial court first requires him to satisfy more than
the three threshold criteria established by this Court
in Ake v. Oklahoma, 470 U.S. 68 (1985), and clarified
in McWilliams v. Dunn, 137 S. Ct. 1790 (2017).

(i)

ii
PARTIES TO THE PROCEEDING
Petitioner is Raheem Johnson. Respondent is
Jeffrey Kiser, the Warden of Red Onion State Prison.
LIST OF RELATED PROCEEDINGS
Johnson v. Kiser, Record No. 181631 (Va. Aug. 16,
2019)
Johnson v. Kiser, Civil No. CL18000284-00 (Va. Cir.
Ct. Sep. 17, 2018)
Johnson v. Commonwealth, 793 S.E.2d 326 (Va. 2016),
cert. denied sub nom. Johnson v. Virginia, 138 S. Ct.
643 (2018)
Johnson v. Commonwealth, 755 S.E.2d 468 (Va. Ct.
App. 2014)
Commonwealth v. Johnson, Case No. CR1102262200–07 (Va. Cir. Ct. Feb. 5, 2012) (conviction)

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING ....................

ii

LIST OF RELATED PROCEEDINGS ................

ii

TABLE OF AUTHORITIES ................................

vii

OPINIONS BELOW ............................................

2

JURISDICTION ..................................................

2

RELEVANT CONSTITUTIONAL PROVISION ..

3

STATEMENT OF THE CASE ............................

3

REASONS FOR GRANTING THE PETITION ...

9

I. THE RULING BELOW CONFLICTS
WITH THIS COURT’S DECISIONS IN
AKE AND MCWILLIAMS ........................

9

A. Ake and McWilliams established the
only requirements that an indigent
defendant seeking a mental conditions expert to aid in his defense must
satisfy ...................................................

9

B. The Virginia Supreme Court improperly expanded the requirements for
indigent defendants seeking the assistance of a mental conditions expert,
in direct conflict with Ake and
McWilliams ..........................................

11

C. This case is the proper vehicle to
resolve the issue ..................................

15

(iii)

iv
TABLE OF CONTENTS—Continued
Page
II. JOHNSON’S HABEAS CLAIM IS NOT
PROCEDURALLY DEFAULTED ............

17

A. Henry does not bar Johnson’s habeas
petition .................................................

19

B. If Johnson defaulted his claim, it is
excusable under Parrigan ...................

19

C. This is an exceptional case ..................

21

CONCLUSION ....................................................

22

APPENDIX
APPENDIX A: Order Denying Petition for
Appeal, Issued by the Supreme Court of
Virginia (Aug. 16, 2019) .................................

1a

APPENDIX B: Order Dismissing Petition
for Writ of Habeas Corpus, Issued by the
Virginia Circuit Court for the City of
Lynchburg (Sept. 17, 2018) ............................

2a

APPENDIX C: Petition for Writ of Habeas
Corpus, Filed in the Virginia Circuit Court
for the City of Lynchburg (March 18, 2018) ..

9a

APPENDIX D: Motion to Dismiss Petition
for Writ of Habeas Corpus, Filed in the
Virginia Circuit Court for the City of
Lynchburg (July 30, 2018) .............................

28a

APPENDIX E: Reply to Motion to Dismiss
Petition for Writ of Habeas Corpus, Filed in
the Virginia Circuit Court for the City of
Lynchburg (Aug. 13, 2018).............................

35a

v
TABLE OF CONTENTS—Continued
Page
APPENDIX F: Appeal of Denial of Petition
for Writ of Habeas Corpus, Filed in the
Supreme Court of Virginia (Dec. 13, 2018) ...

43a

APPENDIX G: Opinion of the Supreme
Court of Virginia (Dec. 15, 2016) ...................

68a

APPENDIX H: Opinion of the Virginia
Court of Appeals (Mar. 25, 2014)...................

90a

APPENDIX I: Order and Judgment of
Guilt, Issued by the Virginia Circuit Court
for the City of Lynchburg (Jul. 17, 2012) ...... 103a
APPENDIX J: Order Denying Motion to
Appoint an Expert, Issued by the Virginia
Circuit Court for the City of Lynchburg
(Aug. 15, 2012) ............................................... 106a
APPENDIX K: Sentencing Order, Issued by
the Virginia Circuit Court for the City of
Lynchburg (Oct. 5, 2012) ............................... 108a
APPENDIX L: Letter Opinion Denying
Motion for Reconsideration, Issued by the
Virginia Circuit Court for the City of
Lynchburg (Oct. 23, 2012).............................. 112a
APPENDIX M: Defendant’s Motion to Appoint
an Expert, Filed in the Virginia Circuit
Court for the City of Lynchburg (Aug. 1,
2012) ............................................................... 114a
APPENDIX N: Excerpt of Hearing Transcript
on Defendant’s Motion to Appoint an Expert
(Aug. 15, 2012) ............................................... 117a

vi
TABLE OF CONTENTS—Continued
Page
APPENDIX O: Defendant’s Letter to Judge
Perrow Identifying Scholarly Articles (Sept.
4, 2012) ........................................................... 124a
APPENDIX P: Excerpt of Sentencing Transcript (Oct. 5, 2012) ........................................ 129a
APPENDIX Q: Defendant’s Motion for Reconsideration (Oct. 15, 2012) ............................... 132a
APPENDIX R: Petition for Writ of Certiorari, Filed in the Supreme Court of the
United States (Aug. 21, 2017) ........................ 137a
APPENDIX S: Opposition to Petition for
Writ of Certiorari, Filed in the Supreme
Court of the United States (Nov. 20, 2017) ... 141a

vii
TABLE OF AUTHORITIES
CASES

Page(s)

Ake v. Oklahoma,
470 U.S. 68 (1985) ....................................passim
Barnabei v. Commonwealth,
477 S.E.2d 270 (Va. 1996) ........................ 15-16
Brady v. Maryland,
373 U.S. 83 (1963) .....................................

8

Branche v. Commonwealth,
2006 WL 1222400 (Va. Ct. App. May 9,
2006) ..........................................................

15

Caldwell v. Mississippi,
472 U.S. 320 (1985) ..................................passim
Coleman v. Thompson,
501 U.S. 722 (1991) ...................................

21

Commonwealth v. Sanchez,
597 S.E.2d 197 (Va. 2004) ........................

14

Dowdy v. Commonwealth,
686 S.E.2d 710 (Va. 2009) ........................

14

Eddings v. Oklahoma,
455 U.S. 104 (1982) ...................................

16

Graham v. Fla.,
560 U.S. 48 (2010) ..................................... 6, 16
Griffith v. Kentucky,
479 U.S. 314 (1987) ...................................

21

Henry v. Warden,
576 S.E.2d 495 (Va. 2003) .................. 17, 18, 19
Husske v. Commonwealth,
476 S.E.2d 920 (Va. 1996) .......................passim

viii
TABLE OF AUTHORITIES—Continued
Page(s)
Johnson v. Commonwealth,
793 S.E.2d 326 (Va. 2016) ........................

2

Johnson v. Oklahoma,
484 U.S. 878 (1987) ...................................

13

Johnson v. Virginia,
138 S. Ct. 643 (2018) .................................

7

Lee v. Kemna,
534 U.S. 362 (2002) ...................................

21

Lenz v. Commonwealth,
544 S.E.2d 299 (Va. 2001) ........................

15

McWilliams v. Dunn,
137 S. Ct. 1790 (2017) ..............................passim
Miller v. Alabama,
567 U.S. 460 (2012) ..................................passim
Moore v. Kemp,
809 F.2d 702 (11th Cir. 1987) ...................

14

Morva v. Commonwealth,
683 S.E.2d 553 (Va. 2009) ........................

15

Muhammad v. Warden of Sussex I
State Prison,
646 S.E.2d 182 (Va. 2007) ........................

19

Page v. Lee,
337 F.3d 411 (4th Cir. 2003) .....................

17

Roper v. Simmons,
543 U.S. 551 (2005) ...................................

16

Slayton v. Parrigan,
205 S.E.2d 680 (Va. 1974) ........................ 18, 20

ix
TABLE OF AUTHORITIES—Continued
Page(s)
State v. Moore,
2016 WL 853277 (2016) ............................

17

State v. Sisson,
567 N.W.2d 839 (1997) .............................

17

Teague v. Lane,
489 U.S. 288 (1989) ...................................

21

Young v. State,
No. W2011-00982-CCA-R3PD,
2013 WL 3329051 (Tenn.
Crim. App. June 27, 2013) ........................

17

CONSTITUTIONAL PROVISIONS
U.S. Const. amend. VIII ...............................

4

U.S. Const. amend. XIV ............................... 10, 17
U.S. Const. amend. XIV, § 1 ........................

3

STATUTES
28 U.S.C. § 1257(a) .......................................

2

PETITION FOR WRIT OF CERTIORARI
This case presents an important question concerning what showing courts can demand of indigent
defendants seeking the assistance of mental conditions experts at trial and at sentencing. Raheem
Johnson was sentenced to life in prison for a murder
that was committed when he was a juvenile. Prior to
his sentencing, Johnson, pursuant to Ake v. Oklahoma,
470 U.S. 68 (1985), requested the assistance of a
neuropsychologist who could opine on his brain development because it was both relevant to the punishment
he could receive and was seriously in question at the
time of the offense. Despite meeting the requirements
set forth in Ake, the trial court, and later the Virginia
Supreme Court, concluded that because Johnson had
not also demonstrated a “particularized need” for a
mental conditions expert, his request must be denied.
The Virginia Supreme Court’s decision directly conflicts with Ake. In McWilliams v. Dunn, 137 S. Ct. 1790
(2017) this Court held that under Ake, a defendant
seeking a mental conditions expert need only show
that (1) he is indigent; (2) that his mental condition is
relevant to the punishment he may receive; and (3)
that his mental condition during the commission of the
offense was seriously in question. Id. at 1798. Neither
Ake nor McWilliams requires an indigent defendant
to demonstrate a particularized need for a mental
conditions expert.
Because McWilliams was decided after Johnson had
exhausted his direct appeal in state court, he sought
relief in state court under McWilliams at his first
available opportunity through his pro se state habeas
petition. But both the trial-level habeas court and
the Virginia Supreme Court refused to consider the
constitutionality of requiring an indigent defendant

2
who meets Ake’s requirements to also demonstrate a
particularized need for a mental conditions expert.
Instead, the Virginia courts erroneously held that
because Johnson did not raise his McWilliams claim
at trial or on direct appeal and because its prior rulings were purportedly based on Ake, which McWilliams
did not alter, he had defaulted his claim.
In filing this petition, Johnson asks this Court to
clarify Ake by rejecting the particularized need inquiry
as applied to indigent defendants seeking mental
conditions experts to aid in their defense. In the
alternative, the Court should vacate the ruling below
and remand this case for further consideration in light
of McWilliams, which stated that a defendant only
must meet Ake’s three threshold criteria.
OPINIONS BELOW
The order of the Supreme Court of Virginia denying
Johnson’s appeal from the dismissal of his petition for
a writ of habeas corpus, Pet. App. 1a, is unreported.
The opinion of the Circuit Court for the City of
Lynchburg dismissing Johnson’s petition for a writ of
habeas corpus, Pet. App. 2a, is also unreported. The
opinion of the Supreme Court of Virginia denying
Johnson’s direct appeal, Pet. App. 68a, is reported at
793 S.E.2d 326 (Va. 2016).
JURISDICTION
The Supreme Court of Virginia entered judgment on
August 16, 2019. On November 7, 2019, the Chief
Justice extended the time for filing this petition to and
including January 13, 2020. This Court has jurisdiction under 28 U.S.C. § 1257(a).

3
RELEVANT CONSTITUTIONAL PROVISION
The Fourteenth Amendment to the United States
Constitution provides in pertinent part: “No State
shall . . . deprive any person of life, liberty, or property,
without due process of law; nor deny to any person . . .
the equal protection of the laws.” U.S. Const. amend.
XIV, § 1.
STATEMENT OF THE CASE
On April 11, 2011, Timothy Irving was shot and
killed in Lynchburg, Virginia. Pet. App. 69a. The
Commonwealth of Virginia indicted Raheem Johnson
on eight felony counts relating to Irving's death,
including capital murder. Johnson was 17 years old at
the time of Irving’s murder. Id. After this Court’s
decision in Miller v. Alabama, 567 U.S. 460 (2012), the
Commonwealth filed a superseding indictment, reducing
the capital murder charge to first degree murder. Id.
The jury ultimately convicted Johnson on all eight
counts. Id.
Facing a potential life sentence, Johnson, who was
indigent, sought the assistance of a mental conditions
expert to help him prepare for his sentencing hearing.
Relying on Ake v. Oklahoma, 470 U.S. 68 (1985),
Johnson filed a motion requesting the appointment of
Joseph Conley, Ph.D. (“Dr. Conley”), a neuropsychologist,
to assist him. Pet. App. 114a. In his motion, Johnson
explained that a “standard presentence report does
not explore the development of an individual’s brain or
how mature the individual’s brain is.” Id. 115a.
Johnson noted that scientific research had found that
“an individual’s brain does not fully mature until the
mid-twenties . . . and demonstrates numerous cognitive deficits [that] go undetected . . . in the absence of
a proper examination.” Id. Accordingly, Johnson

4
sought Dr. Conley’s assistance to fully advise the court
on Johnson’s brain functioning at the time of the
offense, which Johnson argued would help the trial
court render a sentence consistent with the Eighth
Amendment. Id. 116a.
At the hearing on the motion, there was no discussion of the Ake factors. Id. 117a–123a. Specifically,
there was no consideration of whether Johnson’s
mental condition was relevant to the punishment he
might suffer, or whether his mental condition at the
time of the offense was seriously in question, as Ake
requires. 470 U.S. at 80. Rather, the focus was on
whether Johnson had demonstrated a “particularized
need” for the mental conditions expert he requested.
Pet. App. 121a–123a.
The “particularized need” inquiry stems from the
Virginia Supreme Court’s holding in Husske v.
Commonwealth, 476 S.E.2d 920 (Va. 1996). In Husske,
the Court considered whether an indigent defendant
seeking an independent DNA expert to defend against
a charge of rape was entitled to appointment of such
an expert to assist him at trial. Id. The Virginia
Supreme Court considered this Court’s decision in
Ake, but recognized that it was limited to the case of
an indigent defendant requesting a psychiatric expert.
Husske, 476 S.E.2d at 924. Purporting instead to
rely on Caldwell v. Mississippi, 472 U.S. 320 (1985),
the Virginia Supreme Court held that an indigent
defendant is entitled to the appointment of a nonpsychiatric expert at the state’s expense only if he can
demonstrate a particularized need. Id. at 925. In
other words, it said the defendant must show “that the
services of an expert would materially assist him in
the preparation of his defense and that the denial of
such services would result in a fundamentally unfair

5
trial.” Id. Under this standard, the state court denied
Husske’s motion.
Though Husske exclusively addressed the right to
non-mental condition experts, the Commonwealth
relied on Husske to contend that Johnson’s request for
a mental conditions expert should be denied. The
Commonwealth principally argued that Johnson’s
“mere hope or suspicion that favorable evidence” may
result from Dr. Conley’s assistance was not enough to
show he had a particularized need for a neuropsychologist. Pet. App. 120a. The Commonwealth
also asserted that Dr. Conley’s proposed evaluation
and testimony regarding Johnson’s brain development
was just a matter of common sense because it is
obvious that young people are less mature than older
ones; thus, it said such testimony would not have
materially assisted in Johnson’s defense. Id. The
Commonwealth, however, never asserted that Johnson
did not meet the requirements of Ake for the mental
conditions expert assistance he sought.
The trial court concluded that Johnson did not show
a “particularized need” for the neuropsychologist he
requested: it said his school records did not indicate a
need for a psychological evaluation, and the mere fact
that he was a juvenile at the time of the offense did not
suffice because, at age 18, “he’s now an adult.” Pet.
App. 122a. The trial court further reasoned that Miller
v. Alabama, 567 U.S. 460 (2012), does not require a
mental health evaluation in every case where the
accused was a juvenile at the time of the offense. Id.
But, at no point did the trial court consider whether
Johnson had met his burden under Ake.
At sentencing, the trial court considered the
presentencing report, Johnson’s school records, and
four articles Johnson’s lawyer submitted regarding

6
brain development and legal culpability generally. Id.
71a. After referring to the nature and circumstances
of the offense, the trial court sentenced Johnson to life
in prison for the first degree murder count plus an
additional forty-two years for the other seven counts.
Id.
Johnson moved for reconsideration of his life
sentence, arguing that the sentence failed to consider
“Johnson’s individual characteristics as required by”
Miller and Graham v. Florida, 560 U.S. 48 (2010).
Pet. App. 132a–136a. Citing the “horrendous nature
of the crime” and Johnson’s “history of disrespect for
authority and aggressive behavior,” the trial court
denied Johnson’s motion for reconsideration, concluding that he is a “danger to himself and others should
he be returned to society.” Id. 113a.
Johnson appealed to the Virginia Court of Appeals,
challenging both the trial court’s denial of his request
for appointment of a mental conditions expert and its
imposition of a life sentence. Id. 72a. The Court of
Appeals denied Johnson’s petition for appeal as to the
trial court’s decision regarding Dr. Conley, but it
considered and affirmed Johnson’s life sentence. Id.
Johnson next appealed to the Virginia Supreme
Court, raising both the trial court’s denial of a mental
conditions expert and its imposition of a life sentence.
Id. The court affirmed the trial court on both issues.
Id. 68a. As to the mental conditions expert, the court
held that the “trial court did not abuse its discretion
in denying Johnson’s motion for the appointment of
a neuropsychologist at the Commonwealth’s expense
and the Court of Appeals did not err in upholding this
determination.” Id. 76a. Like the trial court, the
Virginia Supreme Court did not consider Ake in reaching its holding, and instead reasoned that “Johnson’s

7
request for a neuropsychologist amounted to a mere
hope that favorable evidence would be obtained.
Thus, it cannot be said that Johnson demonstrated a
particularized need for the assistance of a neuropsychologist.” Id. 74a.
After the Virginia Supreme Court denied his appeal,
Johnson filed a petition for certiorari in this Court,
seeking guidance on (1) “whether Miller v. Alabama
applies to a sentence of life in prison imposed on a
juvenile whose only opportunity for release from
prison is Virginia’s geriatric-release program,” and
(2) “when a juvenile faces a sentence equal to or
exceeding his natural life, must the sentencing court
conduct an individualized inquiry, including receiving
expert testimony, to determine whether the defendant
is the rare juvenile offender who should be treated
as permanently incorrigible?” Id. 138a. The latter
question expressly relied on Ake and on McWilliams,
which this Court had just decided. Id. 139a. This
Court called for a response, and the Commonwealth
focused on Miller. Id. 142a. Its brief in opposition
mentioned Ake only once, in the statement of the case,
and did not mention McWilliams at all. Pet. App.
143a–148a. The Court denied certiorari. Johnson v.
Virginia, 138 S. Ct. 643 (2018).
Johnson then filed a pro se petition for a writ of
habeas corpus in the Circuit Court for the City of
Lynchburg. Pet. App. 9a. In Claim A of his petition,
he alleged that the state court’s denial of his motion
for a neuropsychologist violated Ake in light of this
Court’s ruling in McWilliams. Id. 14a–19a. In Claim
C, Johnson incorporated the factual allegations and
legal arguments from Claim A, and asserted that “[i]f
there was a procedural vehicle (other than habeas
corpus) by which Petitioner could have brought a

8
timely action . . . [to] obtain the benefit of . . .
McWilliams,” defense counsel’s failure to do so constituted ineffective assistance, both as a freestanding
basis for collateral relief alternative to Claim A and as
cause for any procedural default of Claim A.1 Id. 26a.
The Circuit Court disagreed, holding that Johnson
procedurally defaulted his claim, despite McWilliams
having been decided after Johnson had exhausted
his direct appeal in state court. The habeas court
reasoned first that McWilliams created no change in
the law; it was based on Ake and Johnson’s arguments
relying on Ake had been raised and rejected in his
direct appeal and in his petition for certiorari to this
Court. Id. 3a–4a. Next, the court held that to the
extent Johnson made “new allegations” based on
McWilliams “he could have raised it at trial and on
appeal.” Id. 4a. Johnson petitioned for leave to appeal
to the Virginia Supreme Court, but that court summarily denied Johnson’s petition, stating only that
“there [was] no reversible error in the judgment
complained of.”2 Id. 1a.

1

Claim C also alleged ineffective assistance of trial counsel
with respect to a violation of Brady v. Maryland, 373 U.S. 83
(1963). The Brady-specific issues in Claim C are not presented
in this petition for certiorari.
2

In Section II of the petition, Petitioner explains why the state
courts’ dismissal does not rest on independent and adequate state
law grounds.

9
REASONS FOR GRANTING THE PETITION
I. THE RULING BELOW CONFLICTS WITH
THIS COURT’S DECISIONS IN AKE AND
MCWILLIAMS
A. Ake and McWilliams established the
only requirements that an indigent
defendant seeking a mental conditions
expert to aid in his defense must satisfy
In Ake, this Court considered the due process rights
of an indigent defendant seeking the assistance of a
psychiatric expert in preparing and presenting his
defense at trial and at sentencing. 470 U.S. at 68.
To resolve this question, the Court weighed the
defendant’s interest in the “accuracy of a criminal proceeding,” which the Court considered “almost uniquely
compelling,” against the burden imposed on a state to
provide psychiatric experts in light of the “probable
value of the psychiatric assistance sought, and the risk
of error . . . if such assistance is not provided.” Id. at
78–79.
Unpersuaded by the burden imposed on states to
provide such assistance, especially where “the defendant’s mental condition [is] relevant to his criminal
culpability and to the punishment,” and recognizing
the utility of psychiatric experts in such circumstances, the Court held that an indigent defendant is
entitled to psychiatric assistance either when: (a) he
“demonstrates to the trial judge that his sanity at the
time of the offense is to be a significant factor at trial;”
or (b) when his “future dangerousness was a significant factor at his sentencing phase.” Id. at 80–83, 86.
The overarching principle behind Ake is that “when
a State brings its judicial power to bear on an indigent
defendant in a criminal proceeding, it must take steps

10
to assure that the defendant has a fair opportunity to
present his defense.” Id. at 76. The Court emphasized
that the “[m]eaningful access to justice” the Fourteenth
Amendment seeks to provide requires more than “access
to the courthouse doors”—it requires identifying and
providing the “basic tools of an adequate defense or
appeal . . . to those defendants who cannot afford to
pay for them.” Id. at 77 (citation omitted).
This Court reaffirmed its commitment to these principles 32 years later in McWilliams, which clarified
what Ake requires. In McWilliams, the Court was
asked to resolve whether an indigent defendant, whose
mental condition was relevant to his offense and the
punishment he might suffer, had received sufficient
assistance from a mental conditions expert to satisfy
the demands of Ake. 137 S. Ct. at 1791–92. There, the
defendant, who was indigent, sought the assistance of
a neuropsychologist to aid him in presenting his
defense at sentencing. Id. at 1791. Even though the
defendant was granted the assistance of a neuropsychologist at the state’s expense, this Court concluded
that the defendant had not received all that he was
entitled to under Ake. Id. at 1791–93.
The Court made clear that, to trigger the application
of Ake, a defendant need only satisfy the three threshold criteria: the defendant is indigent, his mental
condition is relevant to his potential punishment,
and his mental condition at the time of the offense
was seriously in question. Id. at 1798. The Court
held that, when this showing is made, as it was in
McWilliams, the state must provide the defense “with
‘access to a competent psychiatrist who will conduct
an appropriate [1] examination and assist in
[2] evaluation, [3] preparation, and [4] presentation of
the defense.’” Id. at 1800 (quoting Ake, 470 U.S. at 83).

11
In McWilliams, the defendant only received an examination from a neuropsychologist, which the Court
held fell short of what Ake demands. Id.
McWilliams does not merely restate Ake’s holdings.
Rather, McWilliams unambiguously establishes first,
that an indigent defendant seeking mental conditions
expert assistance need only meet the threshold requirements articulated in Ake; there is no need for further
inquiry. Id. at 1798. Second, if the defendant meets
those requirements, he is entitled to assistance from
mental conditions experts, including but not limited
to, neuropsychologists. Id. at 1800. And third, such
assistance must include more than an examination. Id.
Put succinctly, McWilliams established the ceiling
for what Ake requires indigent defendants to prove to
receive mental conditions expert assistance and the
floor for the assistance Ake requires states to provide.
Id. at 1794 (““Unless a defendant is ‘assure[d]’ the
assistance of someone who can effectively perform
these functions, he has not received the ‘minimum’ to
which Ake entitles him.”) McWilliams, therefore, is
directly relevant to Johnson’s case because Johnson,
like McWilliams, sought the assistance of a neuropsychologist to aid him at sentencing.
B. The Virginia Supreme Court improperly
expanded the requirements for indigent
defendants seeking the assistance of a
mental conditions expert, in direct conflict with Ake and McWilliams
In denying Johnson’s request for a neuropsychologist, the Virginia Supreme Court relied on Husske v.
Commonwealth, 476 S.E.2d 920 (Va. 1996), a case
that did not involve a request for a mental conditions
expert. In Husske, an indigent defendant charged

12
with rape sought the assistance of an independent
DNA expert at the state’s expense to challenge the
state’s DNA evidence at trial. Id. at 920, 923. The
trial court denied Husske’s request, and that denial
was ultimately affirmed by the Virginia Supreme
Court, which held that the defendant did not demonstrate a “particularized need” for the DNA expert he
requested. Id. at 926; but see id. at 930 (Poff, S.J.,
dissenting in part) (explaining that DNA evidence was
crucial to state’s case, and noting that defendant had
presented evidence that “it is impossible for a lay
person to successfully challenge the DNA testing and
results without the aid of an expert”).
The defendant in Husske argued that under Ake he
was entitled to the assistance of a DNA expert. Id. at
924. The Virginia Supreme Court recognized, however,
that the question before it—whether an indigent
defendant is entitled to the assistance of a DNA expert
(i.e., a non-mental conditions expert) at trial—was not
squarely addressed by this Court in Ake. To resolve
the issue, the Virginia Supreme Court looked to
Caldwell v. Mississippi, 472 U.S. 320 (1985).
In Caldwell, an indigent defendant sought the
assistance of a criminal investigator, a fingerprint
expert, and a ballistics expert, asserting only that such
assistance “would be beneficial.” Caldwell, 472 U.S. at
323 n.1. The trial court denied the requests and the
Mississippi Supreme Court affirmed because “the
requests were accompanied by no showing as to their
reasonableness.” Id. The defendant challenged this
denial on due process grounds. Id.
Justice Marshall, writing for a unanimous Court,
concluded that there was no deprivation of due
process. Id. He reasoned that the defendant’s request
was inadequate because it fell short of the showing

13
this Court required of an indigent defendant requesting a mental conditions expert under Ake. Id. In light
of this, Justice Marshall concluded that there was “no
need to determine as a matter of federal constitutional
law what if any showing would have entitled a defendant to assistance of the type here sought.” Id.
Taking cues from how some other federal and state
courts interpreted Ake and Caldwell in analyzing
the question before it, the Virginia Supreme Court
in Husske held that “Ake and Caldwell, when read
together, require” the state to provide an indigent
defendant with expert assistance only if they “show a
particularized need [for the expert requested]: [m]ere
hope or suspicion that favorable evidence is available
is not enough to require that such help be provided.”
Husske, 476 S.E.2d at 925 (citations omitted).
But Husske’s holding misrepresents Caldwell, and
correspondingly Ake. Caldwell did not require “a
particularized showing” of need, nor did it demand any
other elevated threshold for an indigent defendant’s
request for any type of expert. As noted earlier, this
Court declined to decide what was required of a
defendant seeking non-psychiatric assistance, Caldwell,
472 U.S. at 323 n.1, and it has not revisited this issue
since.3 Thus, Caldwell has no bearing on Ake.
This is critical. By relying on an expansive reading
of Caldwell, Husske imposes a burden on defendants
seeking expert assistance greater than what Ake
requires. Under Ake, so long as an indigent defendant’s
3

Justices Marshall and Brennan urged the Court to address
this “unsettled issue of law” in their dissent from the denial of
certiorari in Johnson v. Oklahoma, 484 U.S. 878 (1987), which
concerned an indigent defendant’s motion for appointment of an
expert chemist.

14
mental condition is “relevant to the punishment he
might suffer” and “seriously in question,” the defendant is entitled to a mental conditions expert regardless
of whether the expert’s testimony will ultimately be
helpful to the defendant. McWilliams, 137 S. Ct. at
1798 (emphasis added) (citing Ake, 470 U.S. at 70, 80).
Husske, on the other hand, requires a defendant to
demonstrate in advance “that the services of an expert
would materially assist him in the preparation of his
defense and that the denial of such services would
result in a fundamentally unfair trial.” 476 S.E.2d at
925 (emphasis added).
Hence, if Husske were applied to an indigent
defendant seeking the assistance of a mental conditions expert, the defendant would not only have to
show that his mental condition is relevant to the
punishment and is seriously in question (i.e., all that
Ake requires), but he would also have to show that the
content of the requested expert’s testimony will be
material to his defense. See generally Moore v. Kemp,
809 F.2d 702, 742–43 (11th Cir. 1987) (en banc)
(Johnson, J., joined in dissent on this issue by Kravitch,
Hatchett, Godbold, Anderson, and Clark) (stating
that a particularized showing is “too exacting because
[it] require[s] the defendant to possess already the
knowledge of the expert he seeks”); see also, e.g.,
Dowdy v. Commonwealth, 686 S.E.2d 710, 720–21 (Va.
2009) (affirming denial of an investigator sought to
support alibi defense where defendant “did not allege
that there were witnesses who could confirm his
activities” or that of the victim); Commonwealth v.
Sanchez, 597 S.E.2d 197, 200 (Va. 2004) (affirming
denial of defense DNA expert where defendant did not
attempt to explain what procedural defects in the
state’s DNA procedures his expert could testify to).

15
This is precisely what happened in Johnson’s case.
In affirming the trial court’s denial of Johnson’s
request for a neuropsychologist, the Virginia Supreme
Court reasoned that Johnson “sought the assistance
of an expert at the Commonwealth’s expense with
no idea what evidence might be developed or whether
it would assist him in any way.” Pet. App. 74a.
Accordingly, the court shifted the inquiry from whether
Johnson’s mental condition was relevant to his punishment and whether it was seriously in question at
the time of the offense as Ake requires, to whether
Johnson had made a sufficient showing that there was
particular, valuable testimony a neuropsychologist would
provide as Husske demands.
Asking Johnson to articulate with specificity the
evidentiary value of his mental conditions expert placed
on him a burden not established in Ake or McWilliams.
Nor did anything in Caldwell impose such a burden.
The Virginia Supreme Court’s decision in Johnson’s
case therefore deserves to be vacated and remanded,
or subject to plenary review in this Court.
C. This case is the proper vehicle to
resolve the issue
Until Johnson’s case, Virginia principally applied
the particularized need inquiry in cases involving
requests for non-mental conditions experts. Morva v.
Commonwealth, 683 S.E.2d 553, 561 (Va. 2009) (“Our
Court, in Husske . . . applied the doctrine set forth in
Ake to the appointment of non-mental conditions
experts in certain circumstances.”); see, e.g., Branche
v. Commonwealth, 2006 WL 1222400, at *3 (Va.
Ct. App. May 9, 2006) (denying request for DNA
expert); Lenz v. Commonwealth, 544 S.E.2d 299, 305
(Va. 2001) (same for “prison life” expert); Barnabei v.

16
Commonwealth, 477 S.E.2d 270, 276 (Va. 1996) (same
for forensic pathologist).
Regardless of whether the particularized need
inquiry as applied to non-mental conditions experts is
proper, Virginia’s imposition of this burden in a case
involving a request for a mental conditions expert
unequivocally raises a constitutional question in light
of McWilliams. Johnson’s case provides the ideal
opportunity for this Court to address this question
because Johnson’s case is factually and legally similar
to McWilliams.
Johnson, like the defendant in McWilliams, sought
and was denied the assistance of a neuropsychologist,
despite reasons to believe his mental condition (i.e., his
brain development) was relevant to the punishment he
may suffer, and seriously in question in light of his
age. See, e.g., Miller, 567 U.S. at 476 (“‘[J]ust as the
chronological age of a minor is itself a relevant mitigating factor of great weight, so must the background
and mental and emotional development of a youthful
defendant be duly considered’ in assessing his culpability.”) (citing Eddings v. Oklahoma, 455 U.S. 104,
116 (1982)); Graham, 560 U.S. at 68 (“[J]uveniles have
lessened culpability . . . [and] are less deserving of the
most severe punishments . . . [because] compared to
adults, juveniles have a ‘lack of maturity and an
underdeveloped sense of responsibility’; they ‘are more
vulnerable or susceptible to negative influences and
outside pressures, including peer pressure’; and their
characters are ‘not as well formed.’”) (quoting Roper v.
Simmons, 543 U.S. 551, 569–71 (2005)).
Moreover, just as the Alabama courts gave McWilliams
less protection than Ake required, the Virginia courts
required Johnson to provide more justification than
Ake required. In both cases the state courts cited Ake

17
as authority for their decisions, but they did not apply
Ake’s explicit commands. Given the similarities between
the cases, the Court can resolve the novel question
raised in this petition without disturbing the precedents it established in Ake, Caldwell, or McWilliams.
Finally, in resolving the question here, the Court
will provide essential guidance to states that require
defendants to show a particularized need to receive
the assistance of a mental conditions expert. See e.g.,
Page v. Lee, 337 F.3d 411, 415 (4th Cir. 2003) (recognizing that subsequent to Ake, North Carolina courts
require indigent defendants to show a particularized
need for a psychiatric expert); State v. Sisson, 567
N.W.2d 839, 842 (N.D. 1997); State v. Moore, 2016 WL
853277 at *22 (Ohio 2016); Young v. State, No. W201100982-CCA-R3PD, 2013 WL 3329051, at *34–35
(Tenn. Crim. App. June 27, 2013). Without this Court’s
guidance, these states will fail to provide the “basic
tools of an adequate defense or appeal” that Ake,
McWilliams and the Fourteenth Amendment promises
“to those defendants who cannot afford to pay for
them.” Ake, 470 U.S. at 77.
II. JOHNSON’S HABEAS CLAIM IS NOT
PROCEDURALLY DEFAULTED
The state habeas court dismissed Johnson’s
McWilliams claim on the sole ground that it was procedurally defaulted. Pet. App. 3a–4a. Because this
Court must consider the state court’s dismissal, and
because that dismissal does not rest on independent
and adequate state law grounds, it is addressed here
preemptively.
Virginia courts recognize two circumstances when a
nonjurisdictional habeas claim can be procedurally
defaulted. Under Henry v. Warden, 576 S.E.2d 495

18
(Va. 2003), a habeas claim is defaulted if it already was
“raised and decided either in the trial or on direct
appeal.” Id. at 496. Under Slayton v. Parrigan, 205
S.E.2d 680 (Va. 1974), a habeas claim is defaulted if it
was not raised at trial or appeal but could have been,
and is then raised for the first time in state habeas
proceedings, “absent a showing of ineffective assistance of counsel in failing to raise that question” at
trial. Id. at 682.
Despite McWilliams being decided after the Virginia
Supreme Court decided Johnson’s direct appeal, but
before Johnson’s conviction had become final through
resolution of certiorari proceedings in this Court, the
trial-level habeas court held that Johnson’s claim
under McWilliams was defaulted under both Henry
and Parrigan. Pet. App. 3a–4a. Signing an opinion
drafted in whole by the Warden, the trial-level habeas
court held: “[Johnson’s] claim is defaulted under the
rule in Henry to the extent it has been raised and
rejected previously. To the extent Johnson makes new
allegations, it is defaulted under the rule in [Parrigan]
because he could have raised it at trial and on appeal.”
Id. 4a.
The Virginia Supreme Court did not disturb this
conclusion in denying Johnson’s habeas petition for
appeal, concluding in a one-sentence ruling that it
was “of the opinion there is no reversible error in the
judgment complained of.” Id. 1a. But Johnson’s
habeas claim is not procedurally barred, because the
dismissal of his state habeas petition does not rest on
adequate and independent state law grounds. This is
so for at least three reasons.

19
A. Henry does not bar Johnson’s habeas
petition
Henry bars a Virginia habeas court from readjudicating an issue that was raised and determined
at trial. The rule is fixed and narrow: it applies only
when a state habeas petition presents “the very issue
decided by . . . the trial court.” 576 S.E.2d at 496. See
also, Muhammad v. Warden of Sussex I State Prison,
646 S.E.2d 182, 192 (Va. 2007) (distinguishing habeas
allegations that are raised and decided at trial, which
are barred by Henry, from substantive habeas allegations that were not raised at trial, but could have been,
which are not barred by Henry). Together, Henry and
Muhammad establish that the rule in Henry was not
adequate to bar Johnson’s McWilliams claim because
no such issue was ever raised in, or decided by, a state
court during Johnson’s trial or on direct appeal.
To the extent the trial-level state habeas opinion
asserts that Henry justified the dismissal of Johnson’s
petition because “he had a full and fair opportunity to
raise [the McWilliams] issue on direct appeal,” Pet.
App. 4a, that opinion is inadequate because it does not
comply with clearly established Virginia law. Henry
expressly bars habeas review only of issues that were
actually raised and actually decided at trial, not issues
that a petitioner hypothetically could have raised at
trial, but did not. This misapplication of Virginia law
must be construed against the Warden because his
counsel drafted the state habeas opinion and asked the
state habeas court to enter it verbatim.
B. If Johnson defaulted his claim, it is
excusable under Parrigan
Before a Virginia court can dismiss a habeas claim
on procedural grounds, the court must first consider

20
and resolve any allegation that the default is attributable to, and excused by, the ineffective assistance of
trial counsel. Parrigan, 205 S.E.2d at 682 (habeas
claim can be dismissed “absent a showing of ineffective
assistance of counsel”). When Johnson presented the
McWilliams claim in his state habeas petition, he
alleged that if the McWilliams claim could have been
raised at trial, his trial attorney rendered ineffective
assistance in failing to do so. Pet. App. 26a. Johnson
further alleged that trial counsel’s deficient performance was both cause for any default of the McWilliams
claim and also was a freestanding basis for habeas
relief. Id.
The Virginia habeas court did not rule out trial
counsel’s deficient performance on this issue. In fact,
it did not even consider that question. It simply
ignored the presence of the ineffective-assistance allegation on the McWilliams issue in Johnson’s habeas
petition. Johnson repeated the allegations of ineffective assistance in his petition to appeal the denial of
habeas. Id. 62a–63a. The Warden did not respond to
the petition, and the request to appeal was denied.
Because the state habeas court never considered
or made the threshold determination (as mandated
by Parrigan) as to whether trial counsel’s deficient
performance was cause for the default, the state’s
procedural dismissal of the McWilliams claim does not
rest on adequate and independent state law grounds.
Moreover, because the state habeas opinion was
drafted entirely by the Warden’s counsel—and adopted
by the state habeas court without alteration—any
ambiguities or omissions in that opinion must be construed against the Warden.

21
C. This is an exceptional case
This Court ordinarily will not take up a federal
question where “the decision of [the state] court rests
on a state law ground that is independent of the
federal question and adequate to support the judgment.” Coleman v. Thompson, 501 U.S. 722, 729
(1991). But in Lee v. Kemna, 534 U.S. 362 (2002), this
Court quoted the foregoing passage from Coleman and
explained that there are “exceptional cases in which
exorbitant application of a generally sound rule renders
the state ground inadequate to stop consideration of a
federal question.” Id. at 376.
This case presents just such an exceptional circumstance. Under this Court’s precedents, McWilliams
applies to Johnson’s trial and direct appeal because
McWilliams was decided before the deadline for
Johnson to file his petition for a writ of certiorari
following direct appeal. See, e.g., Teague v. Lane,
489 U.S. 288, 295 (1989); Griffith v. Kentucky, 479 U.S.
314 (1987) (collecting cases). Virginia law, however,
provided no mechanism for re-opening Johnson’s trial
or direct appeal proceedings in state court after this
Court decided McWilliams. Therefore, Johnson’s first
opportunity to request review and relief in state court
on this ground was in state habeas corpus proceedings.
Yet, the Virginia courts denied Johnson’s pro se
habeas petition on procedural default grounds, ignoring the fact that the chronology of events left Johnson
with no opportunity to timely raise a McWilliams
claim at trial or on appeal after McWilliams was
decided. This is precisely the exorbitant application of
a generally sound rule that this Court disfavors.
Accordingly, the Court can—and should—reach the
merits of the question presented to afford Johnson the
proper application of McWilliams to which he is

22
entitled, or in the alternative, it should summarily
vacate and remand this case for further consideration
in light of McWilliams.
CONCLUSION
For the foregoing reasons, the petition for writ of
certiorari should be granted.
Respectfully submitted,
ELLIOTT SCHULDER
Counsel of Record
SHADMAN ZAMAN
MORGAN LEWIS
COVINGTON & BURLING LLP
One CityCenter
850 Tenth Street, NW
Washington, DC 20001
(202) 662-6000
eschulder@cov.com
Counsel for Petitioner
January 13, 2020

APPENDIX

1a
APPENDIX A
VIRGINIA:
In the Supreme Court of Virginia held at the
Supreme Court Building in the City of Richmond on
Friday the 16th day of August, 2019.
————
Record No. 181631
Circuit Court No. CL18-284
————
RAHEEM CHABEZZ JOHNSON,
Appellant,
against
JEFFERY KISER, Warden,
Red Onion State Prison,
Appellee.
————
From the Circuit Court of the City of Lynchburg
————
Upon review of the record in this case and consideration of the argument submitted in support of the
granting of an appeal, the Court is of the opinion there
is no reversible error in the judgment complained of.
Accordingly, the Court refuses the petition for appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk
By:
Deputy Clerk

2a
APPENDIX B
VIRGINIA:
IN THE CIRCUIT COURT FOR
THE CITY OF LYNCHBURG
————
Civil No. CL18000284-00
————
RAHEEM CHABEZZ JOHNSON,
Petitioner,
v.
JEFFREY KISER, Warden,
Red Onion State Prison
Respondent.
————
FINAL ORDER
Upon mature consideration of the petition for a writ
of habeas corpus filed by Raheem Chabezz Johnson,
the motion of the respondent and the authorities cited
therein, and upon review of the entire record in this
case, and upon review of the criminal case of Commonwealth v Raheem Chabezz Johnson, which is ordered
made a part of the record in this case, the Court makes
the following findings of fact and conclusions of law:
Johnson is currently confined under an order of this
Court following a jury trial in which he was convicted
of one count of first-degree murder, one count of
statutory burglary with intent to commit murder or
robbery while armed with a deadly weapon, two counts
of attempted robbery, and four counts of use of a firearm during the commission of a felony. The court sentenced him to serve an aggregate sentence of life plus

3a
42 years. The order is dated October 5, 2012. (Case
Nos. CR11022622-00 through -07). Johnson appealed
his convictions to the Court of Appeals of Virginia
which affirmed his convictions in a published opinion
dated March 25, 2014. (Record No. 1941-12-3). Johnson
then appealed to the Supreme Court of Virginia, which
affirmed his convictions in a published opinion dated
December 15, 2016. The court subsequently denied a
petition for rehearing on March 24, 2017. (Record No.
141623). Johnson’s petition for certiorari to the United
States Supreme Court was refused on January 8, 2018.
(Case No. 17-326).
Johnson now alleges that he is entitled to habeas
corpus relief on substantially the following grounds:
(a) Johnson is entitled to a new sentencing
proceeding including the appointment of
assistance of a mental health expert
because the Supreme Court of Virginia’s
opinion is inconsistent with the rule
established in McWilliams v. Dunn, 137
S. Ct. 1790 (2017);
(b) The Commonwealth concealed favorable
evidence from the petitioner in violation
of his constitutional rights;
(c) Johnson’s trial counsel was ineffective.
These claims are legally and factually without merit.
Claim A
Johnson first states that he is entitled to habeas corpus relief because the Supreme Court of Virginia’s
opinion in his direct appeal was inconsistent with the
rule established in McWilliams v. Dunn, 137 S. Ct.
1790 (2017). Johnson’s claim that he was entitled to
the appointment of assistance of a mental health expert

4a
has already been raised and rejected on direct appeal
in the Supreme Court of Virginia and, to the extent he
raised it in the United States Supreme Court, in that
court as well. Accordingly, this claim is not cognizable
in a habeas corpus action. See Henry v. Warden, 265
Va. 246, 576 S.E.2d 495 (2003).
To the extent that Johnson implies that the Henry
rule should not apply to him in light of the McWilliams
opinion, the Court rejects this claim. Contrary to
Johnson’s suggestion, he had a full and fair opportunity to raise these issues on direct appeal. Moreover,
McWilliams did not in fact create any type of change
in the law as Johnson suggests. Instead, the court
clearly based its ruling on “what Ake requires.”
McWilliams, 137 S. Ct. at 1801. Johnson’s Ake argument was raised and rejected on appeal. Moreover, as
Johnson himself admits, the McWilliams opinion was
issued on June 19, 2017, two months before he filed his
petition for writ of certiorari in the U.S. Supreme
Court, and approximately six months before the United
States Supreme Court denied that petition. This claim
is defaulted under the rule in Henry to the extent it
has been raised and rejected previously. To the extent
Johnson makes new allegations, it is defaulted under
the rule in Slayton v. Parrigan, 215 Va. 27, 29, 205
S.E.2d 680, 682 (1974), because he could have raised
it at trial and on appeal. For all of these reasons, the
Court should reject this claim and find that it is
procedurally defaulted in this habeas corpus action.
Claim B
Johnson next argues that the Commonwealth concealed favorable evidence from him in violation of his
constitutional rights under Brady v. Maryland, 373
U.S. 83 (1963) and related cases. Johnson first claims
that the Commonwealth violated his Brady rights

5a
because it withheld an exculpatory search warrant
affidavit from him until just days before his trial. This
claim fails because it is the type of claim that the
petitioner could have raised during his trial land on
direct appeal. See Parrigan, 215 Va. at 29, 205 S.E.2d
at 682.
Johnson also claims that the Commonwealth violated its Brady obligations by failing “to reveal that it
engaged in bargaining with witnesses for testimony
against [Johnson].” This is also the type of claim that
Johnson could have raised at trial and on appeal, so it
is defaulted under the rule in Parrigan. Moreover, it is
without merit. His first part of the claim involves
Wendell Franklin, but Franklin did not testify at trial,
so Johnson has failed to establish materiality.
His second part of the claim involves “Khan.” Johnson
claims that Khan told Wendell Franklin that the prosecutor had “given him a deal if he would testify [against
the petitioner].” This claim is also barred under the
rule in Parrigan. Moreover, it is without merit. First,
Johnson provides no affidavit from Khan; instead, he
simply provides the hearsay-within-hearsay affidavit
of Franklin attesting to what Khan supposedly told
him. This affidavit is insufficient to prove this claim
and is stricken as inadmissible hearsay. See Burket v.
Angelone, 208 F.3d 172, 185-86 (4th Cir. 2000) (Supreme
Court of Virginia struck similar “Brown” affidavit). Second, Court assumes that Johnson is referring to AbdulMalik Khan, who did testify at trial. (7/17/12 Tr. 5-30).
In light of both the extensive evidence the Commonwealth elicited at trial about Khan’s “hope” that he
would get “consideration” for his testimony, and defense
counsel’s thorough impeachment of Khan, Johnson
has not established “materiality” from any undisclosed
“promise” the Commonwealth may have made either.

6a
(7/17/12 Tr. 5-8, 24-30). The Court dismisses Claim B
as defaulted and without merit.
Claim C
Johnson next argues that his trial counsel was
ineffective. To prevail on this claim he must establish
that his trial counsel’s performance was objectively
unreasonable and that as a result he has been prejudiced. Strickland v. Washington, 466 U.S. 668, 687
(1984). Johnson first argues that his trial counsel was
ineffective for failing to move for a continuance in light
of the late-disclosed exculpatory information in a search
warrant. However, the decision whether to move for a
continuance is committed solely to trial counsel’s discretion. Johnson admits that prior to trial, the Court
ordered the search warrant affidavit in his case to be
unsealed. This affidavit was relatively short. Counsel
was not objectively unreasonable for failing to move for
a continuance. See Stockton v. Commonwealth, 227 Va.
124, 141, 314 S.E.2d 371, 382 (1984). In fact, the
affidavit itself indicates that the petitioner, Raheem
Johnson, had also stated to police that Quinton
Johnson was inside the apartment at the time of the
shooting, so the petitioner was aware of this information over a year before he was tried. (Petitioner’s
Ex. 1). Moreover, the petitioner has not shown prejudice. The respondent has pled that “[u]pon information
and belief, Quinton Johnson, the individual whom the
affidavit indicated told the police he was present in the
apartment during the robbery and murder, is the petitioner’s brother.” In his reply pleading, the petitioner
has not denied this fact. See Huffington v. Nuth, 140
F.3d 572, 581-82 (4th Cir. 1998) (stating that habeas
court must evaluate information from defendant’s family member as having “less value than that of objective
witnesses” and in light of the potential bias inherent

7a
in that information). The petitioner has not stated
with particularity what evidence counsel could have
developed had he obtained a continuance or why it
would have made a difference in the outcome of his
trial. For all these reasons, the Court rejects this claim
under both prongs of Strickland.
To the extent that Johnson moves for a continuance
due to the claims his lawyer was ineffective for failing
to move for a continuance due to the existence of exculpatory information that the Commonwealth offered
favorable treatment to certain individuals, Johnson
contends in this Claim B that this information was
never disclosed to the defense. Accordingly, trial counsel could not have been unreasonable for failing to
move for a continuance on this basis. Even if counsel
had this “exculpatory” information, Johnson has failed
to establish that counsel was objectively unreasonable
for failing to move for a continuance or that he was
prejudiced by this failure. This claim also fails under
both prongs of Strickland.
Johnson claims that he is entitled appointed counsel
to assist him in his present habeas corpus proceedings.
He does not have a right to such counsel. See Howard
v. Warden, 232 Va. 16, 19, 348 S.E.2d 211, 213 (1986).
Moreover, he has not shown good cause for the Court
to grant him discovery. See Rule 4:1(b)(5) (leave of
court is required for discovery in a habeas case and
that the court “may deny or limit discovery” in such
proceedings). Put another way, a habeas petitioner,
unlike the usual civil litigant . . . is not entitled to
discovery as a matter of ordinary course.” Bracy v.
Gramley, 520 U.S. 899, 904 (1997).
A determination regarding the petitioner’s claims
can be made without the need for an evidentiary hear-

8a
ing. See Friedline v. Commonwealth, 265 Va. 273, 27677, 576 S.E.2d 491, 493-94 (2003).
It is, therefore, ADJUDGED AND ORDERED that
the petition for a writ of habeas corpus be dismissed
and the rule discharged, to which action of this Court
the petitioner’s exceptions are noted. Pursuant to Rule
1:13, endorsement by the petitioner is dispensed with
for good cause shown.
It is further hereby ORDERED the Clerk serve by
mail certified copies of this Order on the petitioner and
on Donald E. Jeffrey, Ill, Senior Assistant Attorney
General, counsel for the respondent.
Entered this 17 day of September, 2018
R. Edwin Burnette Jr.
Judge
I ask for this:
/s/ Donald E. Jeffrey, III ____
Donald E. Jeffrey, III
Counsel for Respondent

9a
APPENDIX C
IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
Case No. C.Ril-00.Q62-06
(related case Comm. v. Johnson,
CR11-022622-00)
————
RAHEEM CHABEZZ JOHNSON
(VDOC # 1462766),
Petitioner,
-vsJEFFREY KISER, Warden,
Red Onion State Prison,
Respondent.
————
Place of detention:
Red Onion State Prison,
Pound, Virginia
————
PETITION FOR WRIT OF HABEAS CORPUS
————
A. Criminal Trial
1. Name and location of court which imposed the
sentence from which you seek relief:
Circuit Court for the City of Lynchburg,
CR11022622-00-07, Lynchburg, Virginia

10a
2. The offense or offenses for which sentence was
imposed (include indictment number or numbers if
known):
a. First-degree murder (518.2-32)
b. statutory burglary
c. two counts of attempted robbery
d. four counts of using a firearm during the
commission of a felony
3. The date upon which sentence was imposed and
the terms of the sentence:
10/05/2012 (Life in prison for first-degree
murder and a total of 42 years for seven
other felonies)
4. Check which plea you made and whether trial by
jury:
Plea of not guilty: X;
Trial by jury: X
5. The name and address of each attorney, if any,
who represented you at your criminal trial:
B. Leigh Drewry, Jr.
Cunningham and Drewry
Attorneys at Law
105 Archway Court
Lynchburg, Virginia 24502
6. Did you appeal the conviction?
Yes

11a
7. If you answered “yes” to 6, state: the result and
the date in your appeal or petition for certiorari:
Johnson v. Commonwealth, 755 S.E.2d 468
(Va. Ct. App. Mar. 25, 2014) (judgment
affirmed)
Johnson v. Commonwealth, 793 S.E.2d 326
(Va. Dec. 15, 2016) (judgment affirmed);
(rehearing denied Mar. 24, 2017)
Johnson v. Virginia, U.S. S. Ct. No. 17-326
(petition for writ of certiorari denied Jan. 8,
2018)
8. List the name and address of each attorney, if
any, who represented you on your appeal:
B. Leigh Drewry, Jr.
Cunningham and Drewry
Attorneys at Law
105 Archway Court
Lynchburg, Virginia 24502
Ashley C. Parrish
King & Spaulding LLP
1700 Pennsylvania Avenue, N.W.
Suite 200
Washington, D.C. 20006
B. Habeas Corpus
9. Before this petition did you file with respect to
this conviction any other petition for habeas corpus in
either a State or federal court?
NO

12a
10. If you answered “yes” to 9, list with respect to
each petition: the name and location of the court in
which each was filed:
NA
11. Did you appeal from the disposition of your
petition for habeas corpus?
NA
12. If you answered “yes” to 11, state: the result and
the date of each petition:
NA
C. Other Petitions, Motions or Applications
13. List all other petitions, motions or applications
filed with any court following a final order of conviction and not set out in A or B. Include the nature of
the motion, the name and location of the court, the
result, the date, and citations to opinions or orders.
Give the name and address of each attorney, if any,
who represented you.
NA
D. Present Petition
14. State the grounds which make your detention
unlawful, including the facts on which you intend to
rely:
a. Petitioner is entitled to a new sentencing proceeding, including the appointment and assistance of
a mental health expert, because the decision of the
Supreme Court of Virginia is inconsistent with the rule
established in McWilliams v. Dunn, 137 S. Ct. 1790
(2017). The refusal to provide Petitioner access to the
benefit established through McWilliams would violates Petitioner’s constitutional rights to trial by jury,

13a
due process, equal protection of law, and against imposition of cruel and unusual punishment, in violation of
the Sixth, Eighth, and Fourteenth Amendments to the
U.S. Constitution and corresponding sections of the
Virginia Constitution. (see attached page for more).
b. The Commonwealth concealed favorable evidence
from Petitioner at trial in violation of constitutional
rights established by Brady. v. Maryland, and Kyles v.
Whitley, and similar cases in state and federal courts.
(see attached page for more).
c. Trial counsel failed to provide effective assistance
of counsel as guaranteed by the Sixth and Fourteenth
Amendments to the U.S. Constitution, and similar
provision of the Virginia Constitution, see Strickland
v. Washington. (see attached page for more).
15. List each ground set forth in 14, which has been
presented in any other proceeding: NA
16. If any ground set forth in 14 has not been
presented to a court, list each ground and the reason
why it was not:
a. Virginia procedure does not provide, opportunity
for Petitioner to have applied a new rule of law established after 21 days after judgment is entered, even if
the new rule is established before Petitioner judgment
became final and, therefore, should apply to him
b. Brady–Alleged misconduct, including concealed
evidence was not known to the Petitioner, and could
not have been known through reasonable diligence
c. Strickland–Claim is not recognized until postconviction proceedings. Petitioner was previously represented by counsel alleged to have performed deficiently, and who was therefore conflicted from raising
this claim against himself.

14a
D. Present Petition (supplemental pages)
14. State the grounds which make your detention
unlawful, including the facts on which you intend to
rely:
a. Petitioner is entitled to a new sentencing proceeding, including the appointment and assistance of a
mental health expert, because the decision of the
Supreme Court of Virginia is inconsistent with the new
rule established in McWilliams v. Dunn, 137 S. Ct.
1790 (2017). The refusal to provide Petitioner access
to the benefit established in McWilliams would violates Petitioner’s constitutional rights to trial by jury,
due process, equal protection of law, and against imposition of cruel and unusual punishment, in violation of
the Sixth, Eighth, and Fourteenth Amendments to the
U.S. Constitution and corresponding sections of the
Virginia Constitution. (see attached page for more).
On Dec. 15, 2016, the Supreme Court of Virginia
applied its then-current interpretation of Ake v.
Oklahoma, as articulated in Husske v. Commonwealth,
to justify a finding that there was no error in the
denial of Johnson’s request for assistance of an expert
neuropsychologist. Johnson v. Commonwealth, 793
S.E.2d 326 (Va.). The Court held that Petitioner failed
to show a particularized need for the expert assistance
requested. The Court subsequently denied rehearing
on Mar. 24, 2017.
Petitioner sought certiorari review in the Supreme
Court of the United States. On June 12, 2017, Petitioner sought an extension of time within which to
present his petition, which the Court granted. On
August 21, 2017, Petitioner filed a petition for writ of
certiorari. On September 26, 2017, the Court requested
a response from the Commonwealth. After the Com-

15a
monwealth was granted an extension, a response was
filed on. November 20, 2017. On January 8, 2018, the
Court denied the petition.
A case is final when the judgment of conviction has
been rendered, the availability of appeal has been
exhausted, and the time to petition for certiorari had
elapsed. On June 19, 2017, while Petitioner’s case was
under certiorari review, and before his judgment had
become final for purposes of the application of relevant
decisions, the Supreme Court of the United States
issued its decision in McWilliams v. Dunn, 137 S. Ct.
1790. One of the issues McWilliams addressed was
when “the conditions that trigger application of Ake
are present.” 137 S. Ct. at 1798. In McWilliams, the
Supreme Court established that whenever the three
threshold criteria articulated in Ake are met, the state
must provide “access to a competent psychiatrist who
will conduct an appropriate examination and assist
in evaluation, preparation, and presentation of the
defense,” including at the capital-sentencing phase.
Id. at 1798-99. The three Ake criteria are: (1) an
indigent defendant, (2) whose mental condition is
“relevant to the punishment he might suffer,” (3) when
that mental condition is “seriously in issue.” 137 S. Ct.
at 1798. McWilliams made clear that the right to a
mental health expert cannot be conditioned on an additional criterion, such as a showing of “particularlized
need” as that requirement has been imposed and
defined in Husske v. Commonwealth, 476 S.E.2d 920
(Va. 1996). Because the Husske rule was applied and
found to be determinative by the state courts in Petitioner’s case, Petitioner is entitled to habeas relief,
including a new sentencing proceeding at which he is
provided all the assistance that Ake mandates.

16a
In McWilliams, the jury gave an advisory opinion in
favor of death, and a hearing was then set for judge
sentencing. 137 S. Ct. at 1795. About five weeks before
that sentencing, the trial court granted the defendant’s motion for neurological and neuropsychological
testing and appointed Dr. Goff to do the testing. Dr.
Goff’s report arrived two days before sentencing, and
the next day counsel got a stack of mental health
records he had subpoenaed from various institutions.
The following morning-the day of sentencing-counsel
told the court he needed a continuance and (among
other things) an expert to go through the report and
records because he (the lawyer) was not a psychologist.
The court denied the motions but offered to give the
lawyer until 2 p.m. that afternoon to review the previously unseen documents. The lawyer said that was
impossible and moved to withdraw; the court denied
the motion to withdraw. The lawyer renewed his motion
for a continuance that the court denied. The judge
sentenced McWilliams to death that same afternoon.
137 S. Ct. at 1795-98.
On direct appeal, Alabama held that Ake’s requirements “are met when the State provides the [defendant] with a competent psychiatrist,” and that appointment of Dr. Goff satisfied that requirement. 137 S. Ct.
1797-98. The federal court reviewing the state judgment pursuant to 28 U.S.C. § 2254 deferred to the
state court’s decision under § 2254(d).
The Supreme Court of the United States reversed,
finding that the assistance constitutionally-guaranteed
under Ake must be provided where the defendant (1)
is indigent, (2) his mental condition is “relevant
to the punishment he might suffer,” and (3) his
mental condition is “seriously in issue.” 137 S. Ct. at
1798. Where these conditions are met, the court is

17a
constitutionally-required to provide “access to a competent psychiatrist who will conduct an appropriate
[1] examination and assist in [2] evaluation, [3] preparation, and [4] presentation of the defense.” Id.
(quoting Ake v. Oklahoma, 470 U.S. 68, 83 (1985)).
McWilliams got the first component but not the other
three, and thus the sentencing decision in his case was
contrary to or involved an unreasonable application of
Ake.
The requirements of Husske exceed those established in McWilliams. Most significantly, under
Husske, the indigent defendant who seeks the appointment of an expert must also show a particularized
need. See Johnson, 793 S.E.2d at 329-30. As that
requirement is defined in Petitioner’s case, it forecloses
the appointment of an expert where McWilliams and
Ake require the expert.
All three of the conditions established in McWilliams
mandating the assistance required by Ake are met in
Petitioner’s case. Petitioner, however, has never received
even the first component of the assistance guaranteed
by Ake. Instead, the Supreme Court of Virginia held
that, under Husske, Johnson was not entitled to any
mental health expert assistance for purposes of
sentencing. 793 S.E.2d at 30. Specifically, it said that
Petitioner,
sought the assistance of an expert at the
Commonwealth’s expense with no idea what
evidence might be developed or whether it
would assist him in any way. At best, Johnson’s
request for a neuropsychologist amounted to
a mere hope that favorable evidence would be
obtained. Thus, it cannot be said that Johnson
demonstrated a particularized need for the
assistance of a neuropsychologist.

18a
Id. The requirements of Husske as interpreted by the
Court in Petitioner’s case are flatly inconsistent with
the first two of the four functions of Ake, as explained
in McWilliams. As McWilliams explained, Ake “requires
that the State provide the defense with “access to a
competent psychiatrist who will conduct an appropriate [1] examination and assist in [2] evaluation, [3]
preparation, and [4] presentation of the defense.”
The words “examination” and “evaluation” in the
McWilliams opinion show the conflict with Husske. An
appointed expert’s initial tasks are to perform an
examination and conduct an evaluation. It is premature, prior to any examination or evaluation, to prohibit assistance to indigent defendants who cannot—
without the opportunity for expert assistance—prove
that the requested examination and evaluation would
produce “favorable evidence.” This requirement in
Husske puts “the cart before the horse” in a way that
deprives the defendant to the rights guaranteed by the
United States Constitution and the Virginia Constitution. It cannot stand in light of Ake, as clarified in
McWilliams.
Although Husske purportedly is derived from Ake,
McWilliams makes clear that there is no basis for
refusing a defendant the assistance of a mental health
expert because the defendant cannot first identify the
evidence the expert will find and cannot make a
particularized representation of how this evidence will
help him. McWilliams makes clear that this interpretation of Ake is clear error.
The decision in McWilliams establishing the conditions requiring application of the constitutionallyguaranteed assistance provided under Ake was made
before the state court criminal judgment against
Johnson became final. See Allen v. Hardy, 478 U.S.

19a
255, 258 n.1 (1986) (“By final we mean where the
judgment of conviction was rendered, the availability
of appeal exhausted, and the time for petition for
certiorari had elapsed before” the decision at issue was
published, quoting Linkletter v. Walker, 381 U.S. 618,
622, n. 5 (1965).
But Virginia procedure denied Petitioner the opportunity to have access to the Supreme Court’s clearly
applicable decision in McWilliams even though the
judgment in his case still was pending on direct
review. In Schriro v. Summerlin, 542 U.S. 348, 353
(2004), the Supreme Court of the United States held:
“When a decision of the Court results in a ‘new rule,’
that rule applies to all criminal cases still pending
on direct review. Griffith v. Kentucky, 479 U.S. 314
(1987).”
Because Petitioner’s constitutional claim could not
have been presented in previous proceedings to the
state court for adjudication, this Court should recognize and address the merits of the claim in these
proceedings. If, for any reason, the Court believes it is
limited in its ability to address the merits of this claim,
Petitioner maintains that the Court is authorized and
obligated to address the merits of this claim in the
interests of justice.
McWilliams established clear conditions that trigger application of Ake: the defendant is indigent, his
mental condition is relevant to the punishment he
might suffer, and is seriously in question. Petitioner
satisfied all of those conditions. He was indigent, the
extent of his brain development was relevant to his
culpability and the punishment he might suffer, and
the extent of that development was in question and
could be meaningfully determined only by an expert.

20a
b. The Commonwealth concealed favorable evidence from Petitioner at trial in violation of constitution rights established by Brady v. Maryland, and
Kyles v. Whitley, and similar cases in state and federal
courts. Because of these violations, his convictions
must be vacated. The Commonwealth successfully,
though improperly, enlisted the trial court’s assistance
in concealing exculpatory and material information
from Petitioner. See Gilchrist v. Comm., 317 S.E.2d 784
(Va. 1984). The information was contained in a search
warrant affidavit the Commonwealth kept under seal
until five days before the start of Petitioner’s firstdegree murder trial. The affidavit revealed the. admission that “Quinton Johnson made statements to
investigators that he was present inside of the victim
Timothy Irving’s residence at the time of the shooting,
but denied shooting Timothy Irving.” Exhibit 1. The
affidavit also referenced two cell phone records the Commonwealth claimed were crucial to the investigation of
the crimes.
This concealed information is material under Brady
because it undermines confidence in the account given
by the Commonwealth’s only witness who claimed to
identify Petitioner at the crime scene. Prosecution
witness Artenna Horsley-Robey identified Dennis Watts
as one of the two masked intruders that entered her
apartment on the night of the crime. Tr. at 127, lines
10-20. Ms. Robey later picked Petitioner out of a photographic lineup as the triggerman. She testified at
trial that during the crimes a mask covered the triggerman’s face, and the only visible portion of the triggerman’s face was his eyes. Tr. 150, lines 1-17. Thus,
the only basis for her identification of Petitioner as the
triggerman was Ms. Robey’s claim that Petitioner’s
eyes were similar to her recollection of the triggerman’s eyes.

21a
On cross-examination, Ms. Robey admitted that she
previously told a police officer that she did not know
who the gunman was. Tr. 161 line 20-25 and 162 line
1-10. She consistently maintained that she saw only
two people in her apartment, and running from her
apartment after the shooting, and, by the time of trial,
she claimed these two were Dennis Watts and
Petitioner. Tr. 130, lines 4-20.
The Commonwealth knew that Quinton Johnson’s
admission that he was present in the apartment at the
time of the shooting directly contradicted Ms. Robey’s
account, and ultimately her testimony, and yet intentionally acted to keep the exculpatory contents of the
affidavit concealed from Petitioner by filing it under
seal. Quinton Johnson’s admission undermines confidence in jurors’ verdicts because the verdicts are based
on Ms. Robey’s purported identification of Petitioner
as the triggerman. Recognizing as much, the Commonwealth admitted that the “search warrant affidavit
contains information that can compromise the continuing investigation.” Exhibit 3.
The Commonwealth moved to seal the search warrant affidavit and its exculpatory evidence on April 12,
2011. The Circuit Court granted Petitioner’s motion
for discovery, including disclosure of favorable information under Brady on August 3, 2011. Petitioner’s
trial was set to begin on July 16, 2012. The Court
ordered the sealed search warrant affidavit to be
unsealed on July 6, 2012, and it was delivered to
Petitioner’s counsel on July 10, 2014. No notation was
made that these materials contained previously concealed, exculpatory Brady material. But see Banks v.
Dretke, 540 U.S. 668, 696 (2004) (“A rule thus
declaring “prosecutor may hide, defendant must seek,”
is not tenable in a system constitutionally bound to

22a
accord defendants due process.”) By the time the
exculpatory information was made available to Petitioner, as the Commonwealth was well aware, Petitioner’s court appointed counsel was deep in the throes
of preparing for a first-degree murder trial, and unable
to attend properly to delinquent deliveries. With
regard to Brady materials, counsel also relied on the
Commonwealth’s previous misrepresentations that all
such materials had been provided to counsel. See
Strickler v. Greene, 527 U.S. 263, 285 (1999) (noting
that the prosecution’s release of some exculpatory
information would make it “especially unlikely” that
counsel would suspect other information was being
withheld).
The Commonwealth’s intentional manipulation of
its obligations under Brady worked. After Petitioner’s
trial was completed, Petitioner’s court-appointed
counsel acknowledged in a letter dated Mar. 10, 2014,
that he “did not know anything about your brother
admitting to being at the scene of the homicide.” Ex.
2.
The concealed evidence clearly was material under
Brady. See, e.g., Kyles v. Whitley, 514 U.S. 419, 445
(1995) (concluding withheld evidence describing potential alternative perpetrator was material, in part
because it could have been used to cast doubt on the
adequacy of government’s consideration of alternative
suspects.)
An accused has a constitutional right to call for
evidence in his favor. U.S. Const. 5th, 6th, 14th
Amends.; Va. Const. art. 1, §8. This includes the right
to prepare for trial for trial by procuring both
testimonial and documentary evidence. See Cox v.
Comm., 315 S.E.2d 228, 230 (Va. 1984). “In order to
prepare for trial, an accused and his counsel must

23a
have sufficient time to investigate the case and to
evaluate the evidence that is procured.” Gilchrist, 317
S.E.2d at 787; see also Bobo v. Comm., 48 S.E.2d 213,
215 (Va. 1948) (defendant has the right “to call
evidence in his favor,” including the right to prepare
for trial . . . and to ascertain the truth.”)
The purported justification for concealing the
information—that disclosure would “compromise” the
investigation—meant only that Petitioner would have
had a fair and meaningful opportunity to investigate
the case himself. Moreover, providing the information
without noting that it contained Brady material is
further indication of subterfuge. As is the Commonwealth’s failure to meet its ethical duties regarding
disclosure. See Legal Ethics Opinion 1862 (prosecutor
is ethically required-to-make “timely disclosure” of
favorable evidence meaning disclosure “-as soon as
practicable considering all the facts and circumstances
of the case.”)
The Commonwealth also, violated its Brady obligations by failing to reveal that it engaged in bargaining with witnesses for testimony against Petitioner. According to Wendell Franklin, an inmate at
the Lynchburg Adult Detention Center, Deputy
Commonwealth’s Attorney Charles C. Felmlee visited
him and represented that, in exchange for help from
Franklin in the prosecution of Petitioner, Felmlee
would assist Franklin and his wife, who Felmlee told
Franklin was facing indictment for murder. Exhibit 4.
According to Franklin, Franklin’s lawyer contacted
Felmlee about the proposal. Franklin claims that he
agreed to help and “was instructed on what to say and
to which questions and at what point.” Ex. Q. Felmlee
told Franklin that he had “to keep quiet about the
deal.” Ex. 4. According to Franklin, Felmlee changed

24a
the deal, and Franklin did not agree to testify under
the changed deal. Ex. k. According to Franklin, Felmlee
“used a false statement,” which Felmlee “knew to be
false and fabricated” against Dennis Watts. Franklin
states that Dennis Watts “never once told me anything
about his case.” Franklin also admitted that Petitioner
“never told him anything but [Franklin] was doing it
because of Mr. Felmlee’s agreement.” Ex. 4. Franklin
added that another inmate at the Detention Center
named “Khan” told him “Felmlee gave him a deal if he
would testify on Mr. Johnson’s case.” Ex. _.
This evidence was concealed and exculpatory. Kyles
v. Whitley, 514 U.S. 419, 445 (1995) (evidence exculpatory and material that “would have raised opportunities to attack . . . the thoroughness and even good faith
of the investigation.”).
c. Trial counsel failed to provide effective assistance
of counsel as guaranteed by the Sixth and Fourteenth
Amendments to the U.S. Constitution, and similar
provision of the Virginia Constitution, see Strickland
v. Washington.
All allegations of fact and legal arguments contained
in section a and b, supra, are incorporated here by
reference.
If, for any reason, the Commonwealth is absolved of
its manipulation of its straightforward obligations
under Brady, and its resultant successful concealment
of exculpatory evidence from Petitioner, and, contrary
to Banks, 540 U.S. at 696, Petitioner is found to have
been required through trial counsel to have located the
exculpatory evidence, then Petitioner alleges that trial
counsel unreasonably failed to locate the concealed
information and take appropriate action. As the
Supreme Court has acknowledged, where defense

25a
counsel becomes aware of previously concealed, exculpatory evidence late in proceedings, “granting a continuance” is always an available option to minimize
prejudice. See Gray v. Netherland, 518 U.S. 152, 169
(1996) (quoting Taylor v. Illinois, 484 U.S. 400 (1988)).
If trial counsel is found to be theoretically aware of, or
responsible for knowing, the exculpatory information
at issue, it was unreasonable for counsel not to obtain
a continuance, as found in Gray, to provide Petitioner
an opportunity to develop evidence based on the lastminute disclosure. “[a]lthough granting or denying a
continuance is within the discretion of the trial court,
it must exercise its discretion ‘with due regard to the
provisions of the Bill of Rights, which secure to one
accused of crime a fair and impartial trial; and to end
safe-guard his right to call for evidence in his favor.”
Cremeans’ Case, 52 S.E. 362, 362 (1905); see also
Smith v. Comm., 156 S.E. 577, 579 (Va. 1931);
Gilchrist, 317 S.E.2d at 787.
Under Virginia law, Petitioner is not provided counsel in post-conviction proceedings to assist in raising
cognizable claims, including allegations of the denial
of effective assistance of trial counsel guaranteed
by the Sixth Amendment. Petitioner is indigent and
unable to retain counsel on his own. He has been
provided court-appointed counsel at every stage of the
underlying criminal case where counsel is provided to
indigent defendants. Petitioner requested appointment
of counsel for these proceedings in order to have the
opportunity to meet his obligations set out in Va. Code
§ 8.01-654, but was refused.
Under Strickland, in order to be entitled to relief,
Petitioner must show that trial counsel’s performance
was deficient and, as a result, confidence is undermined in the jurors’ verdicts. For the reasons, stated

26a
above, including incorporation of sections a and b,
Petitioner maintains that he has shown both elements
of Strickland. If, for any reason, the Court finds Petitioner has not yet made the requisite showing, Petitioner maintains this is the result of the refusal to
provide Petitioner the assistance of counsel at this
stage of proceedings. Certainly, learned counsel would
be far more qualified than indigent, unschooled
Petitioner in identifying trial counsel’s errors and
omissions. Moreover, Petitioner’s indigency and lack of
resources, assistance, and mobility, make him entirely
unable to investigate matters related to the showing
of prejudice under Strickland.
If there was a procedural vehicle (other than habeas
corpus) by which Petitioner could have brought a
timely action in a Commonwealth court, in order to
seek and obtain the benefit of the Supreme Court’s
decision in McWilliams, then Petitioner alleges that
trial counsel unreasonably failed to identify and employ
that vehicle.
With regard to each of the allegations described
above, Petitioner asks the Court to appoint qualified
counsel to represent him in these proceedings, and to
appoint expert assistance as needed to develop factual
support for his allegations, grant discovery to provide
Petitioner the opportunity to identify, develop, and
present facts in support of his allegations, and to grant
an evidentiary hearing to resolve factual disputes and
establish the credibility of evidence and testimony as
needed.

27a
___________________________ __
Signature of Petitioner
___________________________ __
___________________________ __
___________________________ __
Address of Petitioner
STATE OF VIRGINIA
CITY/COUNTY OF _____________
The petitioner being first duly sworn, says:
1. He signed the foregoing petition;
2. The facts stated in the petition are true to the best
of his information and belief.
_____________________ __
Signature of Petitioner
Subscribed and sworn to before me this _____ day of
March, 2018.
_____________________ __
Notary Public
My commission expires: _____
[Stamp:]
————
FILED IN THE CLERK’S OFFICE OF THE
CIRCUIT COURT OF THE CITY OF LYNCHBURG
MAR 23 2018 Time ______M. TESTE:
Eugene C. Wingfield, CLERK
By: ___________________________ Dep. Clerk

28a
APPENDIX D
IN THE CIRCUIT COURT FOR THE CITY OF
LYNCHBURG VIRGINIA
————
Civil No. CL18000284-00
————
RAHEEM CHABEZZ JOHNSON,
Petitioner,
v.
JEFFREY KISER, Warden,
Red Onion State Prison,
Respondent.
————
MOTION TO DISMISS
————
Your respondent by counsel, moves this Court to deny
and dismiss the petition for a writ of habeas corpus
and in support of the motion states as follows:
1. Johnson is currently confined under an order of
this Court following a jury trial in which he was convicted of one count of first-degree murder, one count of
statutory burglary with intent to commit murder or
robbery while armed with a deadly weapon, two counts
of attempted robbery, and four counts of use of a firearm during the commission of a felony. The court sentenced him to serve an aggregate sentence of life plus
42 years. The order is dated October 5, 2012. (Case
Nos. CR11022622-00 through -07). Johnson appealed
his convictions to the Court of Appeals of Virginia
which affirmed his convictions in a published opinion
dated March 25, 2014. (Record No. 1941-12-3). Johnson

29a
then appealed to the Supreme Court of Virginia, which
affirmed his convictions in a published opinion dated
December 15, 2016. The court subsequently denied a
petition for rehearing on March 24, 2017. (Record No.
141623). Johnson’s petition for certiorari to the United
States Supreme Court was refused on January 8, 2018.
(Case No. 17-326).
2. Johnson now alleges that he is entitled to habeas corpus relief on substantially the following grounds:
(a) Johnson is entitled to a new sentencing proceeding including the appointment of assistance of a
mental health expert because the Supreme Court of
Virginia’s opinion is inconsistent with the rule established in McWilliams v. Dunn, 137 S. Ct. 1790 (2017);
(b) The Commonwealth concealed favorable evidence from the petitioner in violation of his constitutional rights;
(c) Johnson’s trial counsel was ineffective.
3. These claims are legally and factually without
merit.
Claim A
4. Johnson first states that he is entitled to habeas
corpus relief because the Supreme Court of Virginia’s
opinion in his direct appeal was inconsistent with the
rule established in McWilliams v. Dunn, 137 S. Ct.
1790 (2017). Johnson’s claim that he was entitled to
the appointment of assistance of mental health expert
has already been raised and rejected on direct appeal
in the Supreme Court of Virginia and, to the extent he
raised it in the United States Supreme Court, in that
court as well. Accordingly, this claim is not cognizable
in a habeas corpus action. See Henry v. Warden, 265
Va. 246, 576 S.E.2d 495 (2003).

30a
5. To the extent that Johnson implies that the
Henry rule should not apply to him in light of the
McWilliams opinion, the Court should reject this
claim. Contrary to Johnson’s suggestion, he had a full
and fair opportunity to raise these issues on direct
appeal. Moreover, McWilliams did not in fact create
any type of change in the law as Johnson suggests.
Instead, the court clearly based its ruling on “what
Ake requires.” McWilliams, 137 S. Ct. at 1801.
Johnson’s Ake argument was raised and rejected both
in the Supreme Court of Virginia and in the United
States Supreme Court. Moreover, as Johnson himself
admits, the McWilliams opinion was issued on June
19, 2017, two months before he filed his petition for
writ of certiorari in that court, and approximately six
months before the United States Supreme Court
denied that petition. This claim is defaulted under the
rule in Henry to the extent it has been raised and
rejected previously. To the extent Johnson makes new
allegations; it is defaulted under the rule in Slavton v.
Parrigan, 215 Va. 27, 29, 205 S.E.2d 680, 682 (1974),
because he could have raised it at trial and on appeal.
For all of these reasons, the Court should reject this
claim and find that it is procedurally defaulted in this
habeas corpus action.
Claim B
6. Johnson next argues that the Commonwealth
concealed favorable evidence from him in violation of
his constitutional rights under Brady v. Maryland,
373 U.S. 83 (1963) and related cases. Johnson first
claims that the Commonwealth violated his Brady
rights because it withheld an exculpatory search
warrant from him until just days before his trial. This
claim fails because it is the type of claim that the
petitioner could have raised during his trial and on

31a
direct appeal. See Parrigan, 215 Va. at 29, 205 S.E.2d
at 682.
7. Johnson also claims that the Commonwealth
violated its Brady obligations by failing “to reveal that
it engaged in bargaining with witnesses for testimony
against [Johnson].” This is also the type of claim that
Johnson could have raised at trial and on appeal, so it
is defaulted under the rule in Parrigan. Moreover, it
is without merit. His first claim involves Wendell
Franklin, but Franklin did not testify at trial, so
Johnson has failed to establish materiality.
8. His second claim involves “Khan.” Johnson
claims that Khan told Wendell Franklin that the prosecutor had “given him a deaf if he would testify [against
the petitioner].” This claim is also barred under the
rule in Parrigan. Moreover, it is without merit. First,
Johnson provides no affidavit from Khan; instead, he
simply provides the hearsay-within-hearsay affidavit
of Franklin attesting to what Khan supposedly told
him. This affidavit is insufficient to prove this claim
and should be stricken as inadmissible hearsay. See
Burket v. Angelone, 208 F.3d 172, 185-86 (4th Cir.
2000) (Supreme Court of Virginia struck similar
“Brown” affidavit). Second, the respondent is obliged
to assume that Johnson is referring to Abdul-Malik
Khan, who did testify at trial. (7/17/12 Tr. 5-30). In
light of both the extensive evidence the Commonwealth elicited at trial about Khan’s “hope” that
he would get “consideration” for his testimony, and
defense counsel’s thorough impeachment of Khan,
Johnson has not established “materiality” from any
undisclosed “promise” the Commonwealth may have
made either. (7/17/12 Tr. 5-8, 24-30). The Court should
dismiss Claim B as defaulted and without merit.

32a
Claim C
9. Johnson next argues that his trial counsel was
ineffective. To prevail on this claim he must establish
that his trial counsel’s performance was objectively
unreasonable and that as a result he has been prejudiced. Strickland v. Washington, 466 U.S. 668, 687
(1984). Johnson first argues that his trial counsel was
ineffective for failing to move for a continuance in light
of the late-disclosed exculpatory information in a
search warrant. However, the decision whether to
move for a continuance is committed solely to trial
counsel’s discretion. Johnson admits that prior to trial,
the Court ordered the search warrant affidavit in his
case to be unsealed. This affidavit was relatively short.
Counsel was not objectively unreasonable for failing to
move for a continuance. See Stockton v. Commonwealth,
227 Va. 124, 141, 314 S.E.2d 371, 382 (1984). In fact,
the affidavit itself indicates that the petitioner, Raheem
Johnson, had also stated to police that Quinton
Johnson was inside the apartment at the time of the
shooting, so the petitioner was aware of this information over a year before he was tried. (Petitioner’s
Ex. 1). Moreover, the petitioner has not shown prejudice. Upon information and belief, Quinton Johnson,
the individual whom the affidavit indicated told the
police he was present in the apartment during the
robbery and murder, is the petitioner’s brother. See
Huffington v. Nuth, 140 F.3d 572, 581-82 (4th Cir.
1998) (stating that habeas court must evaluate information from defendant’s family member as having
“less value than that of objective witnesses” and .in
light of the potential bias inherent in that information). The petitioner has not stated with particularity what evidence counsel could have developed had he
obtained a continuance or why it would have made a
difference in the outcome of his trial. For all these

33a
reasons, the Court should reject this claim under both
prongs of Strickland.
10. To the extent that Johnson claims his lawyer
was ineffective for failing to move for a continuance
due to the existence of exculpatory information that
the Commonwealth offered favorable treatment to
certain individuals, Johnson contends in his Claim B
that this information was never disclosed to the
defense: Accordingly, trial counsel could not have been
unreasonable for failing to move for a continuance on
this basis. Even if counsel had this “exculpatory” information, Johnson has failed to establish that counsel
was objectively unreasonable for failing to move for a
continuance or that he was prejudiced by this failure.
This claim also fails under both prongs of Strickland.
11. Johnson claims that he is entitled appointed
counsel to assist him in his present habeas corpus
proceedings. He does not have a right to such counsel.
See Haward v. Warden, 232 Va. 16, 19, 348 S.E.2d 211,
213 (1986). Moreover, he has not shown good cause for
the Court to grant him discovery. See Rule 4:1(b)(5)
(leave of court is required for discovery in a habeas
case and that the court “may deny or limit discovery”
in such proceedings). Put another way, a habeas petitioner, unlike the usual civil litigant, is not entitled to
discovery as a matter of ordinary course.” Bracy v.
Gramley, 520 U.S. 899, 904 (1997).
12. The respondent denies any claims not admitted
herein and states that no evidentiary hearing is necessary. See Friedline v. Commonwealth, 265 Va. 273,
277-79, 576 S.E.2d 491, 493-95 (2003) (citing Code
§ 8.01-654(8)(4)).

34a
WHEREFORE, your respondent prays that the petition be denied and dismissed without an evidentiary
hearing.
Respectfully submitted,
JEFFREY KISER, WARDEN,
Respondent herein
By:
Counsel

35a
APPENDIX E
IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
Civil Case No. CL18000284-00
(related case Comm. v. Johnson, CR11-022622-00)
————
RAHEEM CHABEZZ JOHNSON
(VDOC # 1462766),
Petitioner,
-vsJEFFREY KISER, Warden,
Red Onion State Prison,
Respondent.
————
PETITIONER’S REPLY TO WARDEN’S
MOTION TO DISMISS PETITION
FOR WRIT OF HABEAS CORPUS
————
Petitioner Raheem Chabezz Johnson state the following in Reply to the Warden’s Motion to Dismiss the
Petition for Writ of Habeas Corpus and asks this Court
to deny the motion to dismiss and grant appropriate
relief, including ordering an evidentiary hearing with
discovery to resolve Petitioner’s dispute allegations.
Claim A
The Warden concedes that the June 19, 2017, decision of the Supreme Court of the United States in
McWilliams v. Dunn, 137 S. Ct. 1790 (2017), came
after December 15, 2016, when Petitioner’s direct

36a
appeal was decided by the Supreme Court of Virginia.
Therefore, it cannot be disputed that Petitioner did not
raise a claim based on McWilliams in the Supreme
Court of Virginia, and could not have done so. To
the extent the Warden suggests Petition was required
to raise a claim under McWilliams for the first time
in a petition for writ of certiorari filed with the
Supreme Court of the United States, MTD at 3 (noting
McWilliams was decided before Petitioner filed for
certiorari review), no such requirement exists. Johnson’s
direct appeal remedy was exhausted when the Supreme
Court of Virginia issued its decision. See, e.g., Lawrence
v. Florida, 549 U.S. 327, 333 (2007) (citing cases
holding that petition for certiorari is not required, and
stating that state remedies are exhausted at end of
state-court review).
As alleged in his Petition, McWilliams established a
new rule identifying three threshold criteria that, if
established, require a court in a capital case to provide
“access to a competent psychiatrist who will conduct
an appropriate examination and assist in evaluation,
preparation, and presentation of the defense.” Petition
at Section D, item 14 (supplemental pages)(quoting
McWilliams, 137 S. Ct. at 1798-99). There is no
corresponding language or requirement set forth in
Ake v. Oklahoma, 470 U.S. 68 (1985), and this requirement was not satisfied in Petitioner’s case. The mandate of the Supreme Court of Virginia—that to obtain
the assistance of the expert a defendant must make a
showing of need that is different from, and more
onerous than, the requirement in McWilliams—cannot
stand.
The rule in Henry v. Warden does not bar Petitioner’s habeas claim because there has been “a change
in circumstances.” 576 S.E.2d 495, 496 (Va. 2003).

37a
Because the opinion in McWilliams was not issued
until after Petitioner’s direct appeal was decided by
the Supreme Court of Virginia, and because McWilliams
announced a new rule by changing the requirements
for courts to provide expert assistance under Ake, the
circumstances have changed, and this Court must
consider the merits of Petitioner’s claim under
McWilliams.
Claim B
The Warden argues that Petitioner’s Brady claims
based on the prosecution’s concealment of an exculpatory search warrant affidavit and its bargaining for
witnesses for their testimony should be dismissed as a
matter of law because they are “the type of claim[s]”
that could be raised “at trial and on appeal.” MTD at
3-4. This cannot provide a basis for dismissal as a matter of law. Any Brady claim includes a showing that
the favorable evidence at issue was concealed. When
considering a motion to dismiss, this Court must
assume the nonmovant’s allegations to be true.1 In this
instance, this Court must assume Petitioner’s allegations of concealment to be true. Concealment as alleged
in a Brady claim overcomes the default asserted by the
Warden. See, e.g., Strickler v. Green, 527 U.S. 263
1

”Where, as here, ‘no evidence [has been] taken with regard
to [a] motion to dismiss[,] we treat the factual allegations in the
petition as we do on review of a demurrer.’ Virginia Marine Res.
Comm’n v. Clark, 709 S.E.2d 150, 154 (Va. 2011). We accept ‘the
truth of all material facts that are . . . expressly alleged, impliedly
alleged, and those that may be fairly and justly inferred from the
facts alleged.’ Harris v. Kreutzer, 624 S.E.2d 24, 28 (Va. 2006).
Our inquiry encompasses ‘not only the substantive allegations of
the pleading attacked but also any accompanying exhibit mentioned in the pleading.’ Flippo v. F & L Land Co., 400 S.E.2d 156,
156 (Va. 1991).

38a
(1999). This is indisputably true here where Petitioner’s trial counsel admitted he did not know about
the concealed evidence at a time where he could have
raised the matter at trial or on appeal. See Exhibit 2.
The Warden also argues that Petitioner’s claim
should be dismissed as a matter of law because “it is
without merit.” MTD at 3. A motion to dismiss is not
the proper vehicle to challenge the merits of a claim.
The Court should only rule on the merits after Petitioner has had a fair and full opportunity to develop
and present factual support for his claims. So far,
Petitioner has had no opportunity whatsoever to
develop factual support, and is incarcerated and without appointment of counsel. See n. 1, supra. Moreover,
the only basis the Warden argues for dismissal of
Petitioner’s Brady claim is the fact that the claim
“involves Wendell Franklin,” and Franklin did not
testify. This cannot provide a basis for dismissing a
Brady claim. See, e.g., Kyles v. Whitley, 514 U.S. 419,
445 (1995) (finding suppressed favorable statements of
non-testifying witness material under Brady); cf.
Banks v. Dretke, 540 U.S 668, 697–98 (2004) (“even
though the informer in Roviaro [v. United States, 353
U.S. 53 (1957)] did not testify, we held that disclosure
of his identity was necessary because he could have
amplif[ied] or contradict[ed] the testimony of government witnesses.” (internal quotation marks and citations omitted)); see also Kyles, 514 U.S. at 445–46
(undisclosed evidence would have “raised opportunities to attack not only the probative value of crucial
physical evidence and the circumstances in which it
was found, but the thoroughness and even the good
faith of the investigation” and would have enabled
counsel to “attack[] the reliability of the investigation
in failing to even consider [witness’s] possible guilt”).

39a
Similarly, the Warden seeks dismissal as a matter
of law based on a merits determination of Petitioner’s
allegations that the prosecution gave prosecution witness Abdul-Malik Khan a deal for testifying against
Petitioner at trial. MTD at 4. The Warden argues only
that the evidence offered in support of the claim “is
insufficient to prove” the claim. MTD at 4. But Petitioner need not provide evidence sufficient to “prove”
his claim in order to survive a motion to dismiss.
See n. 1., supra. The Warden’s argument that crossexamination of Khan conducted at trial shows that
Petitioner “has not established ‘materiality,’” MTD at
4, again misses the mark by arguing that Petitioner
must “establish materiality” in order to avoid dismissal of his claim as a matter of law. See, e.g., Juniper v.
Zook, 876 F.3d 551, 567 (4th Cir. 2017). Also, the
Warden has it backwards when he argues that this
cross-examination is evidence against a showing of
materiality. The Court’s assessment of materiality
must be cumulative. See e.g., Wearry v. Cain, 136 S.
Ct. 1002, 1007 (2016) (citing Kyles v. Whitley, 514 U.S.
419, 441 (1995)). Therefore, when assessing materiality, the Court must add the impact of the concealed
evidence to that of any evidence that was presented or
examination that took place at trial.
Claim C
The Warden argues that Petitioner’s allegations
that he did not receive effective assistance of counsel
must be dismissed as a matter of law because a
decision whether to move for a continuance “is committed solely to trial counsel’s discretion.” MTD at 4-5.
This simply is not true, and the Warden’s counsel
admits as much. See MTD at 5 (acknowledging that
counsel’s actions are assessed for their reasonableness). Moreover, review of counsel’s actions must con-

40a
sider what counsel would have reasonably done had
counsel known about the powerful evidence at issue
here where counsel had no idea about the exculpatory
evidence. See Exhibit 2. Also, the Warden is wrong to
suggest that Petitioner knew about the full content of
the exculpatory information in Quinton Johnson’s
affidavit that was concealed from Petitioner. The
Warden cannot support a motion to dismiss by raising
disputes of fact, and this Court cannot rely on such
disputes as bases for dismissing Petitioner’s allegation
as a matter of law. See n. 1., supra.
The Warden improperly argues that Petitioner’s
claim should be dismissed as a matter of law based on
purported facts proffered by the Warden, the party
moving for dismissal, and supported only by the representation of the Warden “[u]pon information and belief.”
This cannot provide a proper basis for a motion to dismiss allegations as a matter of law. See n. 1., supra.
CONCLUSION
For the reasons stated above and in Petitioner’s
Petition for Writ of Habeas Corpus filed in this matter,
incorporated in full by reference herein, this Court
must deny the Warden’s Motion to Dismiss Petitioner’s
claims as a matter of law.
PRAYER FOR RELIEF
For the reasons stated above and in Petitioner’s
Petition for Writ of Habeas Corpus filed in this matter,
incorporated in full by reference herein, Petitioner
asks this Court to grant the following relief:
1. Vacate Petitioner’s convictions and order Respondent to release him from custody;
2. Vacate Petitioner’s sentences as appropriate;

41a
3. Deny the Warden’s motion to dismiss Petitioner’s
claims as a matter of law;
4. Order an evidentiary hearing, and appropriate discovery and expert assistance to allow Petitioner a
full and fair opportunity to develop and present evidence in support of his claims, and to resolve any
disputed claims;
5. Appoint qualified counsel to represent Petitioner in
these proceedings, and provide counsel sufficient
time to investigate, develop, and present allegations regarding his convictions and sentences,
including the ability to amend existing claims and
supplement his Petition with new claims developed
by appointed counsel that Petition could not develop due to his indigence and his inability to obtain
the assistance of counsel; and
6. Grant all of other appropriate relief.
Respectfully Submitted,
__________________________
Raheem Chabezz Johnson
Signature of Petitioner
Red Onion State Prison
10800 H. Jack Rose Highway
P.O. Box 90
Pound, Virginia 24279
(276) 796-7510

42a
CERTIFICATE OF SERVICE
On August 13, 2018, Raheem Chabezz Johnson, submitted the above Reply to the Warden’s Motion to Dismiss
for delivery to counsel for the Warden,
Donald E. Jeffrey, III,
Senior Assistant Attorney General,
Office of the Attorney General,
202 North Ninth Street,
Richmond, Virginia, 23219,
(804) 786-2071,
oagcriminallitigation@oag.state.va.us.
_____________________________

43a
APPENDIX F
IN THE SUPREME COURT OF VIRGINIA
————
RAHEEM CHABEZZ JOHNSON, prose,
Petitioner,
v.
JEFFERY KISER, Warden,
Red Onion State Penitentiary,
Respondent.
————
From the Circuit Court for the City of Lynchburg
(Johnson v. Kiser, Warden, No. CL 18-284)
————
PETITION FOR APPEAL
————
Raheem Chabezz Johnson,
pro se (DOC# 1462766)
Red Onion State Prison
10800 H. Jack Rose Highway
P.O. Box 90
Pound, Virginia 24279
(276) 796-7510

44a
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ................................
ASSIGNMENTS OF ERROR ..............................

1

THE NATURE OF THE CASE AND
PROCEEDINGS BELOW ...................................

2

STATEMENT OF FACTS ...................................

3

AUTHORITIES AND ARGUMENT ...................

6

1. The circuit court erred in holding that
Johnson’s habeas claim under McWilliams
v. Dunn, 137 S. Ct. 1790 (2017), is procedurally defaulted under Henry v. Warden,
576 S.E.2d 495 (Va. 2003), and/or Slayton
v. Parrigan, 205 S.E.2d 680 (Va. 1974).
Assignment of Error 1 (Claim A) .............

6

2. The circuit court erred in in refusing to
grant relief and dismissing as a matter of
law Johnson’s habeas allegations that
the Commonwealth concealed exculpatory
or impeaching evidence, in violation of
constitutional rights established by
Brady v. Maryland, 373 U.S. 83 (1963),
and Kyles v. Whitley, 514 U.S. 419 (1995),
without allowing discovery or an evidentiary hearing. Assignment of Error 2
(Claim B) ...................................................

8

45a
TABLE OF CONTENTS—Continued
Page
3. The circuit court erred in refusing to
grant relief and dismissing as a matter
of law Johnson’s habeas allegations
that trial counsel failed to provide
constitutionally effective assistance, see
Strickland v. Washington, 466 U.S. 664
(1984), without allowing discovery or an
evidentiary hearing. Assignment of Error
3 (Claim C) ................................................

11

Discovery, Hearing, and Counsel ........................

15

CONCLUSION AND RELIEF SOUGHT ...........

15

CERTIFICATE ....................................................

16

46a
TABLE OF AUTHORITIES
CASES

Page(s)

Ake v. Oklahoma,
470 U.S. 68 (1985) .....................................

7, 9

Banks v. Dretke,
540 U.S. 668 (2004) ...................................

14

Brady v. Maryland,
373 U.S. 83 (1963) ....................................passim
Flippo v. F & L Land Co.,
400 S.E.2d 156 (Va. 1991) ........................

13

Graham v. Florida,
560 U.S. 48 (2010) .....................................

11

Henry v. Warden,
576 S.E.2d 495 (Va. 2003) ........................ 5, 10
Husske v. Commonwealth,
476 S.E.2d 920 (Va. 1996) ........................

11

Johnson v. Commonwealth,
755 S.E.2d 468 (Va. Ct. App. 2014) ..........

6

Johnson v. Commonwealth,
793 S.E.2d 326 (Va. 2016) ........................

6

Johnson v. Kiser, Warden,
Civil No. CL18-284 ...................................

7

Johnson v. Virginia,
138 S. Ct. 643 (2018) .................................

7

Kearns v. Hall,
91 S.E.2d 648 (Va. 1956) ..........................

15

Kyles v. Whitley,
514 U.S. 419 (1995) ..................................passim

47a
TABLE OF AUTHORITIES—Continued
Page(s)
McWilliams v. Dunn,
137 S. Ct. 1790 (2017) ..............................passim
Miller v. Alabama,
567 U.S. 460 (2012) ...................................

6, 9

North Carolina v. N.C. State
Conf. of the NAACP,
137 S. Ct. 1399 (2017) ...............................

10

Slayton v. Parrigan,
205 S.E.2d 680 (Va. 1974). Order ............. 5, 10
Strickland v. Washington,
466 U.S. 664 (1984) ................................... 5, 15
Strickland v. Washington,
466 U.S. 668 (1984) ...................................

7

United States v. Bagley
473 U.S. 667, 683 (1985) ...........................

15

Virginia Marin Res. Comm’n v. Clark,
709 S.E.2d 150 (Va. 2011) ........................

13

Wearry v. Cain,
136 S. Ct. 1002 (2016) ...............................

15

OTHER AUTHORITIES
Sixth Amendment ........................................

18

D.14.a, D.16.a, D.17.a...................................

5

D.14.b, D.16.b, D.17.b...................................

5

D.14.c, D.16.c, D.17.c ....................................

6

U.S. Constitution Sixth and
Fourteenth Amendments .........................

16

48a
TABLE OF AUTHORITIES—Continued
SUSPECTS

Page(s)

136 S. Ct. 718 (2016) ....................................

6

Id., Ex. 4 ........................................................

9

Id. Ex. 4 .........................................................

9

Id., Ex. 4 ........................................................

9

Commonwealth v. Johnson, Lynchburg Circuit
Court, CR11022622-00-07 ...................................

9

49a
ASSIGNMENTS OF ERROR
1. The circuit court erred in holding that Johnson’s
habeas claim under McWilliams v. Dunn, 137 S. Ct.
1790 (2017), is procedurally defaulted under Henry v.
Warden, 576 S.E.2d 495 (Va. 2003), and/or Slayton v.
Parrigan, 205 S.E.2d 680 (Va. 1974). Order at 2-3. To
the extent the circuit court addressed the merits of
Johnson’s claim, it erred in denying him a new sentencing proceeding with the assistance of appropriate
mental health experts to examine and present mitigating evidence.
This issue was presented to the circuit court in the
petition for writ of habeas corpus Sections D.14.a,
D.16.a, D.17.a (misnumbered as D.14.a) and in Petitioner’s Reply Brief at 12. The circuit court’s consideration is at Order at 2-3.
2. The circuit court erred in refusing to grant relief
and dismissing as a matter of law Johnson’s habeas
allegations that the Commonwealth concealed exculpatory or impeaching evidence, in violation of constitutional rights established by Brady v. Maryland, 373
U.S. 83 (1963), and Kyles v. Whitley, 514 U.S. 419
(1995), without allowing discovery or an evidentiary
hearing. Order at 3-4.
This issue was presented to the circuit court in the
petition for writ of habeas corpus Sections D.14.b,
D.16.b, D.17.b (misnumbered as D.14.b), and in Petitioner’s Reply Brief at 3-5. The circuit court’s consideration is at Order at 3-4.
3. The circuit court erred in refusing to grant relief
and dismissing as a matter of law Johnson’s habeas
allegations trial counsel failed to provide constitutionally effective assistance, see Strickland v. Washington,

50a
466 U.S. 664 (1984), without allowing discovery or an
evidentiary hearing. Order at 4-6.
This issue was presented to the circuit court in the
petition for writ of habeas corpus Sections D.14.c,
D.16.c, D.17.c (misnumbered as D.14.c), and in Petitioner’s Reply Brief at 6. The circuit court’s
consideration is at Order at 4-6.
THE NATURE OF THE CASE AND
PROCEEDINGS BELOW
This is an appeal from the dismissal of a petition for
writ of habeas corpus. Petitioner Raheem Chabezz
Johnson is an inmate sentenced to life imprisonment
for crimes committed when he was a juvenile. The
habeas petition alleged that his conviction and sentence were obtained in violation of the constitutions of
the United States and Virginia.
A Lynchburg jury convicted Petitioner of first-degree
murder for the 2011 shooting death of Timothy Irving,
and sentenced him to life imprisonment. Petitioner
also was convicted of statutory burglary, two counts of
attempted robbery, and four counts of using a firearm
during the commission of a felony, and sentenced to a
total of 42 years in prison.
The Court of Appeals affirmed the convictions and
sentences. Johnson v. Commonwealth, 755 S.E.2d 468
(Va. Ct. App. 2014). This Court partially granted a
petition for appeal, limited to the constitutionality of
petitioner’s life sentence in light of Miller v. Alabama,
567 U.S. 460 (2012). but did not grant relief. Petitioner
asked for rehearing. In light of the U.S. Supreme
Court’s new decision in Montgomery v. Louisiana, 136
S. Ct. 718 (2016), the Court amended the grant of
appeal, and agreed to consider the trial court’s denial
of funds for a neuropsychologist. The Court ultimately

51a
denied relief on all the grounds it considered. Johnson
v. Commonwealth, 793 S.E.2d 326 (Va. 2016).
Petitioner asked the U.S. Supreme Court for a writ
of certiorari. He argued that because of his age at the
time of the crime, Virginia unconstitutionally (i) sentenced him to life imprisonment without parole, and
(ii) denied him the assistance of a neuropsychologist to
examine and present individualized evidence in mitigation. On the second issue, petitioner relied in part
on McWilliams v. Dunn, 137 S. Ct. 1790 (2017), which
the Supreme Court had decided several months after
the conclusion of all direct appeal proceedings in state
court. The Commonwealth waived its right to respond,
but the Supreme Court took the uncommon step of
requesting a response. That Court subsequently denied
the petition. Johnson v. Virginia, 138 S. Ct. 643 (2018).
Acting pro se, and without the benefit of investigative assistance, Petitioner submitted a petition for
habeas corpus in the Lynchburg circuit court. Johnson
v. Kiser, Warden, Civil No. CL18-284. He alleged that
the trial court’s denial of his request for the assistance
of a mental health expert was unconstitutional under
McWilliams and Ake v. Oklahoma, 470 U.S. 68 (1985)
(Claim A); that the Commonwealth violated rights
established by Brady v. Maryland, 373 U.S. 83 (1963),
and Kyles v. Whitley, 514 U.S. 419 (1995) (Claim B);
and that, due to particular errors or omissions, he was
denied effective assistance of counsel in violation of
Strickland v. Washington, 466 U.S. 668 (1984) (Claim
C). He supported his allegations with the evidence
available to him, including proffered statements and
documentary evidence, and he asked for appointment
of counsel and the opportunity to obtain discovery and
an evidentiary hearing.

52a
The Warden moved to dismiss these allegations as a
matter of law, and opposed appointment of counsel,
discovery, and an evidentiary hearing. On September
17, 2018, the circuit court adopted verbatim an order
drafted by the Warden’s lawyer, which summarily dismissed the habeas petition. The court also denied
Petitioner’s request for appointment of counsel, and
any opportunity for discovery or an evidentiary hearing.
STATEMENT OF FACTS
On April 11, 2011, two intruders entered Timothy
Irving’s residence to rob him. Irving’s girlfriend, Artenna
Horsley-Robey, was in the residence and has consistently said she saw only two intruders, both wore masks,
and only their eyes were visible. Trial transcript (Tr.)
150. She told police that Dennis Watts was one of the
intruders, but that she did not know the identity of the
other intruder who actually shot Irving. She later
identified Petitioner as the second intruder.
The Commonwealth possessed evidence that the second intruder was petitioner’s brother, Quinton Johnson.
A sealed affidavit, appended to the government’s application for a search warrant, revealed that, “Quinton
Johnson made statements to investigators that he was
present inside of the victim Timothy Irving’s residence
at the time of the shooting, but denied shooting
Timothy Irving.” Petition for Writ of Habeas Corpus,
Ex. 1. At the Commonwealth’s request, the circuit
court found that the affidavit “contains information
that can compromise the continuing investigation.”
Ex. 3. Although the Commonwealth represented that
it had timely disclosed all Brady materials, it intentionally did not move to unseal the affidavit and
provide it to the defense until a few days before trial
began, at a time when defense counsel was in the

53a
throes of preparing for the imminent trial. Even then,
the Commonwealth failed to alert defense counsel that
this last-minute disclosure included additional Brady
material. Petitioner’s court-appointed defense counsel
acknowledged to petitioner in a letter dated March 10,
2014, that he “did not know anything about your
brother admitting to being at the scene of the homicide.” Ex. 2.1
The Commonwealth also failed to reveal that it
engaged in bargaining with witnesses for testimony
against Petitioner. According to Wendell Franklin, an
inmate at the Lynchburg Adult Detention Center,
Deputy Commonwealth’s Attorney Charles C. Felmlee
told him that, in exchange for help from Franklin in
the prosecution of Petitioner, Felmlee would assist
Franklin and his wife, who Felmlee told Franklin was
facing indictment for murder. Petition for writ of
Habeas Corpus, Ex. 4. According to Franklin, Franklin’s
lawyer contacted Felmlee about the proposal. Franklin
claims that he agreed to help and “was instructed on
what to say and to which questions and at what point.”
Ex. 4. Felmlee told Franklin that he had “to keep quiet
about the deal.” Id., Ex. 4. According to Franklin,
Felmlee changed the deal, and Franklin did not agree
to testify under the changed deal. Id. Ex. 4. According
to Franklin, Felmlee “used a false statement,” which
Felmlee “knew to be false and fabricated” against
Dennis Watts. Franklin states that Dennis Watts
“never once told me anything about his case.” Franklin
also admitted that Petitioner “never told him anything
but [Franklin] was doing it because of Mr. Felmlee’s
agreement.” 19, Ex. 4. Franklin added that another
inmate at the Detention Center named “Khan” told
1

After providing the letter, but before certiorari litigation was
resolved, Petitioner’s trial counsel passed away unexpectedly.

54a
him “Felmlee gave him a deal if he would testify on
Mr. Johnson’s case.” Id., Ex. 4.
On April 11, 2011, when Timothy Irving was shot
and killed, petitioner was 17 years old. He was
indicted for capital murder (which carried a mandatory sentence of life without parole) and several lesser
offenses. After the U.S. Supreme Court outlawed mandatory life without parole sentences for juveniles, see
Miller v. Alabama, 567 U.S. 460 (2012), the Commonwealth reduced the capital charge to first-degree murder, for which a sentence of life without parole was
permitted but was not mandatory.
A Lynchburg jury found Petitioner guilty of firstdegree murder, statutory burglary, two counts of
attempted robbery, and four counts of using a firearm
during the commission of a felony. Commonwealth v.
Johnson, Lynchburg Circuit Court, CR11022622-0007. In preparation for sentencing, Petitioner asked the
court to appoint a neuropsychologist under Ake v.
Oklahoma, 470 U.S. 68 (1985), to develop and present,
as a mitigating factor in favor of a sentence less than
life, individualized evidence that Petitioner’s physiological and emotional development were immature at
the time of the crime. The trial court denied the
motion, and, in the absence of this mitigating evidence, Petitioner was sentenced to life imprisonment,
plus 42 additional years in prison. Under Virginia law,
Petitioner is not eligible for parole, except to seek a
“geriatric 11 parole after reaching 60 years of age.

55a
AUTHORITIES AND ARGUMENT
1. The circuit court erred in holding that Johnson’s
habeas claim under McWilliams v. Dunn, 137 S.
Ct. 1790 (2017), is procedurally defaulted under
Henry v. Warden, 576 S.E.2d 495 (Va. 2003),
and/or Slayton v. Parrigan, 205 S.E.2d 680 (Va.
1974). Assignment of Error 1 (Claim A)
This Court should grant an appeal on Claim A
because the circuit court erred in holding that Petitioner’s claim, based on McWilliams, is procedurally
defaulted. The claim cannot be defaulted under Henry
v. Warden, 576 S.E.2d 495 (Va. 2003), because Henry
only applies to claims that were “raised and decided
either in the trial or on direct appeal.” Id. at
496 (emphasis added). No state court “decided” the
McWilliams claim in the trial or on direct appeal
because all state court proceedings ended months
before the U.S. Supreme Court issued its opinion in
McWilliams in the first place. The U.S. Supreme Court
also did not “decide” petitioner’s McWilliams claim; it
only denied certiorari. “The denial of a writ of certiorari imports no expression of opinion upon the merits
of the case in North Carolina v. N.C. State Conf. of the
NAACP, 137 S. Ct. 1399 (2017) (Roberts, C.J., concurring in denial of certiorari) (quoting United States_v.
Carver, 260 U.S. 482, 490 (1923)).
Petitioner’s McWilliams claim also cannot be
defaulted under Slayton v. Parrigan, 205 S.E.2d 680
(Va. 1974). Slayton, similar to Henry, applies only to
claims that could have been raised at trial and on
direct appeal, but were not. Petitioner could not have
raised a McWilliams claim at trial and on appeal
because McWilliams was not decided until two years
after the trial and six months after this Court’s decision on appeal.

56a
The habeas court ignored the substance of petitioner’s McWilliams claim and did not decide the
merits. The closest it came to the merits was to include
a brief sentence, in the middle of its procedural default
discussion, saying that “McWilliams did not in fact
create any type of change in the law as Johnson suggests.” Order at 3. To the extent this Court reads the
habeas court’s decision as adjudicating the merits of
the McWilliams issue, its decision was erroneous.
In McWilliams, the Supreme Court said that whenever the three threshold criteria articulated in Ake are
met-(1) an indigent defendant, (2) whose mental
condition is “relevant to . . . the punishment he might
suffer,” and (3) when that mental condition is “seriously in issue” the state must provide “access to a
competent psychiatrist who will conduct an appropriate examination and assist in evaluation, preparation,
and presentation of the defense,” including at the sentencing phase. 137 S. Ct. at 1798-99. All three criteria
were present in petitioner’s case.
In Husske v. Commonwealth, 476 S.E.2d 920 (Va.
1996), this Court announced how Ake would apply in
Virginia. The defendant in Husske had requested the
assistance of a DNA expert in order to challenge the
Commonwealth’s forensic DNA evidence, which the
trial court denied. This Court upheld the decision,
stating that before a defendant is entitled to expert
assistance under Ake, he must make a “particularized
showing of need.” In Husske and subsequent cases,
Virginia courts have used this more demanding “particularized showing of need,” rather than the threshold Ake criteria. McWilliams established that at least
with respect to the assistance of appropriate mental
health experts, Husske is incompatible with Ake.

57a
Petitioner satisfied the threshold criteria identified
in McWilliams. He was indigent. His mental condition,
meaning the extent to which his brain was underdeveloped because of his youth and particularized history, was relevant to mitigation and the appropriate
sentence. Graham v. Florida, 560 U.S. 48, 68 (2010)
(“psychology and brain science continue to show fundamental differences between juvenile and adult
minds”; “parts of the brain involved in behavior control
continue to mature through late adolescence”; actions
of juveniles “are less likely to be evidence of ‘irretrievably depraved character’ than are the actions of adults”
(quoting Roper v. Simmons, 543 U.S. 551, 570 (2005)).
And his mental condition was “seriously in issue.” In
fact, it is impossible to see how a juvenile defendant,
facing a potential life sentence for a murder, could not
have the strong need for an expert who would conduct
an appropriate examination, determine the individualized developmental status of the juvenile’s brain,
help defense counsel prepare the facts and theory for
presentation to the jury, identify and prepare points to
rebut any contrary presentation by the prosecution
regarding the defendant’s brain development, and
testify as a mitigation witness in support of a reduced
sentence. In short, the Court announced in McWilliams
“what Ake requires,” 137 S. Ct. at 1801, and it is not
what petitioner got under Husske. This Court should
grant the appeal, apply the rule in McWilliams, and
remand the case for resentencing.

58a
2. The circuit court erred in refusing to grant
relief and dismissing as a matter of law Johnson’s
habeas allegations that the Commonwealth
concealed exculpatory or impeaching evidence,
in violation of constitutional rights established
by Brady v. Maryland, 373 U.S. 83 (1963), and
Kyles v. Whitley, 514 U.S. 419 (1995), without
allowing discovery or an evidentiary hearing.
Assignment of Error 2 (Claim B)
This Court should grant an appeal on Claim B
because the habeas court erred by dismissing Petitioner’s allegations that the Commonwealth concealed
exculpatory and impeaching evidence in violation of
rights established by Brady v. Maryland, 373 U.S. 83
(1963), and Kyles v. Whitley, 514 U.S. 419 (1995). The
habeas court further erred by doing so as a matter of
law without allowing discovery or an evidentiary hearing. The Commonwealth possessed and concealed evidence that the second intruder-the one who prosecutors argued shot Irving-was petitioner’s brother,
Quinton Johnson. A sealed affidavit, appended to the
government’s application for a search warrant, revealed
“Quinton Johnson made statements to investigators
that he was present inside of the victim Timothy
Irving’s residence at the time of the shooting, but
denied shooting Timothy Irving.” Petition for Writ of
Habeas Corpus, Ex. 1. The trial court found that the
sealed affidavit, Ex. 1, contains information that can
compromise the continuing investigation/ Ex. 3. As
such, it was favorable to Petitioner. Nonetheless,
while still holding back the exculpatory affidavit, the
Commonwealth represented to the defense that it had
timely disclosed Brady material. In fact, it did not
move to unseal the affidavit and provide it to the
defense until a few days before trial began, at a time
when the Commonwealth was well aware defense

59a
counsel was in the throes of preparing for the imminent trial. Even then, the Commonwealth engaged in
subterfuge by failing to alert defense counsel that this
last-minute disclosure included additional Brady material.
The withheld information was material because it
identified a credible, alternate triggerman. Although
Robey testified at trial that Petitioner was the shooter,
she acknowledged that a mask covered the triggerman’s face, and she could only see his eyes. Tr. at 150,
lines 1-17. The fact that Quinton admitted his presence, and that Robey’s identification was based solely
on her view of the intruder’s eyes, would further cast
doubt that she could identify the triggerman with
sufficient certainty to support a finding of guilt beyond
a reasonable doubt, and on the adequacy of the government’s consideration of alternative suspects. See Kyles,
514 U.S. at 445.
The habeas court rejected this claim because it is
“the type of claim that the petitioner could have raised
during his trial and on direct appeal.” Order at 3. But
that is true of any Brady claim. By definition, Brady
requires a showing that the prosecution concealed evidence that the defense could have raised “at trial and
on direct appeal.”2 Because the Commonwealth’s con-

2

Because the habeas court acted on the Warden’s motion to
dismiss, and because no evidence was taken. the habeas court
was required to “treat the factual allegations in the petition as we
do on review of a demurrer.” Virginia Marin Res. Comm’n v.
Clark, 709 S.E.2d 150, 154 (Va. 2011). It had to accept “the truth
of all material facts properly pleaded. Under this rule, the facts
admitted are those expressly alleged, those which fairly can be
viewed as impliedly alleged, and those which may be fairly and
justly inferred from the facts alleged. . . . [AJ court may examine
not only the substantive allegations of the pleading attacked but

60a
cealment was deliberate and knowing, it cannot be
excused under the untenable rule that “prosecutor
may hide, defendant must seek.” Banks v. Dretke, 540
U.S. 668, 696 (2004). In a habeas affidavit, petitioner’s
trial counsel admitted he did not know about the
concealed evidence at a time when he could have
raised it at trial or on appeal. Petition for Writ of
Habeas Corpus, Ex. 2.
The government further violated Brady by failing to
disclose its offers of assistance to witness Wendell
Franklin, and his wife (who faced indictment for
murder) if they assisted the government in prosecuting petitioner. Petitioner presented Franklin’s sworn
statement, which described how the prosecutor
approached Franklin to make a deal. Petition for Writ
of Habeas Corpus, Ex. 4. After talking to his lawyer,
Franklin agreed to help and was instructed by the
prosecutor on what to say. But the prosecutor changed
the terms of the deal and Franklin declined to testify
under the change. The fact that the prosecution felt it
had to offer a deal in order to obtain evidence against
petitioner is material because it further shows the
weakness of the government’s case. And, contrary to
the circuit court’s reasoning, the fact that Franklin did
not testify at petitioner’s trial is not a basis to dismiss
the Brady claim. See Kyle, §514 U.S. at 445 (suppressed favorable statement of nontestifying witness
was material under Brady).
The habeas court again dismissed this allegation
because it is “the type of claim” that could have been
raised at trial and on appeal. Order at. 3. That remains
true of all Brady claims and is not a basis for summary
also any accompanying exhibit mentioned in the pleading”. Flippo
v. F & L Land Co., 400 S.E.2d 156, 156 (Va. 1991).

61a
dismissal. For the reasons already described, the habeas
court erred in failing to treat petitioner’s factual allegations as true, and in failing to give him a full and
fair opportunity to develop and present factual support.
Franklin’s affidavit additionally said that the prosecution gave another inmate, Abdul-Malik Khan, a
deal for testifying against petitioner. The habeas court
responded by striking the affidavit, saying it contained
inadmissible hearsay and therefore was insufficient to
prove Petitioner’s claim. But this Court instructed in
Kearns v. Hall, 91 S.E.2d 648, 652-53 (Va. 1956), that
hearsay statements in an affidavit, even though inadmissible in their own right, can be “sufficient to require
the court to hold a hearing” so it can determine whether the hearsay allegations are accurate. At such a
hearing, witnesses would have to appear and testify
under oath, and the affidavit would be inadmissible.
!d. After making an assessment of accuracy, the court
would address the merits of the request for legal reliefhere, the application for habeas corpus based on a violation of Brady-and determine whether to grant or
deny that relief. Petitioner specifically requested an
evidentiary hearing, and the habeas court erred in
denying it.
The fact that Khan testified at trial that he merely
“hope[d ]” to get “consideration” for his testimony does
not preclude a finding that the alleged Brady violation
was immaterial. As Justice Blackmun explained in
United States v. Bagley, if consideration for Brown’s
testimony was not guaranteed, that fact would serve
to strengthen his incentive to testify falsely in order to
help the Commonwealth secure petitioner’s conviction. 473 U.S. 667, 683 (1985) (opinion of Blackmun,
J.). Moreover, a court’s assessment of materiality must

62a
be cumulative. Wearry v. Cain, 136 S. Ct. 1002, 1007
(2016). The habeas court erred in failing to perform
such an assessment.
This Court should grant the appeal, and remand the
case for review of the merits of his allegations of
violations of Brady and Kyles, including discovery and
an evidentiary hearing.
3. The circuit court erred in refusing to grant relief
and dismissing as a matter of law Johnson’s
habeas allegations that trial counsel failed to
provide constitutionally effective assistance, see
Strickland v. Washington, 466 U.S. 664 (1984),
without allowing discovery or an evidentiary
hearing. Assignment of Error 3 (Claim C)
This Court should grant an appeal because the
habeas court erred in dismissing as a matter of law
Petitioner’s well-supported allegations that trial counsel failed to provide effective assistance, as guaranteed
by the Sixth and Fourteenth Amendments to the U.S.
Constitution. Petitioner incorporates all facts and
legal arguments he has made above.
Regarding Claim A, the habeas court held that
petitioner should have raised the McWilliams claim at
trial and on direct appeal, even though McWilliams
was not decided until four years after the trial court’s
judgment. Order at 2-3. Petitioner alleged in the alternative to his substantive claim, that, if the McWilliams
claim should have been raised at trial and on appeal,
it was unreasonable for defense counsel not to do so.
Counsel knew that it was critically important to Petitioner’s sentencing case to have the assistance of an
expert who could examine the state of Petitioner’s
brain, and could help counsel prepare and present the
case for reduced punishment. Counsel also knew that

63a
the need for such assistance was critical in circumstances where the defendant committed the crime
when he was a juvenile, the government was seeking
a life sentence without available parole, the defense
goal was a sentence less than life imprisonment, juveniles’ brains are influenced by childhood environments
and experiences and develop at different rates, and a
neuropsychologist was needed to develop and present
individualized mitigation evidence to support a
shorter sentence. In light of McWilliams, the trial
court’s denial of the defense motion, upheld on appeal,
must be taken to mean that defense counsel fell short
in some significant way. Petitioner adequately alleged
that, had jurors considered the individualized evidence
the neuropsychologist would have provided, there is a
reasonable probability at least one juror would not
have voted for a death sentence.
Regarding Claim B, petitioner alleged that the Commonwealth failed to disclose several pieces of exculpatory or impeachment information in violation of Brady.
The habeas court held that petitioner defaulted these
Brady allegations because each is “the type of claim”
he could have raised at trial and on direct appeal. To
the extent the Brady allegations were properly found
to be defaulted, Petitioner alleged that trial counsel
rendered ineffective assistance in failing to raise the
claims at trial and on appeal.
First, the Warden admits the Commonwealth kept
the affidavit regarding Quinton Johnson under seal,
and produced it to the defense just days before trial.3
3

Trial counsel later admitted that he was unaware of the contents of the affidavit. Petition for Writ of Habeas Corpus, Ex. 2.
If counsel received the late Brady disclosure but failed to review,
this was undoubtedly ineffective assistance.

64a
A reasonable attorney who represented a defendant
charged with first-degree murder, and who received
an exculpatory affidavit so belatedly in the case, would
move for a continuance in order to investigate and
modify his trial strategy. Competent counsel would
recognize that the information in the affidavit, coupled
with Robey’s admission that the triggerman’s face was
masked so that her identification was based solely on
seeing his eyes, gave defense counsel a powerful basis
to develop and present a defense of reasonable doubt
regarding the triggerman’s identity. The circuit court
sought to justify trial counsel’s omission because Petitioner also claimed-though without supporting evidencethat Quinton was in the victim’s apartment, Order at
5, but this only increases the reasonable need to
request a continuance to investigate the previously
concealed evidence. Without any evidence about the
reason (if there was one) for counsel’s failure to request
such a continuance, the habeas court concluded that
the failure was not objectively unreasonable. Without
addressing the exculpatory value of the late-disclosed
information, the habeas court also held that petitioner
failed to show he was prejudiced by counsel’s deficient
performance. Order at 5-6. These decisions were erroneous.
Second, the prosecutor offered to assist detainees
Wendell Franklin and his wife in exchange for their
testimony against petitioner. The prosecutor instructed
the Franklins “to keep quiet about the deal,” and told
them “what to say and to which questions and at what
point.” Petition for Writ of habeas Corpus, Exhibit
(statement of Wendell Franklin). He also reportedly
used a statement in his prosecution of Watts that
Franklin knew was false. That the Commonwealth
broke his deal with Franklin, with the result that
Franklin did not testify at petitioner’s trial, does not

65a
erase the fact that the prosecutor solicited testimony
that would be tainted. The habeas court held that
because the prosecutor’s deal with the Franklins was
not consummated, counsel could not have been unreasonable in failing to move for a continuance or otherwise challenge the deal. Order at 6. This is circular
logic because the premise depends on proof of the
conclusion. The prosecutor’s intent to solicit untrustworthy testimony from Franklin was impeaching,
regardless whether he actually elicited that testimony
at trial. See, e.g., Kyles, 514 U.S. at 445 (finding
suppressed statements of nontestifying witness material under Bragy); id. at 445-46 (explaining that undisclosed evidence would have given defense opportunities to attack physical evidence and to challenge good
faith of government’s investigation). Petitioner was
prejudiced because trial counsel could have challenged
the good faith of the government’s investigation and
the trial tactics it formulated.
Third, the habeas court wrote cryptically that because
the Commonwealth’s deal with Abdul-Malik Khan
“was never disclosed to the defense, . . . trial counsel
could not have been unreasonable for failing to move
for a continuance on this basis.” Order at 6. This is
more circular logic. The government cannot hide evidence of its own Brady misconduct, and then argue
that its failure to disclose that evidence excuses trial
counsel’s failure to discover it. Kyles, supra.
This Court should grant the appeal, and remand the
case for review of the merits of his allegations of
violations of Strickland and the Sixth Amendment,
including discovery and an evidentiary hearing.

66a
Discovery, Hearing, and Counsel
Petitioner requested counsel to assist him in habeas
proceedings. The habeas court denied this request on
the sole ground that he had no right to counsel. But
petitioner clearly asked for a discretionary appointment, which the habeas court did not address. The
Court should take the denial of counsel into consideration in considering this petition for appeal, especially
with regard to Petitioner’s failure to investigate and
develop factual support for allegations. Petitioner also
asked for discovery and an evidentiary hearing. Without addressing any of the disputed questions of fact in
the parties’ pleadings, the habeas court announced
that a determination of petitioner’s claims could be
made without the need for a hearing. In assessing the
evidence, this Court should take into consideration
petitioner’s inability to elicit and present facts supporting his claims, especially with regard to Claims B
and C.
CONCLUSION AND RELIEF SOUGHT
For the reasons stated above, Petitioner respectfully
asks the Court to grant his Petition for Appeal, appoint
counsel to represent Petitioner who is indigent, find
that the habeas court’s analyses and conclusions were
legally erroneous or factually unsupported, and either
grant habeas relief or remand for further proceedings.
Respectfully submitted,
Raheem Chaffezz Johnson,
pro se (VDOC# 1462766)
Red Onion State Prison
10800 H. Jack Rose Highway
P.O. Box 90
Pound, Virginia 24279
(276) 796-7510

67a
CERTIFICATE
On this 13 of December, 2018, pursuant to Rule
5:17(i), Petitioner states the following:
(1) Appellant/Petitioner: Raheem Chabezz Johnson
(VDOC# 1462766)1 Red Onion State Prison, 10800 H.
Jack Rose Highway. P.O. Box 90, Pound, Virginia
24279, (276) 796-7510. Appellant/Petitioner is incarcerated and does not have access to a facsimile machine
or email. Appellant/Petitioner is not represented by
counsel.
Appellee/Respondent Warden Jeffrey Kiser is represented by Senior Assistant Attorney General Donald
E. Jeffrey, Ill. Office of the Attorney General, 202
North Ninth Street, Richmond, Virginia 23219, (804)
786-2071 (telephone), (804) 786-1991 (fax).
Appellant/Petitioner does not have an email address
for Respondent or Respondent’s counsel.
(2) A copy of the foregoing Petition for Appeal has
been served on counsel for Appellee/Respondent by
hand-delivery.
(3) The foregoing Petition for Appeal complies with
the Court’s length requirements under Rule 5:17(f).
(4) Appellant/Petitioner is not represented by counsel.
(5) Appellant/Petitioner is an inmate proceeding
prose; pursuant to Rule 5:170)(3), the Court can consider his petition without oral argument. If permitted
and appropriate, and Petitioner is served in a timely
manner, Petitioner would provide a reply brief.
Raheem Chabezz Johnson, pro se
(VDOC# 1462766)

68a
APPENDIX G
SUPREME COURT OF VIRGINIA
————
Record No. 141623
292 Va. 772
————
RAHEEM CHABEZZ JOHNSON
v.
COMMONWEALTH OF VIRGINIA
————
Filed December 15, 2016
————
Background: Defendant, who was 17 years old at the
time of the alleged crime, was convicted in the Circuit
Court, City of Lynchburg, Mosby G. Perrow, III, J., of
first-degree murder and received a life sentence. Defendant appealed. The Court of Appeals, 63 Va.App. 175,
755 S.E.2d 468, affirmed. Defendant appealed.
Holdings: The Supreme Court, Powell, J., held that:
(1) defendant was not entitled to appointment of
neuropsychologist to assist in sentencing, and
(2) defendant’s sentence did not violate prohibition on cruel and unusual punishments
Affirmed.
Millette, Senior Justice, filed concurring opinion.
[HEADNOTES OMITTED]

69a
FROM THE COURT OF APPEALS OF VIRGINIA
B. Leigh Drewry, Jr., Lynchburg,
for appellant.
Donald E. Jeffrey, III, Senior Assistant
Attorney General (Mark R. Herring,
Attorney General, on brief), for appellee.
PRESENT: Lemons, C.J., Goodwyn, Mims,
McClanahan, and Powell, JJ., and
Russell and Millette, S.JJ.
OPINION BY JUSTICE CLEO E. POWELL
Raheem Chabezz Johnson (‘‘Johnson’’) appeals the
trial court’s refusal to appoint a neuropsychologist at
the Commonwealth’s expense to assist in the preparation of his presentence report pursuant to Code § 19.2299(A). Johnson further takes issue with the Court of
Appeals’ affirmance of the trial court’s decision to
impose a life sentence. According to Johnson, the life
sentence imposed by the trial court was in violation of
the Eighth Amendment because the trial court failed
to afford him the opportunity to present evidence
about youth and its attendant characteristics.
I. BACKGROUND
On April 11, 2011, Johnson shot and killed Timothy
Irving. At the time, Johnson was two months short of
his eighteenth birthday. On June 1, 2011, Johnson
was indicted on eight felonies, including capital murder. After his indictment but before trial, the United
States Supreme Court decided Miller v. Alabama, 567
U.S. 460, 132 S. Ct. 2455, 183 L.Ed.2d 407 (2012). As
a result, the Commonwealth amended the indictment
to reduce the capital murder charge to first degree
murder. A jury subsequently convicted Johnson of all
eight felonies.

70a
The trial court ordered a presentence re-port and
continued the matter for sentencing. On August 3,
2012, Johnson moved to have Joseph Conley, Ph.D.
(‘‘Dr. Conley’’), a neuropsychologist, appointed at the
Commonwealth’s expense, to serve as an expert to
assist in the preparation for his sentencing hearing.
In his motion, Johnson noted that Dr. Conley had
‘‘devoted his practice to the study of the maturation of
the brain and its functioning.’’ Johnson argued that
Dr. Conley would ‘‘provide relevant facts specific to
Raheem C. Johnson so as ‘to fully advise the court’ of
all matters specific to Raheem C. Johnson and allow
the fashioning of a sentence in compliance with the 8th
Amendment to the United States Constitution.’’
At a hearing on the matter, Johnson argued that Dr.
Conley’s assistance was necessary because the probation officer charged with compiling the pre-sentence
report ‘‘does not have the ability to collect the necessary details about what is happening within [Johnson’s]
mind, how [Johnson’s] mind has developed.’’ Johnson
asserted that Dr. Conley’s ‘‘facts or unique abilities’’
would allow him to develop ‘‘other relevant facts
needed to individualize the punishment that [the trial
court] is going to have to mete out.’’ In response, the
Commonwealth stated that Johnson had not demonstrated the requisite particularized need to have Dr.
Conley appointed at the Commonwealth’s expense
because it was ‘‘common sense’’ that a juvenile is less
mature than an adult. The Commonwealth also noted
that Johnson was not facing life without parole
because Johnson would be eligible for geriatric parole
at age 60.
After considering the matter, the trial court denied
Johnson’s motion. The trial court noted that nothing
in Johnson’s record supported his position that such

71a
an evaluation was needed. It further stated that
Johnson had not shown a particularized need because,
in the trial court’s opinion, Miller did not require such
an evaluation in every case where the accused was a
juvenile at the time of the offense.
Prior to sentencing, Johnson submitted four articles
that discuss brain development and legal culpability.
At the sentencing hearing, the trial court acknowledged that it had read the articles Johnson submitted
and considered them along with the presentence
report and Johnson’s school records. After hearing
argument from the parties, the trial court stated:
Mr. Johnson, in this case we had a helpless
victim, the shooting was unprovoked, and it
was cruel and callous. It was just mean. It
was, it’s as cruel and callous as anything I’ve
seen since I’ve been sitting here on the bench,
and that’s been awhile. Just totally unnecessary to put a bullet in this young man’s head.
The trial court then proceeded to sentence Johnson
to life in prison for the first degree murder charge plus
an additional 42 years for the other seven charges.
Johnson filed a motion to reconsider, arguing that
the trial court failed to properly consider the articles
he submitted and the Supreme Court’s ruling in Miller
before imposing Johnson’s sentence. Johnson further
asserted that, by imposing a life sentence, the trial
court ignored the fact that, statistically, geriatric
parole was not a realistic opportunity to obtain early
release. The trial court denied the motion without a
hearing.
In a letter opinion, the trial court explained that it
imposed a life sentence “after careful consideration of
[Johnson’s] individual characteristics as reflected in

72a
the record, including without limitation the presentence report and school records.’’ The trial court also
reiterated that it had reviewed the articles Johnson
submitted. The trial court noted the ‘‘horrendous
nature of the crime’’ and determined that Johnson’s
‘‘history of disrespect for authority and aggressive
behavior which, coupled with the brutality of the
offense, make [Johnson] … a danger to himself and
others should he be returned to society.’’
Johnson appealed the trial court’s refusal to appoint
a neuropsychologist and its decision to impose a life
sentence to the Court of Appeals. The Court of
Appeals denied Johnson’s petition for appeal with
regard to the denial of his motion for a neuropsychologist, but granted his petition with regard to the
sentence imposed. In a published opinion, the Court
of Appeals subsequently determined that, because a
sentence of life did not exceed the statutory maximum
penalty for first-degree murder, the trial court had not
erred. Johnson v. Commonwealth, 63 Va. App. 175,
182–85, 755 S.E.2d 468, 471–73 (2014). The Court of
Appeals further held that, because Johnson was not
facing a mandatory life sentence, Miller did not apply.
Id. at 183–84, 755 S.E.2d at 472.
Johnson appeals.
II. ANALYSIS
On appeal, Johnson argues that the Court of
Appeals erred in refusing to consider his appeal
related to the trial court’s denial of the motion for the
appointment of a neuropsychologist on his behalf at
the Commonwealth’s expense. Additionally, he asserts
that, under Miller, the Court of Appeals erred in affirming the trial court’s decision to impose a life sentence
because he was not afforded the opportunity to present

73a
evidence regarding youth and its attendant consequences.
A. Motion for a Neuropsychologist
[1] Johnson contends that the trial court erred in
denying his motion for the appointment of a neuropsychologist on his behalf at the Commonwealth’s
expense because he demonstrated a particularized
need for the services of a neuropsychologist. Johnson
asserts that he demonstrated the requisite ‘‘particularized need’’ established by this Court in Husske v.
Commonwealth, 252 Va. 203, 476 S.E.2d 920 (1996).
He also relies on the fact that Code § 19.2-299(A)
requires that a presentence report include ‘‘other
relevant facts.’’ Johnson claims that evidence relating
to his physiology or psychology were such ‘‘other
relevant facts.’’ Thus, according to Johnson, even in
the absence of showing a particularized need, the services of a neuropsychologist were necessary to provide
a complete presentence report. He further asserts that
such evidence was necessary to allow the trial court to
‘‘tailor’’ the punishment to him. We disagree.
[2–4] This Court has recognized that, upon request,
the Commonwealth is required to ‘‘provide indigent
defendants with ‘the basic tools of an adequate
defense.’’’ Husske, 252 Va. at 211, 476 S.E.2d at 925
(quoting Ake v. Oklahoma, 470 U.S. 68, 77, 105 S. Ct.
1087, 84 L.Ed.2d 53 (1985)). However, ‘‘an indigent
defendant’s constitutional right to the appointment of
an expert, at the Commonwealth’s expense, is not
absolute.’’ Id. Rather,
an indigent defendant who seeks the appointment of an expert witness, at the Commonwealth’s expense, must demonstrate that the
subject which necessitates the assistance of
the expert is ‘‘likely to be a significant factor

74a
in his defense,’’ and that he will be prejudiced
by the lack of expert assistance. An indigent
defendant may satisfy this burden by demonstrating that the services of an expert would
materially assist him in the preparation of his
defense and that the denial of such services
would result in a fundamentally unfair trial.
The indigent defendant who seeks the appointment of an expert must show a particularized
need.
Id. at 211–12, 476 S.E.2d at 925 (quoting Ake, 470 U.S.
at 82–83, 105 S. Ct. 1087).
[5,6] Furthermore, ‘‘[w]hether a defendant has made
the required showing of particularized need is a
determination that lies within the sound discretion of
the trial court.’’ Commonwealth v. Sanchez, 268 Va.
161, 165, 597 S.E.2d 197, 199 (2004) (citing Husske,
252 Va. at 212, 476 S.E.2d at 926, and other case
authority). ‘‘A particularized need is more than a
‘mere hope’ that favorable evidence can be obtained
through the services of an expert.’’ Green v. Commonwealth, 266 Va. 81, 92, 580 S.E.2d 834, 841 (2003)
(quoting Husske, 252 Va. at 212, 476 S.E.2d at 925–
26). In the present case, Johnson admitted that he
sought the services of a neuropsychologist because
there was no other evidence regarding his physiology
or psychology. In other words, Johnson sought the
assistance of an expert at the Commonwealth’s expense
with no idea what evidence might be developed or
whether it would assist him in any way. At best,
Johnson’s request for a neuropsychologist amounted to
a mere hope that favorable evidence would be obtained.
Thus, it cannot be said that Johnson demonstrated a
particularized need for the assistance of a neuropsychologist.

75a
Johnson next argues that, under Code § 19.2-299(A),
he was entitled to the appointment of a neuropsychologist independent of any showing of a particularized
need. Code § 19.2-299(A) states that, upon a finding
of guilt, a trial court may (or, under certain circumstances, shall) direct a probation officer to
thoroughly investigate and report upon the
history of the accused, including a report of
the accused’s criminal record as an adult and
available juvenile court records, any information regarding the accused’s participation
or membership in a criminal street gang as
defined in § 18.2-46.1, and all other relevant
facts, to fully advise the court so the court
may determine the appropriate sentence to be
imposed.
Id. (emphasis added).
Nothing in the plain language of Code § 19.2-299(A)
specifically requires a probation officer to investigate
a defendant’s current physiology or psychology.1 Indeed,
the statute expressly limits the subject of the probation officer’s investigation and report to ‘‘the history of
the accused.’’ Id. (emphasis added). When read in
context, it is clear that the phrase ‘‘all other relevant
facts’’ is used to describe additional historical information that may be relevant to the probation officer’s
investigation and report.
1

Notably, Code § 19.2-299(A) only describes the investigation
that must be conducted by the probation officer and the contents
of that probation officer’s report. Although the statute provides
a defendant with an opportunity to ‘‘present any additional facts
bearing upon the matter,’’ such an opportunity only arises after
the probation officer has completed his investigation and submitted his report. Similarly, the statute is silent on the manner in
which such facts may be developed.

76a
[7] Thus, it is clear that Code § 19.2- 299(A) does not
envision the appointment of a neuropsychologist to
augment the presentence report. That said, however,
if information regarding a defendant’s physiology
or psychology exists in a defendant’s history, that
information might well be included as ‘‘other relevant
facts’’ in the presentence report. Moreover, such information could be used as part of the showing necessary
to demonstrate a ‘‘particularized need’’ under Husske
or presented as ‘‘additional facts bearing upon the
matter’’ in response to the presentence report. See
Code § 19.2-299(A). Accordingly, the trial court did not
abuse its discretion in denying Johnson’s motion for
the appointment of a neuropsychologist at the Commonwealth’s expense and the Court of Appeals did not
err in upholding this determination.2
B. Life Sentence
[8] Johnson next argues that the trial court erred in
sentencing him to life in prison. Relying on the Supreme
Court’s decision in Miller v. Alabama, Johnson claims
that, because he was still a juvenile on the date that
he committed the crimes, the trial court was required
to consider the psychological differences between
adults and juveniles before imposing a life sentence.
Johnson further contends that, in the absence of such
consideration, the sentence imposed by the trial court
was not individualized and, therefore, violated the
Eighth Amendment. However, we conclude that Miller

2

Johnson also asserts that the Supreme Court’s decision in
Miller further demonstrates the requisite ‘‘particularized need.’’
However, as discussed below, Johnson’s reliance on Miller is misplaced and, therefore, we need not address whether the applicability of Miller to a specific case can provide a ‘‘particularized
need’’ under the proper circumstances.

77a
is inapplicable to the present case. Therefore, the trial
court did not err.
In Miller, the Supreme Court held that a sentence of
‘‘mandatory life without parole for those under the age
of 18 at the time of their crimes violates the Eighth
Amendment’s prohibition on ‘cruel and unusual punishments.’’’ 132 S. Ct. at 2460. However, by its plain
language, Miller only applies where a juvenile offender
is sentenced to a term of life without parole. Notably,
the Supreme Court’s analysis in Miller is founded, in
part, on the notion that sentencing a juvenile to life in
prison is a disproportionate sentence because a juvenile sentenced to life without parole is analogous to
capital punishment. Id. at 2466. In contrast, ‘‘[a]llowing those offenders to be considered for parole ensures
that juveniles whose crimes reflected only transient
immaturity—and who have since matured—will not
be forced to serve a disproportionate sentence in
violation of the Eighth Amendment.’’ Montgomery v.
Louisiana, –– U.S. ––, 136 S. Ct. 718, 736, 193 L.Ed.2d
599 (2016). Indeed, it is particularly telling that the
remedy for a Miller violation is to ‘‘permit juvenile
homicide offenders to be considered for parole.’’ Id.
Thus it is clear that Miller does not apply when a
juvenile offender has the opportunity to be considered
for parole.
In Angel v. Commonwealth, 281 Va. 248, 275, 704
S.E.2d 386, 402 (2011), we held that the possibility of
geriatric release under Code § 53.1-40.013 provides a
3

Code § 53.1-40.01 states:
Any person serving a sentence imposed upon a conviction for a felony offense, other than a Class 1 felony, (i)
who has reached the age of sixty-five or older and who
has served at least five years of the sentence imposed
or (ii) who has reached the age of sixty or older and who

78a
meaningful opportunity for release that is akin to
parole. As Johnson was convicted of a Class 2 felony,
he will be eligible for geriatric release under Code
§ 53.1-40.01 when he turns 60 in 2053, in which case
the possibility exists that Johnson’s sentence of life
imprisonment will convert into a sentence of approximately forty years.4 Thus, it is readily apparent that,
under this Court’s jurisprudence, Johnson was only
sentenced to life in prison; he was not sentenced to life
without parole. Accordingly, Johnson’s reliance on
Miller is misplaced.
III. CONCLUSION
Having failed to demonstrate the requisite particularized need for the appointment of a neuropsychologist at the Commonwealth’s expense, Johnson has
has served at least ten years of the sentence imposed
may petition the Parole Board for conditional release.
The Parole Board shall promulgate regulations to
implement the pro-visions of this section.
4

While Johnson makes much about the low statistical probability of release under Code § 53.1-40.01, we find his argument to
be, at present, speculative because the statistical data Johnson
relies on does not include juvenile offenders. Indeed, as has been
recently noted,
The geriatric release program was not implemented
until 1994. See 1994 Acts (Sp. Sess. II) 1, 2 (enacting
Code § 53.1-40.01). A hypothetical 17-year old sentenced to a life sentence or a de facto life sentence in
1995 will not be eligible for geriatric release until 2038.
Moreover, inmates who committed their crimes before
January 1, 1995 are still eligible for traditional parole.
See Code §§ 53.1-151, 53.1-165.1. Accordingly, a number of inmates, who would be eligible for geriatric release,
obtain release through traditional parole instead.
Vasquez v. Commonwealth, 291 Va. 232, 258 n. 4, 781 S.E.2d 920,
935 n.4 (2016) (Mims, J., concurring).

79a
failed to show any abuse of discretion in the decision
of the trial court that mandated review by the Court of
Appeals. Additionally, as Code § 53.1-40.01 provides
Johnson with a meaningful opportunity for parole
when he turns 60, Miller has no application to the
present case. Accordingly, we find no reversible error
in the judgment of the Court of Appeals and we will
affirm the decisions of the trial court.
Affirmed.
SENIOR JUSTICE MILLETTE, concurring.
I agree with the majority’s analysis concluding that
Johnson is not entitled to a neuropsychologist under
Husske v. Commonwealth, 252 Va. 203, 476 S.E.2d 920
(1996). I write separately because I disagree with the
majority’s conclusion that ‘‘Miller [v. Alabama, 567
U.S. ––, 132 S. Ct. 2455, 183 L.Ed.2d 407 (2012)] is
inapplicable to the present case’’ because geriatric
release ‘‘provides a meaningful opportunity for release
akin to parole.’’ While the majority applies existing
Virginia precedent, I believe Miller and Montgomery v.
Louisiana, 577 U.S. ––, 136 S. Ct. 718, 193 L.Ed.2d
599 (2016), do not suggest but rather require that this
Court reexamine our position. However, because I
conclude that Johnson’s sentencing ultimately comported with Miller and Montgomery, and the trial
court met its burden under the Eighth Amendment, I
concur in the result.
I.
As an initial matter, Miller and Montgomery are not
limited in scope to mandatory life sentences. Rather,
Miller, as explicated in Montgomery, is the touchstone
for constitutional sentencing of children potentially
facing a sentence of life imprisonment without parole.

80a
In examining the scope of Miller and Montgomery, it
is necessary to take two short steps back in the
jurisprudence of the Supreme Court of the United
States. In Roper v. Simmons, 543 U.S. 551, 575, 125
S. Ct. 1183, 161 L.Ed.2d 1 (2005), the Supreme Court
found the death sentence to be a disproportionate punishment, and therefore cruel and unusual for juveniles
for Eighth Amendment purposes. In Graham v.
Florida, 560 U.S. 48, 74, 75, 130 S. Ct. 2011, 176
L.Ed.2d 825 (2010), the Supreme Court issued a
blanket ban on the imposition of a sentence of life
without parole for juvenile nonhomicide offenders, in
part because the penalty of life without parole ‘‘forswears altogether the rehabilitative ideal.’’ These two
cases would ultimately form the bedrock of the holdings reached in Miller and Montgomery.
Two years later, Miller arose in the context of a
challenge to mandatory life without parole for a
juvenile homicide offender. In Miller, the Supreme
Court did ‘‘not categorically bar a penalty for a class of
offenders or type of crime—as, for example, [the Court]
did in Roper or Graham. Instead, it man- dates only
that a sentencer follow a certain process—considering
an offender’s youth and attendant characteristics—
before imposing a particular penalty.’’ 567 U.S. at ––,
132 S. Ct. at 2471. Such a process is required, in short,
because ‘‘children are constitutionally different from
adults for the purposes of sentencing.’’ 567 U.S. at —,
132 S. Ct. at 2464 (citing Roper, 543 U.S. at 569–70,
125 S. Ct. 1183 and Graham, 560 U.S. at 68, 130 S. Ct.
2011). The Court held not that a life sentence without
parole was never appropriate for a juvenile, but rather
that ‘‘a judge or jury must have the opportunity to
consider mitigating circumstances before imposing the
harshest possible penalty for juveniles.’’ Id. at —, 132
S. Ct. at 2475. Accordingly, Miller held mandatory life

81a
sentences for juvenile offenders to be unconstitutional,
and mandated that a process be followed considering
the ‘‘offender’s youth and attendant characteristics’’
before sentencing juveniles to life with-out parole. Id.
at —, 132 S. Ct. at 2471.
Courts initially struggled with the interaction of
Miller’s substantive and procedural components, resulting in the subsequent opinion of Montgomery, which
plainly states Miller’s key substantive and procedural
holdings. Montgomery clarified that Miller set forth
the following substantive rule of law:
Even if a court considers a child’s age before
sentencing him or her to a lifetime in prison,
that sentence still violates the Eighth Amendment for a child whose crime reflects ‘‘unfortunate yet transient immaturity.’’ Because
Miller determined that sentencing a child to
life without parole is excessive for all but ‘‘the
rare juvenile offender whose crime reflects
irreparable corruption,’’ it rendered life without parole an unconstitutional penalty for ‘‘a
class of defendants because of their status’’—
that is, juvenile offenders whose crimes
reflect the transient immaturity of youth.
577 U.S. at —, 136 S. Ct. at 734 (citations and internal
quotation marks omitted). Montgomery also emphasized Miller’s parallel, prospective procedural holding:
‘‘Miller requires a sentencer to consider a juvenile
offender’s youth and attendant characteristics before
determining that life without parole is a proportionate
sentence.’’ Id.
While Miller rendered mandatory sentences of life
without parole facially unconstitutional, its impact
was not limited to mandatory sentences. Miller’s

82a
facial holding that mandatory life sentences without
parole were unconstitutional was required by the dual
central holdings clarified in Montgomery: that life
without parole is a violation of the Eighth Amendment
for ‘‘juvenile offenders whose crimes reflect the transient immaturity of youth,’’ and, that ‘‘Miller requires
a sentencer to consider a juvenile offender’s youth
and its attendant characteristics’’ before rendering a
sentence of life without parole. Montgomery, 577 U.S.
at —, 136 S. Ct. at 734. Because mandatory sentences
do not allow for such consideration, they ‘‘necessarily
carr[y] a significant risk that a defendant—here, the
vast majority of juvenile offenders—faces a punishment that the law cannot impose on him’’: that ‘‘a child
whose crime reflects unfortunate yet transient immaturity’’ might receive life without parole. Id. (citations
and internal quotation marks omitted).
Yet a non-mandatory sentence of life without parole
can still be unconstitutional as applied to a given
defendant, if such a juvenile is sentenced to life
without parole with- out consideration of ‘‘youth and
its attendant characteristics.’’ Id.; United States v.
Johnson, No. 3:08–cr–0010, 2016 WL 3653753, at *5,
2016 U.S. Dist. LEXIS 83459, at *5–6 (W.D.Va. June
28, 2016) (‘‘[A]bsolutist statutes like those in Miller
and Montgomery are facially unconstitutional. But a
particular life sentence (even one stemming from a
sentencing regime that permits a non-life sentence)
would be unconstitutional as-applied if the sentence
did not abide by the commands of Miller and
Montgomery.’’). Montgomery is clear that, prospectively, ‘‘[a] hearing where youth and its attendant
characteristics are considered as sentencing factors is
necessary to separate those juveniles who may be
sentenced to life without parole from those who may
not. The hearing . . . gives effect to Miller’s substantive

83a
holding that life without parole is an excessive
sentence for children whose crimes reflect transient
immaturity.’’5 Montgomery, 577 U.S. at —, 136 S. Ct.
at 735 (emphasis added) (citation and internal quotation marks omitted).
The Supreme Court in Miller could have simply
struck down mandatory life without parole as unconstitutional. Instead, it devoted the majority of its
opinion and holding to the importance of this procedural consideration of youth. This procedural requirement is ineffectual if limited to only ‘‘mandatory’’
sentencing schemes. Montgomery clarifies that the
substantive rule of law set forth in Miller is that life
without parole—not mandatory life without parole,
but ‘‘life without parole’’—is ‘‘an unconstitutional penalty for . . . juvenile offenders whose crimes reflect the
transient immaturity of youth.’’ Id. at —, 136 S. Ct. at
734.6 Accordingly, Montgomery also makes clear that
a Miller hearing procedurally requires not just discretion to enter a lesser sentence, but actual consideration of youth by the sentencer, id., or the entire portion
of the opinion and holding in Miller addressing procedure would be rendered superfluous.
II.
Of course, none of the foregoing observations are
consequential if Johnson received a sentence that
5

Retroactively, Montgomery allows for reviews after a term of
years to satisfy this requirement without disturbing finality. 577
U.S. at —, 136 S. Ct. at 736.
6

The Supreme Court’s recent action bolsters this view. Arias
v. Arizona, — U.S. —, 137 S. Ct. 370, 196 L.Ed.2d 287 (2016)
(vacating and remanding a judgment predicated upon the refusal
of the Court of Appeals of Arizona to grant Miller relief to a juvenile who did not receive a mandatory life sentence).

84a
provides, through parole or a similar system, a meaningful opportunity for release based on maturation
and rehabilitation. The majority, observing that Miller
and Montgomery do not apply in instances of parole,
relies on our previous decision in Angel v. Commonwealth, 281 Va. 248, 275, 704 S.E.2d 386, 402 (2011),
for the proposition that geriatric release is ‘‘akin to
parole.’’
The Commonwealth abolished parole two decades
ago. Code § 53.1-165.1. Non-capital juvenile homicide
offenders in Virginia remain eligible to apply for
geriatric release at the age of 60. Code § 53.1-40.01.
Five years ago, in light of Graham, this Court was first
tasked with examining whether those juvenile nonhomicide offenders eligible for geriatric release fell under
Graham’s prohibition against life imprisonment without parole, or rather had a ‘‘meaningful opportunity’’
for release. Graham, 560 U.S. at 75, 130 S. Ct. 2011.
At the time, I joined this Court’s opinion in Angel,
281 Va. at 275, 704 S.E.2d at 402, concluding that
nonhomicide offenders in Virginia were not subject to
life without parole under Graham because geriatric
release offered a ‘‘meaningful opportunity’’ for release,
thereby preventing those life sentences from implicating the Eighth Amendment concerns raised by Graham.
Our mandate in light of Graham alone was substantially narrower than the vision of the Eighth Amendment set forth by the Supreme Court today. Graham
noted, for example, that:
It bears emphasis . . . that while the Eighth
Amendment prohibits a State from imposing
a life without parole sentence on a juvenile
nonhomicide offender, it does not require the
State to release that offender during his natu-

85a
ral life. Those who commit truly horrifying
crimes as juveniles may turn out to be irredeemable, and thus deserving of incarceration
for the duration of their lives. The Eighth
Amendment does not foreclose the possibility
that persons convicted of nonhomicide crimes
committed before adulthood will remain behind
bars for life. It does prohibit States from
making the judgment at the outset that those
offenders never will be fit to reenter society.
560 U.S. at 75, 130 S. Ct. 2011. Additionally, the
caveat that meaningful opportunity for release be
‘‘based on demonstrated maturity and rehabilitation,’’
while present in Graham, id., was not emphasized as
central to the holding in the case. The opinion went
on to refer to ‘‘meaningful opportunity to obtain release’’
without caveat, id. at 79, 130 S. Ct. 2011, and, notably,
the conclusion in Graham synthesized the holding as
simply: ‘‘A State need not guarantee the offender eventual release, but if it imposes a sentence of life it must
provide him or her with some realistic opportunity to
obtain release before the end of that term.’’ Id. at 82,
130 S. Ct. 2011 (emphasis added).
Accordingly, in Angel this Court considered whether
the Virginia geriatric release system was sufficiently
distinguishable from life without parole as described
in Graham, and concluded that it was; we found it
offered a meaningful opportunity for release. 281 Va.
at 275, 704 S.E.2d at 402. While we also noted that
normally applicable consideration procedures of the
Parole Board would provide for meaningful release
based on demonstrated maturity and rehabilitation,
we devoted only two sentences to consideration of that
issue. Id. Roper, a death penalty case, was unrelated
to our analysis. I believe we made an informed deci-

86a
sion based on the guidance provided to us from the
Supreme Court at the time.
I do not believe we sit in the same position today.
We now must consider the issue in light of Roper,
Graham, Miller, and Montgomery, and the clear indication by the Supreme Court of the United States that
these cases are to be read together. Montgomery, 577
U.S. at —, 136 S. Ct. at 734; Miller, 567 U.S. at —, 132
S. Ct. at 2461–69. As stated in Montgomery, Graham
was the ‘‘foundation stone’’ for Miller, and ‘‘Miller took
as its starting premise the principle established in
Roper and Graham that ‘children are constitutionally
different from adults for purposes of sentencing.’’’ 577
U.S. at —, 136 S. Ct. at 732–33. We must consider
these holdings not as substantive rules unto themselves but parts of the larger, functioning understanding of the Eighth Amendment; as such, they cannot be
understood in a vacuum, but must be read together to
properly apply Eighth Amendment protections.
Miller and Montgomery provide a more robust
analytical framework for considering the issue of
geriatric release. Graham’s requirement of ‘‘meaningful opportunity for release based on demonstrated
maturity and rehabilitation,’’ 560 U.S. at 75, 130 S. Ct.
2011 (emphasis added), contains new meaning and
import in light of the emphasis in Miller and
Montgomery on the distinction between transient
behavior and incorrigibility. Through the lens of
Miller and Montgomery, it appears that the ‘‘meaningful’’ or ‘‘realistic’’ opportunity to obtain release referred
to in Graham always contemplated meaningful release
based on demonstrated maturity and rehabilitation.
Geriatric release, as it currently exists in the Commonwealth, is fundamentally not a system that ensures
review and release based on demonstrated maturity

87a
and rehabilitation. Virginia’s traditional parole system7
requires consideration of enumerated factors by the
Parole Board. Code § 53.1-155; Virginia Parole Board,
Policy Manual, Section I (2006), available at https://
vpb.virginia.gov/files/1107/vpb-policy-manual.pdf (last
visited Dec. 1, 2016). While maturity and rehabilitation are not factors which are enumerated verbatim,
they are substantially present. See id. However, geriatric release applicants are required to cite compelling
reasons for their release, and the Parole Board can
deny the application for any reason upon Initial
Review.8 Virginia Parole Board Admin. Proc. 1.226.9
No consideration of particular factors is required. Id.
If geriatric release as implemented in Virginia carries
no mandate to ensure a process for consideration of
maturation or rehabilitation, it would appear to fail the
test set forth in Graham that release be ‘‘based on
demonstrated maturity and rehabilitation.’’ 560 U.S.
at 75, 130 S. Ct. 2011. See also LeBlanc v. Mathena,
841 F.3d 256 (4th Cir. 2016) (holding Virginia’s
geriatric release statute failed to provide a meaningful
opportunity for release based on maturity and rehabilitation under Graham in accordance with the Eighth
Amendment). In this regard, it is also manifest that

7

Traditional parole, while still operational, applies to sentences rendered in prosecutions for crimes that were committed
prior to January 1, 1995. Code § 53.1-165.1.
8

Applications that proceed past the Initial Review stage to the
Assessment Review stage receive consideration under the same
factors as those eligible for traditional parole. Virginia Parole
Board Admin. Proc. 1.226.
9

As of December 1, 2016, the Virginia Parole Board Administrative Procedure Manual was available at https://vpb.virginia.
gov/files/1108/ vpb-procedure-manual.pdf.

88a
geriatric release is not a meaningful opportunity for
release that is ‘‘akin to parole.’’
Additionally, following Miller and Montgomery, the
issue of rarity is no longer a mere empirical observation; it is instead linked to a substantive element:
‘‘Although Miller did not foreclose a sentencer’s ability
to impose life without parole on a juvenile, the Court
explained that a lifetime in prison is a disproportionate sentence for all but the rarest of children,
those whose crimes reflect irreparable corruption.’’
Montgomery, 577 U.S. at —, 136 S. Ct. at 726 (citation
and internal quotation marks omitted). Yet if geriatric
release does not require consideration of irreparable
corruption versus demonstrated maturity, or ensure
that denial of release, and therefore life without
parole, is indeed rare, then we cannot claim geriatric
release serves as a basis for the validation of life
without parole sentences without complying with the
framework of Montgomery.
In requiring that ‘‘sentencing courts consider a
child’s ‘diminished culpability and heightened capacity for change’ before condemning him to die in prison,’’
Graham, Miller, and Montgomery now reflect an evident clarification of doctrine on the part of the Supreme
Court of the United States to avoid condemning juveniles to life in prison without hope of parole due to the
‘‘transient immaturity of youth.’’ Montgomery, 577
U.S. at —, —, 136 S. Ct. at 726, 734. As Miller
emphasizes, ‘‘removing youth from the balance . . .
contravenes Graham’s (and also Roper’s) foundational
principle: that imposition of a State’s most severe penalties on juvenile offenders cannot proceed as though
they were not children.’’ 567 U.S. at ––, 132 S. Ct. at
2466. Yet geriatric release treats juveniles no differently than adults, and is if anything harsher due to

89a
the longer period of punishment the juvenile must
serve before reaching the age of eligibility.
In light of recent Supreme Court precedent, I believe
that the juveniles sentenced to life in Virginia are no
different than the juveniles sentenced to ‘‘life imprisonment without parole’’ described in Graham, Miller,
and Montgomery, and that geriatric parole does not
provide a ‘‘meaningful opportunity to obtain release
based on demonstrated maturity and rehabilitation.’’
Graham, 560 U.S. at 75, 130 S. Ct. 2011. As a result,
juveniles sentenced to life in Virginia are in fact facing
‘‘the harshest possible penalty for juveniles,’’ Miller,
567 U.S. at ––, 132 S. Ct. at 2475, regardless of
whether we choose to invoke the phrase ‘‘life without
parole.’’ Accordingly, they should be protected by the
substantive and, at least prospectively, procedural
rules of law clarified in Montgomery.
III.
In the case at bar, the record reflects that the trial
court considered peer-reviewed journals presented by
the defendant concerning adolescent brain development and legal culpability, thereby considering ‘‘youth
and its attendant characteristics’’ before rendering its
sentence. Montgomery, 577 U.S. at ––, 136 S. Ct. at
735. Because I believe the trial court satisfied the
constitutional requirements articulated in Miller and
Montgomery, I concur in the majority’s opinion affirming Johnson’s sentence.

90a
APPENDIX H
FROM THE CIRCUIT COURT OF THE
CITY OF LYNCHBURG
Mosby G. Perrow, III, Judge
————
Record No. 1941-12-3
————
RAHEEM CHABEZZ JOHNSON
v.
COMMONWEALTH OF VIRGINIA
————
Filed March 25, 2014
Present: Judges Humphreys, Beales and Huff
Argued at Salem, Virginia
————
OPINION BY JUDGE RANDOLPH A. BEALES
MARCH 25, 2014
B. Leigh Drewry, Jr. (Cunningham and Drewry, on
brief), for appellant.
Donald E. Jeffrey, III, Senior Assistant Attorney
General (Kenneth T. Cuccinelli, II, Attorney General,
on brief), for appellee.
Raheem Chabezz Johnson (appellant) appeals the
trial court’s decision to impose a life sentence for
appellant’s first-degree murder conviction under Code
§ 18.2-32.1 In his assignment of error that is before
1

In addition to the life sentence, appellant was also sentenced
to a total of forty-two years for several other offenses — i.e., statutory burglary, two counts of attempted robbery, and four counts

91a
this Court, appellant alleges that the trial court “ignored
his individuality and the holding of Miller v. Alabama,
132 S. Ct. 2455 (2012).” For the following reasons, we
affirm appellant’s life sentence for first-degree murder.
I. Background
Under settled principles of appellate review, we
view “the evidence in the light most favorable to the
Commonwealth, as we must since it was the prevailing
party” in the trial court. Riner v. Commonwealth, 268
Va. 296, 330, 601 S.E.2d 555, 574 (2004). On April 11,
2011, about two months before appellant’s eighteenth
birthday, appellant and a co-defendant planned to
rob the victim. After appellant and the co-defendant
entered the victim’s residence, appellant produced a
handgun and ordered the victim to a bedroom. While
the victim was on his knees looking in his bedroom
closet for money, appellant shot the victim in the head.
The victim’s girlfriend and two-year-old son were in
the bedroom and, thus, were forced to watch the murder of the victim.
On June 1, 2011, a grand jury indicted appellant on
eight felony charges, including capital murder. Code
§ 18.2-31 classifies capital murder as a Class 1 felony.
For defendants, such as appellant, who were under
eighteen years of age at the time of the offense, Code
of using a firearm during the commission of a felony. Appellant
has not challenged the sentences for those convictions on appeal.
Furthermore, an appeal was not granted on assignments of error
alleging that the trial court erred by denying appellant’s motion
to strike the statutory burglary and attempted robbery charges,
erred by improperly instructing the jury on the issue of eyewitness identification, erred by denying appellant’s request for the
appointment of a neuropsychologist, and erred with respect to the
preparation of the trial transcripts.

92a
§ 18.2-10(a) states that the punishment for a Class 1
offense is life imprisonment. Furthermore, inmates
who have been convicted of Class 1 felonies are not
eligible to apply for conditional release under the
geriatric parole statute, Code § 53.1-40.01.2
On June 25, 2012, prior to appellant’s trial, the
United States Supreme Court held in Miller, 132 S. Ct.
at 2469, that “the Eighth Amendment forbids a sentencing scheme that mandates life in prison without
possibility of parole for juvenile offenders.” In response
to the decision in Miller, the Commonwealth moved to
amend the capital murder indictment to change it to a
charge of first-degree murder. Code § 18.2-32 classifies first-degree murder as a Class 2 felony, and Code
§ 18.2-10(b) states that Class 2 felonies are punishable
by a range of twenty years to life imprisonment. Furthermore, inmates who have been convicted of Class 2
felonies are eligible to apply for conditional release
under the geriatric parole statute. See Code § 53.140.01. The trial court granted the Commonwealth’s
motion to amend the indictment against appellant to
a charge of first-degree murder, and appellant has not
challenged that decision on appeal.
Following the jury’s verdict convicting appellant of
first-degree murder, among other offenses, the trial
2

Code § 53.1-40-01 states,
Any person serving a sentence imposed upon a conviction for a felony offense, other than a Class 1 felony, (i)
who has reached the age of sixty-five or older and who
has served at least five years of the sentence imposed
or (ii) who has reached the age of sixty or older and who
has served at least ten years of the sentence imposed
may petition the Parole Board for conditional release.
The Parole Board shall promulgate regulations to implement the provisions of this section.

93a
court sentenced appellant as a juvenile offender pursuant to Code § 16.1-272(A). In anticipation of sentencing, appellant’s counsel submitted to the trial
court a series of articles that addressed adolescent
brain development. According to appellant’s counsel,
these articles supported a finding that the brain of a
person who is appellant’s age at the time that these
offenses occurred has not completely grown and developed. Based on these articles, appellant’s counsel contended that the trial court should not consider appellant as culpable as a fully mature adult would be. The
Commonwealth, in turn, submitted documents from
the City of Lynchburg Public Schools that detailed,
inter alia, the many suspensions that appellant had
received — including several that involved acts of
violence.3
In addition, the probation officer prepared a presentence report that was presented to the trial court and
to the parties prior to sentencing. The presentence
3

Included in these documents was a report from appellant’s
principal explaining why appellant was suspended from school
for ten days in January 2009. The principal wrote:
On January 21, 2009 at approximately 9:05 a.m.
Raheem was involved in a fight with another student
in front of the school building. Raheem initiated the
confrontation by punching and then slamming the
other individual to the ground. This referral is
Raheem’s 12th referral for the 2008–09 school year.
He has previously been suspended from school for 22
days. Raheem is a habitual offender. . . . This is to
notify you that I am suspending Raheem for 10 school
days and that I will forward a recommendation to the
superintendent that the school board consider a longterm suspension/alternative educational placement.
In addition, it appears that appellant was suspended at least
twice during the 2009–10 school year after hitting other students.

94a
report indicated that many prior juvenile petitions had
been filed against appellant, with several of those
petitions resulting in probation or adjudications of
guilt.4 The presentence report also stated that appellant had been a member of the Bloods gang since he
was about thirteen years old and that appellant
admitted to a juvenile and domestic relations district
court officer in August 2008 that he had risen to “the
rank of 2-Star General” in that gang.
At the sentencing hearing, the Commonwealth
argued that a life sentence for appellant’s first-degree
murder conviction was appropriate. In support of this
argument, the prosecutor contended that appellant’s
prior record was “atrocious,” that appellant’s murder
of the victim was “brutal,” “heartless,” and “sick,”5 and
that a life sentence would “guarantee the next two to
three generations of Lynchburg residents that this
defendant will no longer harm anyone on our streets.”
The prosecutor noted that appellant would be eligible
to apply for geriatric parole at age sixty and asserted
that it should be the role of “the geriatric parole board
4

For example, in November 2005, Johnson was charged with
assault and battery. After being placed on probation, appellant
was found guilty of a probation violation in February 2006.
Appellant was also found guilty of disorderly conduct in April
2006. Johnson was then charged with assault and battery and
brandishing a firearm in April 2008, and he was found guilty of
that assault and battery offense in June 2008. Appellant
remained on supervised probation until March 2010.
5

The victim’s mother and the victim’s girlfriend both testified
at the sentencing hearing. The victim’s girlfriend, who had dated
the victim for eight years and is the mother of the victim’s son,
testified at sentencing that her then-three-and-a-half-year-old
son “knows who his father is.” She testified that the victim’s
death has been especially difficult for their son (who witnessed
his father’s murder), adding, “He remembers everything.”

95a
to make the determination whether it’s ever safe for
him to be released again.” In response, appellant’s
counsel relied on the United States Supreme Court’s
decision in Miller for the view that “juveniles are
different.” Appellant’s counsel asserted, “Whether
you are an adult at eighteen by the law does not negate
the psychological and scientific evidence that you
remain a juvenile with regard to the development of
the brain until your mid-twenties.” Appellant’s counsel
requested that the trial court impose a total sentence
that was within the recommended sentencing guidelines range of twenty-eight years, two months and
forty-seven years of imprisonment.
The trial court decided to impose a life sentence for
the first-degree murder conviction, explaining from
the bench at the sentencing hearing:
[I]n this case we had a helpless victim, the
shooting was unprovoked, and it was cruel
and callous. It was just mean. It was, it’s as
cruel and callous as anything I’ve seen since
I’ve been sitting here on the bench and that’s
been awhile. Just totally unnecessary to put
a bullet in this young man’s head.
Appellant’s counsel filed a motion for reconsideration. Summarizing the ways in which he alleged that
the trial court had erred at sentencing, appellant’s
counsel argued in the motion for reconsideration,
“Nothing announced in the court’s imposition of sentence demonstrates an individualized sentencing taking into consideration the various characteristics of
Raheem Chabezz Johnson detailed in the presentence
report, the trial of the case, or the scientific studies of
the brain received by the Court.”

96a
The trial court: denied the motion for reconsideration in a written order that also incorporated a letter
opinion, in which the trial court found:
The life sentence was imposed after careful
consideration of your client’s individual characteristics as reflected in the record, including without limitation, the presentence report
and school records. The materials submitted
with your letter dated September 4, 2012
were reviewed. The sentencing guidelines
were also considered and felt to be inappropriate due to the horrendous nature of the
crime. Raheem Chabezz Johnson has a history
of disrespect for authority and aggressive
behavior which, coupled with the brutality of
the offense, make him, in my opinion, a danger to himself and others should he be returned
to society.
II. Analysis
A. Sentencing in Virginia
Virginia’s law pertaining to appellant’s appeal of his
sentence is well established.
We review the trial court’s sentence for abuse of
discretion. Valentine v. Commonwealth, 18 Va. App.
334, 339, 443 S.E.2d 445, 448 (1994). Given this
deferential standard of review, we will not interfere
with the sentence so long as it “‘was within the range
set by the legislature’” for the particular crime of which
the defendant was convicted. Jett v. Commonwealth, 34
Va. App. 252, 256, 540 S.E.2d 511, 513 (2001) (quoting
Hudson v. Commonwealth, 10 Va. App. 158, 160–61,
390 S.E.2d 509, 510 (1990)).

97a
Scott v. Commonwealth, 58 Va. App. 35, 46–47, 707
S.E.2d 17,23 (2011); see Abdo v. Commonwealth, 218
Va. 473, 479, 237 S.E.2d 900, 903 (1977) (“We have
held in numerous cases that when a statute prescribes
a maximum imprisonment penalty and the sentence
does not exceed that maximum, the sentence will not
be overturned as being an abuse of discretion.”); see
also Rawls v. Commonwealth, 272 Va. 334, 351, 634
S.E.2d 697, 706 (2006); Williams v. Commonwealth,
270 Va. 580, 584, 621 S.E.2d 98, 100 (2005); cf. Code
§ 19.2-298.01(F) (stating that a trial court’s decision
not to follow the discretionary sentencing guidelines
range “shall not be reviewable on appeal or the basis
of any other post-conviction relief’).
In this case, appellant was convicted of first-degree
murder. That offense is a Class 2 felony, which is punishable by a statutory sentencing range of twenty
years to life imprisonment. See Code § 18.2-32; see
also Code § 18.2-10(b). The trial court sentenced appellant to life imprisonment for the first-degree murder
conviction. That sentence did not exceed the statutory
maximum penalty for first-degree murder. Accordingly, “the sentence will not be overturned as being an
abuse of discretion” under Virginia law. Abdo, 218 Va.
at 479, 237 S.E.2d at 903.
Nevertheless, appellant argues that the United
States Supreme Court’s recent decision in Miller
requires this Court to reverse his life sentence for firstdegree murder as a matter of federal constitutional
law. Neither this Court nor the Supreme Court of
Virginia previously has addressed Miller in a published
opinion. To the extent that appellant’s argument under
Miller raises a question of constitutional interpretation, that issue is reviewed de novo. Lawlor v. Com-

98a
monwealth, 285 Va. 187, 240, 738 S.E.2d 847, 877
(2013).
B. The Decision in Miller v. Alabama
The United States Supreme Court limited its review
in Miller to the constitutionality of mandatory sentencing statutes that provide sentencing courts no discretion to sentence juvenile offenders to anything other
than life sentences without the possibility of parole.
Indeed, the first paragraph of the majority opinion in
Miller summarizes the issue before the Supreme
Court and states the scope of its holding as a matter of
constitutional law:
The two 14-year-old offenders in this case
were convicted of murder and sentenced to
life imprisonment without the possibility of
parole. In neither case did the sentencing
authority have any discretion to impose a
different punishment. State law mandated
that each juvenile die in prison even if a judge
or jury would have thought that his youth and
its attendant characteristics, along with the
nature of his crime, made a lesser sentence
(for example, life with the possibility of
parole) more appropriate. Such a scheme
prevents those meting out punishment from
considering a juvenile’s “lessened culpability”
and greater “capacity for change,” Graham v.
Florida, 560 U. S. __, __ (2010) (slip op., at 17,
23), and runs afoul of our cases’ requirement
of individualized sentencing for defendants
facing the most serious penalties. We therefore hold that mandatory life without parole
for those under the age of 18 at the time of
their crimes violates the Eighth Amendment’s

99a
prohibition on “cruel and unusual punishments.”
Miller, 132 S. Ct. at 2460 (emphasis added); see also
id. at 2461, 2463 (explaining that both juvenile defendants who petitioned the Supreme Court in Miller were
sentenced under state statutes that mandated life
without the possibility of parole for their offenses).
The Supreme Court then repeated its central holding
in Miller - i.e., that a mandatory life sentence without
the possibility of parole for juvenile offenders violates
the Eighth Amendment’s prohibition against cruel
arid unusual punishments - at least two more times
later in the majority opinion. See id. at 2468, 2475.
Thus, the Supreme Court clearly did not hold in
Miller that all life sentences for juvenile offenders
violate the Eighth Amendment. The Supreme Court
in that case addressed a specific type of life sentence —
a mandatory life sentence without the possibility of
parole.6 The Supreme Court expressly declined to
consider in Miller whether “the Eighth Amendment
requires a categorical bar” on all life sentences without
the possibility of parole for juvenile offenders. See id.
at 2469 (“[W]e do not consider [the petitioners’] alternative argument that the Eighth Amendment requires
a categorical bar on life without parole for juveniles, or
at least for those 14 and younger.”). The Supreme
Court’s actual holding in Miller states that “the Eighth
Amendment forbids a sentencing scheme that man-

6

The majority opinion in Miller simply cannot be read outside
of the context of a life sentence without the possibility of parole.
Indeed, the phrases “without parole,” “without the possibility of
parole,” and “life-without-parole” appear approximately seventy
times in the majority opinion in Miller.

100a
dates life in prison without possibility of parole for
juvenile offenders.” Id. (emphasis added).
C. Appellant’s sentence was within the trial
court’s discretion
It is plainly evident that the life sentence imposed
by the trial court here passes the United States
Supreme Court’s test for constitutionality that it
expressed in Miller. An Eighth Amendment violation
occurred in Miller, in the view of the Supreme Court,
because the fourteen-year-old defendants were automatically sentenced to mandatory terms of life imprisonment without the possibility of parole for their
offenses. By contrast, as discussed supra, the trial
court here indisputably had the discretion to sentence
appellant to a term that ranged from twenty years to
life imprisonment for the first-degree murder that
appellant committed about two months before his
eighteenth birthday. That discretion alone places this
case clearly outside of the category of cases that the
Supreme Court addressed in Miller.7
7

Furthermore, contrary to appellant’s argument on appeal,
the trial court here actually did render an “individualized” sentencing decision in this case. See Miller, 132 S. Ct. at 2475 (noting
that the Supreme Court’s recent “individualized sentencing decisions make clear that a judge or jury must have the opportunity
to consider mitigating circumstances before imposing the harshest possible penalty for juveniles” (citing Graham v. Florida, 560
U.S. 48 (2010), and Roper v. Simmons, 543 U.S. 551 (2005)). In
its letter opinion denying appellant’s motion to reconsider - which
the trial court incorporated in its final order - the trial court
expressly stated that appellant’s “life sentence was imposed after
careful consideration of [appellant’s] individual characteristics
as reflected in the record” before the trial court at the time of
sentencing. (Emphasis added). The trial court’s statements
indicating that it sentenced appellant on an individualized basis
speak for themselves, and this Court will not second-guess them.

101a
Ultimately, the trial court found that a life sentence
for appellant’s first-degree murder of the victim was
appropriate because appellant’s prior record, “coupled
with the brutality of the offense,” made appellant “a
danger to himself and others should he be returned to
society.” To hold that the trial court somehow lacked
the discretion to impose a life sentence under the
circumstances of this case would require us to step far
outside the United States Supreme Court’s holding in
Miller — which addresses statutes mandating life
sentences without the possibility of parole for juvenile
offenders. In addition, the Supreme Court of Virginia
has already held that geriatric parole under Code §
53.1-40.01 (for which appellant will be eligible to apply
at age sixty) represents a “meaningful opportunity to
obtain release based on demonstrated maturity and
rehabilitation” for purposes of the Eighth Amendment.
Angel v. Commonwealth, 281 Va. 248, 275, 704 S.E.2d
386,402 (2011). Accordingly, it is clear that appellant’s life sentence for the horrific first-degree murder
of the victim in this case must be affirmed.

See McBride v. Commonwealth, 24 Va. App. 30, 35,480 S.E.2d
126, 128 (1997) (“A court speaks through its orders and those
orders are presumed to accurately reflect what transpired.”).
As the trial court explained in its letter opinion, it considered
the contents of the presentence report and appellant’s school records. The trial court also explained that it reviewed the articles
on adolescent brain development submitted by appellant’s trial
counsel. The trial court’s decision not to accord those articles significant weight certainly will not be disturbed on appeal-given
that the trial court exercised its discretion in selecting an appropriate sentence for appellant within the statutory sentencing
range. See Williams, 270 Va. at 584, 621 S.E.2d at 101. The trial
court also considered, but rejected, the range of recommended
sentences under the sentencing guidelines, and that decision is
not reviewable on appeal. See Code § 19.2-298.01(F).

102a
III. CONCLUSION
The trial court, in its discretion, sentenced appellant
to life imprisonment for first-degree murder. This
sentence was proper under Virginia law, given that
life imprisonment is within the sentencing range for
first-degree murder. Furthermore, the United States
Supreme Court’s decision in Miller simply does not
apply here because Miller concerns the mandatory
imposition of life imprisonment without the possibility
of parole for juvenile offenders. Accordingly, for the
foregoing reasons, we affirm appellant’s life sentence
for his first-degree murder conviction.
Affirmed.

103a
APPENDIX I
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
COMMONWEALTH OF VIRGINIA
v.
RAHEEM CHABEZZ JOHNSON,
DOB [REDACTED]
Defendant.
————
July 17, 2012
————
Present, the Honorable Mosby G. Perrow, III, Judge
————
ORDER
Felony No. CR11022622-00-07 — First Degree Murder; Statutory Burglary with Intent to Commit Murder, Rape, or Robbery While Armed with a Deadly
Weapon; Attempted Robbery, 2 Counts; Use of a Firearm During the Commission of a Felony, 4 Counts
This day came the Commonwealth, represented by
Charles Felmlee and Bethany Harrison, and Raheem
Chabezz Johnson, who stands indicted for felonies,
to-wit: first degree murder, statutory burglary with
intent to commit murder, rape, or robbery while armed
with a deadly weapon, attempted robbery, 2 counts,
and use of a firearm during the commission of a felony,
4 counts, appeared in proper person, in custody,
and came Leigh Drewry, defense counsel previously
appointed, and came also the jury, previously sworn
according to their adjournment.

104a
The evidence was presented by the Commonwealth,
and at the conclusion thereof, the defendant, by
counsel, made a motion to strike the Commonwealth’s
evidence as to the charges of statutory burglary with
intent to commit murder, rape, or robbery while armed
with a deadly weapon, and attempted robbery, 2
counts, for the reasons stated to the record, which
motion the Court overruled, and exception was noted.
Thereupon the defendant presented his evidence
and renewed his motion to strike the Commonwealth’s
evidence, which motion the Court overruled, and exception was noted.
After hearing all the evidence, the instructions of
the Court and argument of counsel, the jurors were
sent to the jury room to consider their verdict. They
subsequently returned their verdict in open Court, in
the following words, to-wit: “We, the jury, find the
defendant guilty of first degree murder, as charged in
the indictment. Steven Powers, Foreman.” “We, the
jury, find the defendant guilty of statutory burglary
with the intent to commit murder of robbery while
armed with a deadly weapon, as charged in the indictment. Steven Powers, Foreman.” “We, the jury, find
the defendant guilty of the attempted robbery of
Timothy Irving, as charged in the indictment. Steven
Powers, Foreman.” “We, the jury, find the defendant
guilty of the attempted robbery of Artenna HorsleyRobey, as charged in the indictment. Steven Powers,
Foreman.” “We, the jury, find the defendant guilty of
using a firearm during the commission of murder, as
charged in the indictment. Steven Powers, Foreman.”
“We, the jury, find the defendant guilty of using a
firearm during the commission of burglary, as charged
in the indictment. Steven Powers, Foreman.” “We, the
jury, find the defendant guilty of using a firearm dur-

105a
ing the commission of the attempted robbery of
Timothy Irving, as charged in the indictment. Steven
Powers, Foreman.” “We, the jury, find the defendant
guilty of using a firearm during the commission of the
attempted robbery of Artenna Horsley-Robey, as
charged in the indictment. Steven Powers, Foreman.”
The Court enters judgment on the verdict as to guilt
and the jury was discharged.
Thereupon, the defendant, by counsel, renewed his
motion to strike the Commonwealth’s evidence, and
made a motion to set aside the verdict, for reasons
stated on the record, to which motions the Court doth
deny.
The Court, before fixing punishment or imposing
sentence, doth direct the Probation Officer of this
Court to thoroughly investigate and report to the
Court as provided by law, and sentencing is set for
September 14, 2012 at 2:00 o’clock p.m., to which time
this case is continued. The Court doth order that the
defendant submit to a substance abuse screening and
follow-up pursuant to Section 18.2-251.01 as deemed
appropriate by the Probation Officer.
The Court certifies that at all times during the trial
of this case the defendant was personally present and
defense counsel was likewise personally present and
capably represented the defendant.
And the defendant is remanded to jail.

106a
APPENDIX J
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
Felony No. CR11022622-00-07
————
COMMONWEALTH OF VIRGINIA
v.
RAHEEM CHABEZZ JOHNSON,
DOB [REDACTED]
Defendant.
————
August 15, 2012
————
Present, the Honorable Mosby G. Perrow, III, Judge
————
ORDER
First Degree Murder; Statutory Burglary with Intent to
Commit Murder, Rape, or Robbery While Armed with
a Deadly Weapon; Attempted Robbery, 2 Counts; Use
of a Firearm During the Commission of a Felony, 4
Counts
This day came the Commonwealth’s Attorney, represented by Charles Felmlee, and the defendant, Raheem
Chabezz Johnson, in proper person, and came also
Leigh Drewry, defense counsel previously appointed.
Thereupon, the defendant, by counsel, made a motion
to appoint a neuropsychologist, for reasons stated on
the record, to which the Commonwealth was opposed,

107a
and the Court, having heard evidence and argument
of counsel, doth deny said motion, and exception was
noted.
And this case is continued to September 14, 2012 at
2:00 o’clock p.m. for sentencing.
And the defendant is remanded to jail.

108a
APPENDIX K
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
FIPS CODE 680
————
COMMONWEALTH OF VIRGINIA
v.
RAHEEM CHABEZZ JOHNSON,
Defendant.
————
Hearing Date: October 5, 2012
Filed October 5, 2012
————
Judge: Mosby G. Perrow, III
————
ORDER
Felony No. CR11022622-00-07 – First Degree Murder;
Statutory Burglary with Intent to Commit Murder,
Rape, or Robbery While Armed with a Deadly Weapon;
Attempted Robbery, 2 Counts; Use of a Firearm
During the Commission of a Felony, 4 Counts
This case came before the Court for sentencing of the
defendant, who appeared in person with his attorney,
Leigh Drewry. The Commonwealth was represented
by Charles Felmlee.

109a
On July 17, 2012, the defendant was found guilty of
the following offenses:
Case Number

Offense
Offense
Description &
Date
Indicator Felony/
Misdemeanor
(F/M)

CR11022622-00 First Degree
Murder (F)
MUR0925F2
CR11022622-01 Statutory
Burglary with
Intent to Commit
Murder or
Robbery While
Armed with a
Deadly Weapon
(F) BUR2212F2
CR11022622-02 Attempted
Robbery (F)
ROB1214A9
CR11022622-03 Attempted
Robbery (F)
ROB1214A9
CR11022622-04 Use of a Firearm
During the
Commission of a
Felony (F)
ASL1319F9
CR11022622-05 Use of a Firearm
During the
Commission of a
Felony (F)
ASL1319F9

Code
Section

4/11/2011 18.2-32

4/11/2011 18.2-90

4/11/2011 18.2-58
&
18.2-26
4/11/2011 18.2-58
&
18.2-26
4/11/2011 18.253.1

4/11/2011 18.253.1

110a
CR11022622-06 Use of a Firearm 4/11/2011 18.2During the
53.1
Commission of a
Felony (F)
ASL1319F9
CR11022622-07 Use of a Firearm 4/11/20011 18.2During the
53.1
Commission of a
Felony (F)
ASL1319F9
The presentence report was considered and is ordered
filed as a part of the record in this case in accordance
with the provisions of Code Section 19.2-299.
Pursuant to the provisions of Code Section 19.2298.01, the Court has considered and reviewed the
applicable discretionary sentencing guidelines and the
guidelines worksheets. The sentencing guidelines worksheets and the written explanation of any departure
from the guidelines are ordered filed as a part of the
record in this case.
Before pronouncing the sentence, the Court inquired
if the defendant desired to make a statement and if the
defendant desired to advance any reason why judgment should not be pronounced.
The Court SENTENCES the defendant to:
Incarceration with the Virginia Department of Corrections for the term of: life on the charge of first
degree murder, 20 years on the charge of statutory
burglary with intent to commit murder or robbery
while armed with a deadly weapon, 2 years on each of
the attempted robbery charges, 3 years on the charge
of use of a firearm during the commission of a felony
(CR11022622-04), and 5 years on each of the use of a

111a
firearm during the commission of a felony charges
(CR11022622-05-07). The total sentence imposed is
life plus 42 years.
These sentences shall run consecutively with any
other sentences imposed.
Costs. The defendant shall pay the costs of this
prosecution in accordance with a schedule prepared by
the Clerk.
Credit for Time Served. The defendant shall be
given credit for time spent in confinement while awaiting trial pursuant to Code Section 53.1-187.
And the defendant is remanded to jail.
DEFENDANT IDENTIFICATION:
Alias:

SSN: [REDACTED]

DOB: [REDACTED]

Sex: Male

SENTENCING SUMMARY:
TOTAL SENTENCE IMPOSED: Life, plus 42 years
TOTAL SENTENCE SUSPENDED: none
TOTAL SENTENCE TO SERVE: Life, plus 42 years

112a
APPENDIX L
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
Order CR11022622
————
COMMONWEALTH OF VIRGINIA,
v.
RAHEEM CHABEZZ JOHNSON,
Defendant.
————
Filed October 23, 2012
————
The Motion to reconsider life sentence filed by
Raheem Chabezz Johnson, by counsel, in the Clerk’s
Office of the Circuit Court for the City of Lynchburg
on October 15, 2012, is denied. The Court’s letter to B.
Leigh Drewry, Jr., counsel for the defendant, dated
October 23, 2012, is incorporated herein by reference.
Endorsement by counsel is dispensed with and the
objection of the defendant to the Court’s action is
noted. The Clerk is directed to forward a certified copy
of this order to B. Leigh Drewry, Jr., counsel for the
defendant, and to the Charles Felmlee, Deputy Commonwealth’s Attorney for the City of Lynchburg.
Entered this 23 day of October, 2012.
/s/ Mosby G Perrow, III, Judge

113a
[LETTERHEAD OMITTED]
October 23, 2012
B. Leigh Drewry, Jr., Esq.
Cunningham & Drewry
105 Archway Court
Lynchburg/ VA 24502
Re: Commonwealth of Virginia v.
Raheem Chabezz Johnson
Dear Mr. Drewry:
I have reviewed the defendant’s motion to reconsider the life sentence imposed by the Court upon his
conviction by a jury of first degree murder. The motion
will be denied without a hearing.
The life sentence was imposed after careful consideration of your client’s individual characteristics as
reflected in the record, including without limitation
the presentence report and school records. The materials submitted with your letter dated September 4,
2012, were reviewed. The sentencing guidelines were
also considered and felt to be inappropriate due to the
horrendous nature of the crime. Raheem Chabezz
Johnson has a history of disrespect for authority and
aggressive behavior which, coupled with the brutality
of the offense l make him, in my opinion, a danger to
himself and others should he be returned to society.
Very truly yours,
/s/ Mosby G. Perrow
Mosby G Perrow, III, Judge
MGP, III/vkh
cc: Charles Felmlee, Esq.
Eugene Wingfield, Clerk

114a
APPENDIX M
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
File No. CR11-022622-00
————
COMMONWEALTH OF VIRGINIA
v.

Plaintiff,

RAHEEM CHABEZZ JOHNSON,
Defendant.
————
Filed August 1, 2012
————
MOTION
COMES NOW Raheem Chabezz Johnson, by counsel, and respectfully moves this Honorable Court for
an Order appointing Joseph Conley, Ph.D., to serve as
an expert in preparation for the sentencing hearing
currently scheduled for Friday, September 14, 2012 at
2:00 p.m. In support of this motion, Raheem Chabezz
Johnson says as follows:
1. Ake v. Oklahoma, 470 U.S. 68 (1985) and Husske.
v. Commonwealth, 252 Va. 203, 476 S.E.2d 920
(1996) hold that upon a showing of a specific
need due process requires an indigent defendant be afforded the same resources as a defendant capable of employing his own experts.
2. Raheem C. Johnson is indigent and currently
represented by appointed counsel.

115a
3. Raheem C. Johnson was convicted by a jury on
Tuesday, July 16, 2012 on the charges of first
degree murder, statutory burglary with the
intent to commit murder or robbery while
armed with a deadly weapon, two (2) counts of
attempted robbery, and four (4) counts of use of
a firearm in the commission of a felony.
4. Sentencing is currently scheduled for Friday,
September 14, 2012 at 2:00 p.m.
5. A presentence investigation report has been
directed to be prepared by the Court pursuant
to VA CODE ANN § 19.2-299.
6. VA CODE ANN § 19.2-299 says the probation
officer shall “thoroughly investigate and report
upon the history of the accused, . . . and all other
relevant facts to fully advise the Court so the
Court may determine the appropriate sentence
to be imposed.” (Emphasis added.)
7. Miller v. Alabama, __ U.S. __ (June 25, 2012,
slip op. at 6) has found “[t]he concept of proportionality is central to the Eighth Amendment.”
(Internal citations omitted.)
8. The standard presentence report does not
explore the development of an individual’s brain
or how mature the individual’s brain is.
9. Peer reviewed literature in the field of psychology reveals an individual’s brain does not fully
mature until the mid-twenties, with males
maturing later than females.
10. This same literature demonstrates numerous
cognitive deficits go undetected by the layman
and in the absence of a proper examination.

116a
11. Joseph Conley, Ph.D., is a licensed clinical neuropsycologist [sic] who has devoted his practice
to the study of the maturation of the brain and
its functioning.
12. Raheem C. Johnson is currently 19 years of age.
13. An examination of Raheem C. Johnson by Joseph
Conley, Ph.D., will provide relevant facts specific to Raheem C. Johnson so as “to fully advise
the court” of all matters specific to Raheem C.
Johnson and allow the fashioning of a sentence
in compliance with the 8th Amendment to the
United States Constitution.
14. It is expected Dr. Conley’s services will cost
$2,000.
Wherefore, Raheem Chabezz Johnson respectfully
requests this Honorable Court enter an Order appointing Joseph Conley, Ph.D., to assist counsel for Raheem
Chabezz Johnson in the development of additional
facts specific to Defendant in the preparation of his
sentencing hearing scheduled for September 14, 2012.
Respectfully Submitted,
/s/ B. Leigh Drewry, Jr.
B. Leigh Drewry, Jr.
Counsel for Defendent
[CERTIFICATE OF SERVICE OMITTED]

117a
APPENDIX N
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
COMMONWEALTH OF VIRGINIA
Plaintiff,
v.
RAHEEM CHABEZZ JOHNSON,
Defendant.
————
TRANSCRIPT OF PROCEEDINGS
THE HONORABLE MOSBY G. PERROW, III,
PRESIDING
AUGUST 15, 2012
Lynchburg, Virginia
————
Filed August 15, 2012
————
FILED IN THE CLERK’S OFFICE OF THE CIRCUIT COURT OF
THE CITY OF LYNCHBURG
DATE 14/4/12 TIME 1030 AM
TESTE: EUGENE C. WINGFIELD, CLERK

by: ____________ Dep. Clerk
————
Vicki K. Hunt
P. O. Box 11292
Lynchburg, VA 24506
(434) 851-8991
————
[Pgs. 1–2 Omitted]

118a
[Pg. 3]
THE CLERK: Commonwealth versus Raheem
Johnson
THE COURT: Alright. Counsel are we ready?
Mr. Felmlee: We are, Your Honor
Mr. Drewry: Yes, Sir.
The Court: And we’re here on your motion, Mr.
Drewry, for appointment. My docket says of a neuropsychologist.
MR. DREWRY: Yes, Sir, Judge.
THE COURT: To assist with the sentencing?
MR. DREWRY: Yes, Sir.
THE COURT: Alright.
MR. DREWRY: Judge . The , uh, the last – I think
the motion is the last four pages in that file that you
have.
We’re making this motion on several grounds. One.,
Ake v. Oklahoma, and Husske v. Commonwealth 1996
version of Ake, asking for a. specific situation. And we
would submit that the subsequent reasons are the specific reasons outlined. 19.2-299 is the presentence
investigation report statute which this Court is
ordered
[Pg. 4]
to be direct, or has directed to be prepared. Within
that Code section, it directs the probation officer to
thoroughly investigate and report from the history of
the accused, and emphasis towards the end, all other
relevant facts to fully advise the Court so as the Court
may determine the appropriate sentence to impose.

119a
And then I cite the Court to my new favorite case
Miller v. Alabama, which is a capital case, that emphasizes proportionality as central to the Eighth Amendment. We would submit, Judge, that the probation
officer does not have the ability to collect the necessary
details about what is happening within my client’s
mind, how my client’s mind has developed. And he’s
still only nineteen. And research within the field of
psychology indicates that the human brain does not
fully mature until the mid-twenties and later for males
than for females. There’s also some indication in
talking to Dr. Conley that there may be additional
developmental delays in my particular client that can
only be confirmed with regard to testing.
So we would submit that Dr. Conley’s facts or unique
abilities allow us to develop’ the other relevant facts
needed to individualize the punishment that this Court
is going to have to mete out when we return in
[Pg. 5]
September. And ask the Court to enter the order.
THE COURT: Mr. Felmlee.
MR. FELMLEE: Your Honor, the Commonwealth is
opposed to this order. We do not believe the defense
has shown a particularized need for this particular
expert. Reading from the Husske case that Mr. Drewry
cited in his motion, it states that the Commonwealth
of Virginia upon request must provide indigent defendants with the basic tools of an adequate defense. This
defendant is indigent, Mr. Drewry has been appointed
in this case. The case goes on to state this requirement,
however, does not confer a right upon an indigent
defendant to receive at the Commonwealth’s expense
all assistance that a non-indigent defendant may purchase. The indigent defendant who seeks appoint-

120a
ment of an expert must show a particularized need.
Mere hope or suspicion that favorable evidence is
available is not enough to require that such help be
provided. The determination whether the defendant
has made an adequate showing of particularized
necessity lies within the discretion of the trial judge
and will not be overturned unless plainly wrong.
Your Honor, in this case, I believe, you know, this is
not an issue of competency to stand trial. This is not
an issue of insanity. I think the Commonwealth
[Pg. 6]
has provided the basic tools of an adequate defense for
this defendant already. I think Your Honor in this
case appointed a private investigator at the Commonwealth’s expense to assist the defense in their preparation. There was also an ex parte judge, Judge Yeatts
was appointed as an ex parte judge. And I believe the
Commonwealth was put on notice that Dr. Michael
Light, a renowned professor from New York University
was gonna be traveling down at the Commonwealth’s
expense to potentially testify at the trial stage. The
defense elected not to call him as a witness. But we
had two outside people that were provided funds. The
private investigator, potentially this professor from
the State of New York.
Your Honor, in the defense’s motion bullet point
eight states that the standard presentence report does
not explore the development of an individual’s brain or
how mature the individual/s brain is. Bullet point
nine goes on to state that the brain is not fully mature
until the mid-twenties. I think it’s just sort of common
sense, you know, as you get older, you get more mature.
We’re not dealing with a jury sentencing. We/re
dealing with Your Honor. Your Honor is gonna be

121a
sentencing this-defendant. This is not a capital case.
He’s not looking at the death penalty. He’s not looking
at life in prison without parole. No matter what
sentence this Court fashions on
[Pg. 7]
the defendant at age sixty this defendant will be
eligible for geriatric parole if he petitions the parole
board.
So what we’ve seen in this motion, I — we do not
believe the defense has shown a particularized need.
This is sort of just common sense that you’re not,
you’re — you’re more mature when you’re twenty-five
than you are when you are, when you’re seventeen.
This defendant was seventeen years old and approximately ten months when he committed this homicide.
And now all of a sudden he’s the older he gets the more
mature he will be getting.
So for these reasons, Your Honor, it would be at a
cost·of two thousand dollars to the Commonwealth.
We do not believe the defense has shown a particularized need. We believe we’ve provided, the Commonwealth has provided the defense with the adequate
tools of defense. We do not believe this is — this is
needed for this case.
THE COURT: Mr. —
MR. DREWRY: Judge
THE COURT: Mr. Drewry.
MR. DREWRY: If we’re gonna get into a dollar and
cents calculation, which I submit that we shouldn’t.
THE COURT: I think the case law says fundamental
fairness over weighs cost to the Commonwealth, Mr.
Drewry.

122a
[Pgs. 8–9 Omitted]
[Pg. 10]
MR. DREWRY: The reality is that we’re stuck with
the problems that I don’t have all of the tools. And I
understand that indigent doesn’t equal. And that’s
part of the problem. Indigent doesn’t equal retained
client or a retained attorney. That creates a dual
system in violation of equal protection. But more
importantly in this case, Miller v. Alabama looks at
the Eighth Amendment and says that proportionality
has to be involved and Miller also goes on as do other
cases, in traditional cases not capital cases, say that
punishment has to be tailored for the individual. This
helps the Court in the words of presentence find the
relevant factors for that tailoring.
THE COURT: Well, you’re telling me there’s nothing in the school records that would support your
position that this evaluation is needed? Other than.
MR. DREWRY: No, Sir.·
THE COURT: Okay. Well, Mr. Drewry, I don’t think
you’ve shown a particularized need. I don’t think Miller
requires this evaluation in every case where the
accused was a juvenile at the time he — of the offense.
He’s been convicted, he’s now an adult. You know,
this — and I don’t think there’s anything in the case
law that requires us to have every individual who has
been convicted of an offense committed when he was a
[Pg. 11]
juvenile to have this type of evaluation.
I’m gonna deny your motion and your exception is
noted.

123a
I’d be willing to review the school records but you
obviously have and there’s nothing in them that would
support your position.
MR. DREWRY: Judge, the Court. is making a ruling
based upon the fact that you believe that I’m gonna be
asking for this or that other lawyers are gonna be
asking for this —
THE COURT: No.
MR. DREWRY: in every juvenile situation. That’s
not the case. I’m asking for it in this case. In this case
only.
THE COURT: I’m saying you haven’t shown a particularized need, Mr. Drewry.
MR. DREWRY: Judge, it’s not sole — this motion is
not based solely upon a particularized need. It’s based
upon 19.2-299 and the presentence investigation. And
you’re not gonna be able to get the relevant facts that
are available in this case by this examination.
THE COURT: Alright. Well, you have my ruling.
Your exceptions noted.
(Whereupon the proceeding was concluded)

124a
APPENDIX O
Filed September 4, 2012
[Letterhead Omitted]
The Honorable Mosby O. Perrow, III. Judge
Lynchburg Circuit Court
P.O. Box 4
Lynchburg, VA 24505
Re: Commonwealth v. Raheem Chabezz Johnson
Dear Judge Perrow:
On Wednesday, August 15,2012, you heard a defense
motion seeking the appointment of Joseph Conley,
Ph.D., a licensed clinical neuropsychologist, to serve as
a defense expert in preparation for sentencing in this
case currently set for Friday, ‘September 14, 2012.
The Commonwealth argued the defense had failed
to show a specific reason for the need to appoint an
expert in this matter. The chief thrust of the prosecution’s argument was that it is common sense an individual of Mr. Johnson’s age was not as mature as an
individual of thirty (30) years of age. While not agreeing in toto, the defense agreed there was maturing still
occurring as an individual aged.
My argument went on to say there were additional
changes to the brain as one aged.
Unfortunately, it appears the prosecution and the
defense were using the same word to describe two
distinct concepts. I am also afraid I failed to properly
identify the reasons why I believe Dr. Conley, as
a licensed, clinical neuropsychologist, should be
appointed.
A quick reference to Webster’s New Collegiate Dictionary (1976) and to the online version of the free

125a
Miriam-Webster Dictionary highlights the difference
in concepts represented by the single word, “mature”.
Both dictionaries identify “mature” as an adjective.
The first definition of “mature” as an adjective defines
it as “slow, careful consideration”.
The second definition for the adjective “mature” says
it is “having completed natural growth and development.”
The 1976 version of Webster’s goes on to identify
“mature” as a verb meaning to become fully developed
or ripe.
It appears the prosecution was using the word
“mature” to mean that as one ages the individual
acquires the ability to give their action mature consideration.
On the other hand, I was referring to the growth and
the physiological changes the adolescent brain experiences until fully developed.
Since our August 15, 2012 hearing, I have been able,
with the help of Dr. Conley, to identify four (4) articles
which illustrate my definition of “mature”. Two (2) of
these articles are “Adolescence, Brain Development,
and Legal Culpability”, Journal of the American Bar
Association, January, 2004 and Section 3, “Adolescent
Brain” from Wisconsin Council on Children & Families, Rethinking the Juvenile in Juvenile Justice (2006).
I have enclosed a copy of both of these articles for your
review.
These articles identify four (4) physiological changes
occurring in the adolescent brain as it progresses
towards its completed development.
The first is an explosion of a gray matter which is
that portion of the brain involved in thinking. This

126a
explosion of gray matter, results in the development of
additional synapses. Following the explosion of gray
matter the brain engages in a process these articles
refer to as “pruning”. The pruning is in fact myelination, which is the installation of insulation and the
creation of the white matter portion of the brain. This
myelination creates a more precise and efficient brain
and allows thought processes to clarify.
The articles also confirm the prefrontal cortex continues to grow in size serving as a check on the amygdala.
It is important to remember as individuals enter
adolescence the amygdala, which controls emotion, is
the predominant structure within the brain. It is only
after the prefrontal cortex has completed its development is it able to overcome the emotion generated by
the amygdala. Please keep in mind included in emotion is the body’s natural response known as “fight or
flight”.
As individuals enter adolescence their body is awash
in new hormones, particularly, testosterone. Testosterone only serves to aggravate the emotional response
of the amygdala. At the same time the adolescent
brain is experiencing this infusion of testosterone, it is
dealing with an inadequate supply of the neurotransmitter dopamine. This depressed level of dopamine
does not allow for the efficient operation of the
prefrontal cortex and an overriding of the emotion of
the amygdala. Therefore, adolescents tend to engage
in higher risk behaviors than adults in their effort to
receive the same emotional satisfaction all human
beings seek.
In addition to these four (4) physiological components there are a variety of traumatic experiences

127a
which have an impact upon the physiological development of the brain. These experiences include, but are
not limited to, family dysfunction, poverty, neglect,
and a mental health diagnosis such as Attention
Deficit Hyperactivity Disorder (ADHD). A review of
school records along with the records of the Lynchburg
Department of Social Services reveals Mr. Johnson
experienced all of these and most likely additional
events which adversely impacted the physiological
development of his brain. Only an in-depth examination by an expert, such as Dr. Conley, will allow the
court, at sentencing, to more fully appreciate the individual characteristics of Mr. Johnson as you seek to
fashion a sentence specific to him.
I submit this letter along with the articles I have
enclosed provide the court with the specificity case law
requires to appoint Dr. Conley as an expert to assist
the defense in the sentencing of this matter.
Should the court agree and elect to appoint Dr.
Conley, please accept this letter as my additional
request for a continuance of the sentencing currently
set for Friday, September 14, 2012.
Should the court reject the request to appoint an
expert and to continue this matter, I ask the court to
accept these two (2) articles and the additional two (2)
articles you will find enclosed as the “common sense”
exhibits referenced by the prosecution.
Thank: you very much for your attention to this
matter.
Sincerely,
/s/ B. Leigh Drewry, Jr.
B. Leigh Drewry

128a
BLD/lag
Enclosures:
cc:
Chuck Felmlee
Raheem Johnson
Eugene Wingfield, Clerk

129a
APPENDIX P
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
COMMONWEALTH OF VIRGINIA
Plaintiff,
v.
RAHEEM CHABEZZ JOHNSON,
Defendant.
————
TRANSCRIPT OF PROCEEDINGS
THE HONORABLE MOSBY G. PERROW, III,
PRESIDING
October 5, 2012
Lynchburg, Virginia
————
Filed October 5, 2012
————
FILED IN THE CLERK’S OFFICE OF THE CIRCUIT COURT OF
THE CITY OF LYNCHBURG
DATE 12/4/12 TIME 1030 AM
TESTE: EUGENE C. WINGFIELD, CLERK

by: ____________ Dep. Clerk
————
Vicki K. Hunt
P. O. Box 11292
Lynchburg, VA 24506
(434) 851-8991
————

130a
[Pgs. 1–22 Omitted]
[Pg. 23]
Is there anything you want to say before the Court
sentences you?
THE DEFENDANT: No, Sir.
THE COURT: Alright. Well, Mr. Johnson, in this
case we had a helpless victim, the shooting was unprovoked, and it was cruel and callous. It was just mean.
It was, it’s as cruel and callous as anything I’ve seen
since I’ve been sitting here on the bench and that’s
been awhile. Just totally unnecessary to put a bullet
in this young man’s head.
Upon your conviction of use of a firearm in the
commission of murder, I’m gonna sentence you to the
mandatory three years confinement in the penitentiary.
Upon your conviction of use of a firearm in the commission of statutory burglary — not statutory burglary, uh, yeah, statutory burglary, I’m gonna sentence
you to five years confinement in the penitentiary.
Mandatory use of firearm in the commission of
attempted robbery, two counts, five years on each
count.
Upon your conviction of attempted robbery, two
counts, I’m gonna sentence you to two years confinement in the penitentiary on each count.
[Pg. 24]
Upon your conviction of burglary with the intent to
commit robbery, I’m gonna sentence you to twenty
years confinement in the penitentiary.

131a
And upon your conviction of first degree murder, I’m
gonna sentence you to life in prison.
Mr. Drewry, you can advise him with regard to his
appeal.
MR. DREWRY: I’ve already done it and I’ll take care
of it.
THE COURT: Alright. Alright. Anything further?
MR. FELMLEE: No, Your Honor.
THE COURT: Alright.
(Whereupon the proceeding was concluded)

132a
APPENDIX Q
VIRGINIA: IN THE CIRCUIT COURT
FOR THE CITY OF LYNCHBURG
————
File No. CR11-022622-00
————
COMMONWEALTH OF VIRGINIA
v.
RAHEEM CHABEZZ JOHNSON,
Defendant.
————
Filed October 15, 2012
————
MOTION
COMES NOW Raheem Chabezz Johnson, by counsel, and respectfully moves this Honorable Court to
reconsider its sentence of life in the penitentiary upon
the charge of First Degree Murder entered on Friday,
October 5, 2006. In support of this Motion, Raheem
Chabezz Johnson says as follows:
1. He was initially indicted by the Lynchburg Circuit Court Grand Jury on the charge of capital
murder in violation of VA CODE ANN §§ 18.230 and 31.
2. At the time of the alleged offense, Raheem
Chabezz Johnson was 17 years of age.
3. Under VA CODE ANN §§ 18.2-10 and 31 and
case law, Raheem Chabezz Johnson faced only
one possible sentence if convicted of this offense,
life without the possibility of parole.

133a
4. On June 25, 2012 the United States Supreme
Court issued its opinion in Miller v. Alabama,
__ U.S. __ (June 25, 2012) which held such
sentences were unconstitutional.
5. The United States Supreme Court said, “By
making youth (and all that accompanies it)
irrelevant to imposition of that harshest prison
sentence, such a scheme poses too great a risk
of disproportionate punishment.” Miller v.
Alabama, supra. (slip op. at p. 17.)
6. The Court acknowledged “children are constitutionally different from adults for purposes of
sentencing. Because juveniles have diminished
culpability and greater prospects for reform, we
explained, ‘they are less deserving of the most
severe punishments.’” Miller v. Alabama, supra
(slip op. at p. 8.)
7. The Court went on to say. “And in Graham, we
noted that ‘developments in psychology and brain
science continue to show fundamental differences between juvenile and adult minds’ – for
example, in ‘parts of the brain involved in
behavior control.’ . . . We reasoned that those
findings – of transient rashness, proclivity for
risk, and inability to assess consequences–
both lessened a child’s ‘moral culpability’ and
enhanced the prospect that, as the years go by
and neurological development occurs, his ‘deficiencies will be reformed’”. Miller v. Alabama,
supra. (slip op. at p 9.)
8. The Court enunciated a variety of other reasons
for its holding which Raheem Chabezz Johnson
adopts in support of this Motion.

9.

134a
In a letter dated September 4, 2012 to this
Court, counsel for Raheem Chabezz Johnson
provided several articles detailing some of
what the United States Supreme Court
referenced in its Miller v. Alabama opinion.

10. At sentencing, the trial court acknowledged
receiving this letter and these articles and
made them a part of the record.
11. The sentencing court, however, did not rely on
Miller v. Alabama nor on these articles to
mitigate the life sentence nor to individualize
the punishment it imposed upon Raheem
Chabezz Johnson.
12. Instead, the Court accepted the recommendation of the prosecutor in the instant case and
imposed life in the penitentiary without
consideration of Raheem Chabezz Johnson’s
individual characteristics as required by
Miller v. Alabama, supra and Graham v.
Florida, 560 U.S. __, 130 S. Ct. 2011, 176 L.Ed.
2d 825 (2010).
13. This action ignores only 18% of the prisoners
eligible for geriatric parole in 2011 applied and
of this number only 2.3% were given geriatric
release. In other words, only three (3) of 719
inmates eligible for early release received it,
0.4%. “Geriatric offenders within the SR
Popluation” [sic] Virginia Department of Corrections, Research and Forecast Unit, August
2012.
14. Such statistics fail to establish a “realistic
opportunity to obtain” an early release from a
life term as required by Graham v. Florida,

135a
supra, 560 U.S. at __, 130 S. Ct. at 2034 and
Miller v. Alabama, supra.
15. The Court announced from the bench this was
the most cruel and calloused homicide it had
witnessed during its tenure.
16. Such comments ignore the reality the same
trial judge presided in the case of Commonwealth v. Winston which saw the initial
imposition of the death penalty for the killing of
a pregnant woman in the presence of her two
(2) minor children and Commonwealth v.
Kenneth J. Davis which resulted in an active
prison term of 35 years for the beating death of
an eighty-five (85) years old gentleman
walking on the streets of the City of Lynchburg. The latter defendant was a juvenile at
the time the offense was committed.
17. The instant case involved in the killing of a
young man involved in the drug trade before
his girlfriend and two year old child.
18. Nothing announced in the Court’s imposition
of sentence demonstrates an individualized
sentencing taking into consideration the
various characteristics of Raheem Chahezz
Johnson detailed in the presentence report,
the trial of the case, or the scientific studies of
the brain received by the Court.
WHEREFORE, Raheem Chabezz Johnson respectfully requests this Honorable Court modify its sentence of life in the penitentiary and impose a sentence
in keeping with Raheem Chabezz Johnson’s youth, his
ability to mature and develop mentally and psychologically, and the sentencing guidelines detailed in the

136a
presentence report as required by Miller v. Alabama,
supra.
Respectfully Submitted,
RAHEEM CHABEZZ JOHNSON
By: /s/ B. Leigh Drewry, Jr. _____
Of Counsel
B. Leigh Drewry, Jr.
CUNNINGHAM & DREWRY
105 Archway Court
Lynchburg, VA 24505
434-846-3348
434-846-3351 - Fax
Counsel for Defendant
[CERTIFICATE OF SERVICE OMITTED]

137a
APPENDIX R
NO. _____
In the

Supreme Court of the United States
————
RAHEEM JOHNSON,
v.

PETITIONER,

COMMONWEALTH OF VIRGINIA,
————

RESPONDENT.

On Petition for a Writ of Certiorari to
the Supreme Court of the
Commonwealth of Virginia
————
PETITION FOR WRIT OF CERTIORARI
————
B. LEIGH DREWRY, JR.
104-B Archway Court
Lynchburg, VA 24502
(434) 239-0044

ASHLEY C. PARRISH
Counsel of Record
JOSHUA N. MITCHELL
KING & SPALDING LLP
1700 Pennsylvania Ave., NW
Washington, DC 20006
(202) 626-2627
aparrish@kslaw.com

Counsel for Petitioner
August 21, 2017

138a
[EXCERPT]
QUESTIONS PRESENTED
The Commonwealth of Virginia sentenced Raheem
Johnson to life in prison for a crime he committed
when he was seventeen. Because Virginia has abolished parole, Johnson’s only opportunity to leave prison before he dies, aside from executive clemency, is
through Virginia’s “geriatric release” program, which
allows inmates, on reaching sixty, to petition for
conditional release. But as one Virginia Supreme
Court Justice explained in this case, geriatric release,
“as it currently exists in the Commonwealth, is fundamentally not a system that ensures review and release
based on demonstrated maturity and rehabilitation.”
App. 21. The Virginia Supreme Court’s opinion below
did not disagree with that observation, but nonetheless ruled that because geriatric release “provides a
meaningful opportunity for release that is akin to
parole,” this Court’s decision in Miller v. Alabama, 567
U.S. 460 (2012), “has no application” either to Johnson’s
sentence or to the procedures relied on by the trial
court to impose it. App. 11–13. The questions presented are:
1. Does Miller apply to a sentence of life in prison
imposed on a juvenile whose only opportunity for
release from prison is Virginia’s geriatric-release
program?
2. When a juvenile faces a sentence equal to or
exceeding his natural life, must the sentencing court
conduct an individualized inquiry, including receiving
expert testimony, to determine whether the defendant
is the rare juvenile offender who should be treated as
permanently incorrigible?

139a
PETITION FOR WRIT OF CERTIORARI
This case, on direct appeal from the Virginia Supreme
Court, presents an opportunity for this Court to
address the merits of the important recurring question
it could not reach in Virginia v. LeBlanc, 137 S. Ct.
1726 (2017) (per curiam) — whether a geriatricrelease program like Virginia’s satisfies the requirements of the Eighth Amendment when applied to
juveniles sentenced to life in prison. It also presents
the Court with an ideal vehicle to clarify whether a
sentencing court is required — before imposing a
sentence equal to or exceeding a juvenile defendant’s
natural life — to make an individualized inquiry to
determine whether the defendant falls within the
small category of juveniles who are permanently incorrigible. Granting review would also allow the Court to
reaffirm the principles set forth in McWilliams v.
Dunn, 137 S. Ct. 1790 (2017), and to clarify when an
expert is needed to aid the sentencing court in distinguishing between a juvenile offender capable of rehabilitation and the rare juvenile offender who is irreparably corrupt.
This Court’s decisions have directed the lower courts
to take into account juvenile offenders’ immaturity
and potential for rehabilitation to ensure that their
sentences are constitutionally appropriate. Nonetheless,
the lower courts remain divided and confused over the
proper scope and application of those decisions. That
confusion is especially significant in cases, like this
one, where a state purports to follow the narrow letter
of the law, but does not appropriately comply with this
Court’s decisions or faithfully implement the important
constitutional requirements they recognize. The lower
courts’ erroneous rulings in this case warrant further
review. Addressing the important issues raised here

140a
will provide much-needed guidance to the lower courts
and reduce the need for this Court’s intervention in
future cases.

141a
APPENDIX S
No. 17-326
————
In The Supreme Court of the United States
————
RAHEEM CHABEZZ JOHNSON,
Petitioner,
v.
COMMONWEALTH OF VIRGINIA,
Respondent.
————
On Petition For Writ Of Certiorari
To The Supreme Court Of Virginia
————
BRIEF IN OPPOSITION
————
MARK R. HERRING
Attorney General of Virginia
TREVOR S. COX
Acting Solicitor General
November 20, 2017
MATTHEW R. MCGUIRE
Acting Deputy Solicitor General
Counsel of Record
OFFICE OF THE
ATTORNEY GENERAL
202 North Ninth Street
Richmond, Virginia 23219
(804) 786-7773
mmcguire@oag.state.va.us

142a
————
[EXCERPT]
REVISED QUESTIONS PRESENTED
In Miller v. Alabama, 567 U.S. 460 (2012), this
Court held that imposing a mandatory life-withoutparole sentence on juvenile homicide offenders violates the Eighth Amendment’s ban on “cruel and unusual punishments.” In Montgomery v. Louisiana, 136
S. Ct. 718 (2016), this Court held that Miller announced
a substantive rule of constitutional law that applied
retroactively to cases on collateral review. Virginia’s
sentencing scheme does not mandate life sentences for
juvenile homicide offenders convicted of first-degree
murder, a Class 2 felony. Virginia provides for a
presentence investigation and report, allows defendants to offer mitigating evidence before sentencing,
and permits the sentencing judge to impose a discretionary sentence ranging from 20 years to life. Offenders convicted of first-degree murder also are eligible to
apply for release at the age of 60, subject to consideration under the normal parole factors applied in Virginia.
The questions presented are:
Does Miller, standing alone, prohibit a trial court
from imposing a discretionary life sentence on a juvenile homicide offender when the offender is eligible for
release at age 60 based on normal parole considerations?
Does Miller, standing alone, require State courts to
appoint an expert witness at the State’s expense in
every case where a juvenile offender could receive a
lengthy sentence?

143a
STATEMENT OF THE CASE
1. Two months shy of his 18th birthday, Raheem
Chabezz Johnson hatched a plan with his friend
Dennis Watts to rob Timothy Irving. Va. App. 2351; see
also Pet. App. 2. Because Watts had purchased
marijuana from Irving on prior occasions, the two men
agreed that, on April 11, 2011, Watts would knock on
the door to gain entry to the home while Johnson hid
out of sight. Va. App. 235. When Irving answered the
door, Johnson made his presence known, brandished a
handgun, and forced Irving into the house. Id.
Also home at the time were Irving’s girlfriend and
their two-year-old son. Id. They were in the bedroom
when Johnson forced Irving into the room and ordered
him to hand over his money and marijuana. Id. With
Irving’s girlfriend next to him on the floor and his
toddler son on the bed, Johnson shot Irving in the back
of the head. Id. Irving died. See id. “The victim’s girlfriend and two-year-old son . . . thus, were forced to
watch the murder” of their partner and father, respectively. Pet. App. 26.
Johnson was indicted by “a grand jury . . . on eight
felony charges.” Id. 27. Specifically, Johnson was
indicted for capital murder, statutory burglary with
intent to commit murder or robbery while armed with
a deadly weapon, two counts of attempted robbery,
and four counts of use of a firearm in the commission
of a felony. Va. App. 1-2. Prior to his trial in the Circuit
Court of the City of Lynchburg, this Court decided
Miller v. Alabama, which held that States must provide juvenile homicide offenders an opportunity to
present mitigation evidence and argue for a sentence
1

“Va. App.” refers to the appendix filed in the Supreme Court
of Virginia.

144a
less than life without parole. 567 U.S. 460, 479 (2012).
In response to this Court’s decision, the Commonwealth amended the capital-murder charge to firstdegree murder, which gave the trial court the option
of imposing a sentence as short as 20 years if Johnson
was convicted. See Va. App. 6-8; see also Va. Code Ann.
§ 18.210(b) (2014). A jury found Johnson guilty of all
eight charges.
2. After Johnson was found guilty, the trial court
ordered the preparation of a presentence report before
“fixing punishment or imposing sentence.” Pet. App. 41.
Before the sentencing hearing was conducted, Johnson
filed a motion asking the trial court to appoint a
neuropsychologist to assist him with “preparation for
the sentencing hearing.” Va. App. 88-90. Johnson
argued that, under Ake v. Oklahoma, 470 U.S. 68
(1985), he was entitled to have an expert appointed
because examination of Johnson by a neuropsychologist would “provide facts specific to [Johnson] so as ‘to
fully advise the court’ of all matters specific to” him.
Pet. App. 52.
After a hearing on the issue, the trial court denied
Johnson’s motion to appoint a neuropsychologist to
assist during the sentencing phase. Id. 59. The court
concluded that Johnson had not “shown a particularized need” and that Miller did not mandate this type
of “evaluation in every case where the accused was a
juvenile at the time . . . of the offense. He’s been
convicted, he’s now an adult,” having turned 18 during
the pendency of the case. Id.
In light of the trial court’s ruling, Johnson submitted a letter to the court on September 4, 2012, bringing
to the court’s attention four articles that he said
addressed “the growth and the physiological changes

145a
the adolescent brain experiences until fully developed.” Id.
62. The articles were selected with the help of the
expert Johnson had asked to have appointed. Id.
Johnson’s letter explained the science behind how the
juvenile brain differs from an adult brain and how the
juvenile brain continues to change with age. See id. 6364. Johnson also linked the scientific evidence to his
school records, which were before the court, to show
how “family dysfunction, poverty, neglect, and”
attention-deficit-hyper-activity disorder affected him
and “adversely impacted the physiological development of his brain.” Id. 64. Johnson asked the court to
reconsider its decision on his motion to appoint an
expert witness, but if the court refused, Johnson
alternatively asked the court to accept the articles and
consider them in imposing his sentence. Id. 65.
On October 5, 2012, the trial court held a sentencing
hearing at which Irving’s mother and his girlfriend
testified. See Va. App. 193-200. Irving’s girlfriend
testified about how difficult it has been for her since
the murder, and that Irving’s son “remembers everything,” “ask[s] about his father . . . [a]ll of the time,”
and that she does not “know how to explain [the
murder] to him.” Id. 199.
In its closing argument, the Commonwealth pointed
out that Johnson would eligible for geriatric release in
41 years, so even if the court imposed a maximum
sentence the parole board “will be able to make the
determination whether it will be safe to ever release
this defendant.” Id. 203. And in asking the court to
impose the maximum sentence, the Commonwealth
noted that Johnson was a gang member, had a history
of violent actions in school, and had “six years of
criminal behavior listed on his criminal history.” Id.

146a
204-05. “Everything this defendant ha[d] ever done
culminated” in the shooting of “an unarmed
defenseless man at point blank range in the forehead
in the man’s own home in the middle of the night in
front of his fiancé[e] and two year old child.” Id. 205.
After hearing the testimony and argument, and
after considering the presentence report as well as
“the applicable discretionary sentencing guidelines
and guidelines worksheets,” Pet. App. 45, the trial
court sentenced Johnson:
[To] life on the charge of first degree murder,
20 years on the charge of statutory burglary
with intent to commit murder or robbery
while armed with a deadly weapon, 2 years on
each of the attempted robbery charges, 3
years on the charge of use of a firearm during
the commission of a felony, and 5 years on
each of the [remaining] use of a firearm
during the commission of a felony charges. Id.
46.
In sum, “[t]he total sentence imposed [was] life plus 42
years.” Id. Before imposing that sentence, the trial
court explained that “the shooting was unprovoked,”
the victim was “helpless,” and that the murder was “as
cruel and callous as anything I’ve seen since I’ve been
sitting on the bench and that’s been awhile.” Id. 67.
On October 15, 2012, Johnson filed a motion asking
the trial court to reconsider the life sentence Johnson
received for murdering Irving. See id. 47. In rejecting
Johnson’s request, the trial court stated that “[t]he life
sentence was imposed after careful consideration of
[Johnson’s] individual characteristics as reflected in
the record, including without limitation the presentence report and school records.” Id. 48. Additionally,

147a
the trial court stated that the four articles Johnson
submitted to the court about adolescent brain development “were reviewed.” Id. The trial court explained
that it had imposed the maximum sentence in this
case “due to the horrendous nature of the crime” as
well as Johnson’s “history of disrespect for authority
and aggressive behavior, which coupled with the brutality of the offense [ ] make him, in my opinion, a
danger to himself and others should he be returned to
society.” Id.
3. Johnson appealed his sentence and the trial
court’s decision denying him an expert witness to the
Court of Appeals of Virginia. The Court of Appeals
denied Johnson’s appeal with respect to the expert
witness, but granted him an appeal to decide whether
his life sentence violated Miller. See Pet. App. 25-26 &
n.1. In upholding the life sentence, the court explained
that “the Supreme Court clearly did not hold in Miller
that all life sentences for juvenile offenders violate the
Eighth Amendment.” Id. 35. Here, “the trial court . . .
indisputably had the discretion to sentence [Johnson]
to a term that ranged from twenty years to life imprisonment for the first-degree murder that appellant
committed about two months before his eighteenth
birthday.” Id. 36. According to the court, “[t]hat discretion alone places this case clearly outside of the category of cases” covered by Miller. Id. And, as the court
explained, “the trial court here actually did render an
‘individualized’ sentencing decision in this case.” Id.
36 n.7.
Again, Johnson appealed. The Supreme Court of
Virginia awarded him an appeal with respect to two
issues: (1) “the trial court’s refusal to appoint a
neuropsychologist at the Commonwealth’s expense to
assist in the preparation of his presentence report”;

148a
and (2) “the life sentence imposed by the trial court
was in violation of the Eighth Amendment because the
trial court failed to afford him the opportunity to present evidence about youth and its attendant characteristics.” Pet. App. 2. With respect to the appointment of
a neuropsychologist, the court held that Johnson had
not shown “the requisite ‘particularized need.’ ” Id. 6;
see also id. 7 (“The indigent defendant who seeks the
appointment of an expert must show a particularized
need.” (citation omitted)). The court based its decision
on the fact that “Johnson sought the assistance of an
expert at the Commonwealth’s expense with no idea
what evidence might be developed or whether it would
assist him in any way.” Id. 8. The court declined to
address whether Miller itself provides “the requisite
‘particularized need.’ ” Id. 10 n.2.
With respect to Johnson’s challenge to his life sentence, the court held “that Miller is inapplicable” to
this case. Id. 10. Unlike the Court of Appeals, the
Supreme Court of Virginia concluded that Johnson’s
eligibility for geriatric release at age 60 qualified as a
form of parole. See id. 10-11. Consequently, Johnson is
not serving a life-without-parole sentence, and Miller
does not apply. See id. 11. Johnson argued that geriatric release does not provide a meaningful opportunity
for release because of the asserted “low statistical probability of release.” Id. 12 n.4. The court rejected that
argument as “speculative because the statistical data
Johnson relies on does not include juvenile offenders.”
Id.
Johnson timely filed a petition for a writ of certiorari.

